<html>
<title> - STAKEHOLDER ASSESSMENTS OF THE ADMINISTRATION'S NATIONAL PREPAREDNESS GRANT PROGRAM PROPOSAL</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
 STAKEHOLDER ASSESSMENTS OF THE ADMINISTRATION'S NATIONAL PREPAREDNESS 

                         GRANT PROGRAM PROPOSAL
=======================================================================



                                HEARING

                               before the

                       SUBCOMMITTEE ON EMERGENCY

                        PREPAREDNESS, RESPONSE,

                           AND COMMUNICATIONS

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 29, 2014

                               __________

                           Serial No. 113-66

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED] 


                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________



                  U.S. GOVERNMENT PRINTING OFFICE
89-446                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Paul C. Broun, Georgia               Yvette D. Clarke, New York
Candice S. Miller, Michigan, Vice    Brian Higgins, New York
    Chair                            Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Jeff Duncan, South Carolina          Ron Barber, Arizona
Tom Marino, Pennsylvania             Dondald M. Payne, Jr., New Jersey
Jason Chaffetz, Utah                 Beto O'Rourke, Texas
Steven M. Palazzo, Mississippi       Filemon Vela, Texas
Lou Barletta, Pennsylvania           Eric Swalwell, California
Richard Hudson, North Carolina       Vacancy
Steve Daines, Montana                Vacancy
Susan W. Brooks, Indiana
Scott Perry, Pennsylvania
Mark Sanford, South Carolina
Vacancy
                   Brendan P. Shields, Staff Director
          Michael Geffroy, Deputy Staff Director/Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

  SUBCOMMITTEE ON EMERGENCY PREPAREDNESS, RESPONSE, AND COMMUNICATIONS

                  Susan W. Brooks, Indiana, Chairwoman
Peter T. King, New York              Donald M. Payne, Jr., New Jersey
Steven M. Palazzo, Mississippi,      Yvette D. Clarke, New York
    Vice Chair                       Brian Higgins, New York
Scott Perry, Pennsylvania            Bennie G. Thompson, Mississippi 
Mark Sanford, South Carolina             (ex officio)
Michael T. McCaul, Texas (ex 
    officio)
            Eric B. Heighberger, Subcommittee Staff Director
                   Deborah Jordan, Subcommittee Clerk


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Susan W. Brooks, a Representative in Congress From 
  the State of Indiana, and Chairwoman, Subcommittee on Emergency 
  Preparedness, Response, and Communications.....................     1
The Honorable Donald M. Payne, Jr., a Representative in Congress 
  From the State of New Jersey, and Ranking Member, Subcommittee 
  on Emergency Preparedness, Response, and Communications:
  Oral Statement.................................................    14
  Prepared Statement.............................................    16
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................    17

                               Witnesses

Ms. Kris Eide, Director, Homeland Security and Emergency 
  Management, State of Minnesota, Testifying on Behalf of 
  Governors Homeland Security Advisory Council and the National 
  Emergency Management Association:
  Oral Statement.................................................    20
  Prepared Statement.............................................    21
Mr. Steven M. Fulop, Mayor, Jersey City, New Jersey:
  Oral Statement.................................................    29
  Prepared Statement.............................................    31
Mr. David Troy Riggs, Director, Department of Public Safety, City 
  of Indianapolis, Indiana:
  Oral Statement.................................................    35
  Prepared Statement.............................................    36
Mr. William R. Metcalf, EFO, CFI, FIFireE, Fire Chief, North 
  County Fire Protection District, State of California, 
  Testifying on Behalf of International Association of Fire 
  Chiefs:
  Oral Statement.................................................    38
  Prepared Statement.............................................    40
Mr. Randy Parsons, Director of Security, Port of Long Beach, 
  Testifying on Behalf of American Association of Port 
  Authorities:
  Oral Statement.................................................    42
  Prepared Statement.............................................    44

                             For the Record

The Honorable Susan W. Brooks, a Representative in Congress From 
  the State of Indiana, and Chairwoman, Subcommittee on Emergency 
  Preparedness, Response, and Communications:
  Letter and Questions Submitted to the Federal Emergency 
    Management Agency By Chairwoman Brooks and Ranking Member 
    Payne........................................................     2
  Letter From the Major City Chiefs Association, the 
    International Association of Chiefs of Police, the Major 
    County Sheriffs' Association, and the National Sheriff's 
    Association..................................................    12
  Letter From the National Fusion Center Association.............    13
The Honorable Yvette D. Clarke, a Representative in Congress From 
  the State of New York:
  Letter From Mayor Bill de Blasio, City of New York.............    51


                    STAKEHOLDER ASSESSMENTS OF THE 
     ADMINISTRATION'S NATIONAL PREPAREDNESS GRANT PROGRAM PROPOSAL

                              ----------                              


                        Tuesday, April 29, 2014

             U.S. House of Representatives,
 Subcommittee on Emergency Preparedness, Response, 
                                and Communications,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:11 a.m., in 
Room 311, Cannon House Office Building, Hon. Susan W. Brooks 
[Chairwoman of the subcommittee] presiding.
    Present: Representatives Brooks, Perry, Payne, Clarke, and 
Higgins.
    Also present: Representative Jackson Lee.
    Mrs. Brooks. The Subcommittee on Emergency Preparedness, 
Response, and Communications will come to order. The 
subcommittee is meeting today to receive testimony regarding 
FEMA's National Preparedness Grant Program proposal.
    Before we begin I would just like to take a moment to 
acknowledge those who are suffering from the severe weather 
that has been plaguing our country for the last few days. It is 
hitting many States and some of our Members, including the vice 
chair of this subcommittee, Mr. Palazzo, from Mississippi, and 
our full committee Ranking Member, Mr. Thompson, from 
Mississippi--their State, others like Oklahoma and Arkansas 
have truly been hit hard. Our thoughts and prayers go out to 
those that are impacted and we certainly urge those who will be 
impacted today and in the coming days, as we are in the 
beginning of tornado season, to be safe and to listen to their 
local authorities.
    For the third year in a row the President's budget request 
has proposed the consolidation of a number of homeland security 
grant programs, including the State Homeland Security Grant 
Program; the Urban Area Security Initiative, known as UASI; the 
Port Security Grant Program; the Transit Security Grant 
Program, into a new National Preparedness Grant Program. In the 
past, Congress has denied this request due to a lack of detail 
and the failure to send a legislative proposal.
    This year FEMA did share its legislative proposal and it 
has already been a topic of a great deal of discussion at this 
subcommittee's budget hearing, at which Administrator Fugate 
testified. Despite this lengthy discussion, questions remain.
    As a result, Ranking Member Payne and I sent a letter to 
Administrator Fugate with a number of detailed questions about 
the proposal. As requested, we did receive a response to our 
inquiry this past Friday and the information will be helpful to 
our review of the proposal.
    I ask unanimous consent to insert our letter and FEMA's 
response into the record.
    Without objection, so ordered.
    [The information follows:]
         Letter From Chairwoman Brooks and Ranking Member Payne
                                     April 9, 2014.
The Honorable W. Craig Fugate,
Administrator, Federal Emergency Management Agency, 500 C Street, SW, 
        Washington, DC 20472.
    Dear Administrator Fugate: Thank you for taking the time to testify 
before the Subcommittee on Emergency Preparedness, Response, and 
Communications on March 25th regarding the President's Fiscal Year 2015 
budget request for the Federal Emergency Management Agency (FEMA). As 
you are now aware from our lengthy discussions during the hearing, 
there is a great deal of interest in, and concern with, the National 
Preparedness Grant Program (NPGP) proposal among Subcommittee Members.
    We have seen the benefits that the current grant programs have had 
on our first responders' capabilities. In testimony before the 
Committee on Homeland Security in May 2013, former Boston Police 
Department Commissioner Ed Davis noted that the response to the Boston 
Marathon bombings would not have been as comprehensive or successful 
without the planning, training, exercises, and equipment supported by 
federal homeland security grant funds. Any efforts to reform the 
current system must be thorough, well-informed, and premised on the 
goal of ensuring that our nation is best able to prevent, prepare for, 
mitigate, respond to, and recover from terrorist attacks.
    As the Members of the Subcommittee review the NPGP legislative 
proposal that was submitted to Congress along with the budget, many 
questions remain. In fact, in some cases the budget documents, 
information provided to our staff in briefings with representatives 
from FEMA's Grant Programs Directorate, and information we received 
from you at the hearing has been contradictory. Considering the impact 
this proposal would have on the way first responders receive grants to 
attain, maintain, and sustain core capabilities, there is no room for 
this uncertainty.
    In an effort to continue our oversight of this issue, we request a 
response to the following questions no later than April 25, 2014.*
---------------------------------------------------------------------------
    * [Questions and responses follow.]
---------------------------------------------------------------------------
    We share your commitment to ensuring our nation's first responders 
have the resources they need to accomplish their vital missions. We 
appreciate your responses to these questions so we can continue this 
discussion.
            Sincerely,
                                           Susan W. Brooks,
   Chairman, Subcommittee on Emergency Preparedness, Response, and 
                                                    Communications.
                                      Donald M. Payne, Jr.,
 Ranking Member, Subcommittee on Emergency Preparedness, Response, 
                                                and Communications.
                                 ______
                                 
   Questions Submitted to the Federal Emergency Management Agency By 
       Chairwoman Brooks and Ranking Member Payne, With Responses
    Question 1a. The NPGP proposal seeks to change the focus of the 
grants from terrorism to all hazards. These programs were established 
in response to the September 11 attacks. While the terrorist threat to 
the United States has changed since 9/11, it has not diminished.
    What is the rationale for changing the focus of these programs?
    Answer. The National Preparedness Grant Program proposal is focused 
on all-hazards capabilities (natural, man-made, and technological). 
FEMA is concerned about the consequences that occur as the result of 
all hazards, including terrorism. Gaps in capability place States, 
regions, and the nation at risk of the consequences of any type of 
hazard, and the National Preparedness Grant Program focuses on filling 
those gaps.
    The National Preparedness Grant Program removes the nexus to 
terrorism requirement and instead broadens the purpose to make grants 
which enable recipients, including high-risk urban areas, States, 
territories, local units of government, and Tribal nations to build and 
sustain the core capabilities identified in the National Preparedness 
Goal.
    Question 1b. Have Homeland Security Grant Program funds been used 
for non-terrorism purposes in the past? If so, please describe the 
projects.
    Answer. The 9/11 Act provides a ``Multiple-Purpose Funds'' 
provision that allows grantees to utilize their Homeland Security Grant 
Program funding for non-terrorism capability-building, as long as the 
capability can also be used to prevent, prepare for, protect against, 
or respond to acts of terrorism.
    For example, the Boston Urban Area used FEMA preparedness grant 
funding to purchase a patient tracking system which is used every day. 
During any type of Multi-Casualty Incident the patient tracking system 
has a ``surge capacity'' which allows Emergency Medical Services 
Incident Commanders to effectively track patients, their conditions, 
and where they were transported. In addition, FEMA has supported 12 
exercises directly involving the city of Boston. These have included 
topics as diverse a chemical or biological attacks, hurricane 
preparedness, hazardous materials events, and cyber attacks. Finally, 
Boston has also conducted ``Urban Shield Boston'' which is a continuous 
24-hour exercise, during which first responders are deployed to and 
rotated through various training scenarios, including all-hazards. The 
exercise involves over 600 emergency responders from 50 agencies, and 
is designed to assess and validate the speed, effectiveness, and 
efficiency of capabilities, as well as test the adequacy of regional 
policies, plans, procedures, and protocols. This exercise incorporates 
regional critical infrastructure, emergency operation centers, regional 
communication systems, equipment and assets, as well as personnel 
representing all aspects of emergency response including intelligence, 
law enforcement, Explosive Ordinance Disposal Units, Fire, EMS, etc.
    Question 1c. How would the risk formula be updated to account for 
non-terrorism-related risks?
    Answer. The risk methodology will continue to be an assessment of 
the relative threat, vulnerability, and consequences from acts of 
terrorism. This will ensure that investment will continue to be made in 
areas at the highest risk of terrorism. However, there will be a 
renewed focus on the utilization of grant resources to address all-
hazards capabilities.
    Question 1d. What new data would be considered?
    Answer. FEMA will continue to use the existing data sets for 
calculating risk. Each year, FEMA refreshes the data that is used in 
the risk methodology to ensure that we are using the most recent data 
available from publicly-available data sources and our DHS partners. 
FEMA understands that the Nation's States and urban areas face diverse 
risks, and we make every effort to capture this diversity as part of 
each year's risk assessments. FEMA will also continue to solicit 
stakeholder feedback regarding the risk formula to ensure we are 
effectively assessing Nation-wide risk.
    Question 1e. How do you envision the new all-hazards focus will 
change the entities and regions receiving funding and the type of 
investments supported?
    Answer. FEMA expects that grant money will continue to be allocated 
to jurisdictions facing the highest risk of terrorism. However, 
consistent with recent guidance, grantees will be required to invest 
their grant dollars against capability gaps identified as a result of 
the THIRA process, which is an assessment of all hazards and risks, 
including those related to terrorism, natural, and technological 
disasters.
    Question 1f. If this program would be changed to an all-hazards 
program, why was the Emergency Management Performance Grant Program 
excluded from consolidation?
    Answer. The Emergency Management Preparedness Grant Program is 
authorized under the Robert T. Stafford Disaster Relief and Emergency 
Assistance Act, as amended (42 U.S.C.  5121 et seq.) and Section 662 
of the Post-Katrina Emergency Management Reform Act of 2006, as amended 
(6 U.S.C.  762). It is designed to provide a system of emergency 
preparedness for the protection of life and property in the United 
States from hazards and to vest responsibility for emergency 
preparedness jointly in the Federal Government and the States and their 
political subdivisions. The Federal Government, through the EMPG 
Program, provides necessary direction, coordination, and guidance, and 
provides necessary assistance, as authorized statute, to support a 
comprehensive all-hazards emergency preparedness system.
    EMPG is the primary Federal funding source to ensure adequate 
staffing of qualified emergency managers at the State and local levels. 
By its nature, therefore, EMPG is fundamentally different from the 
grants which support the development and sustainment of specific 
prevention, protection, mitigation, response, and recovery 
capabilities.
    Question 2a. What problems has FEMA identified in the current 
Homeland Security Grant Program (HSGP) to necessitate a change?
    Answer. The collaborative process envisioned through the National 
Preparedness Grant Program is intended to break down stovepipes among 
grant programs that target specific jurisdictions, sectors of the 
economy or program areas. States, in coordination with their partners, 
currently are conducting THIRAs to determine where their capability 
gaps are greatest, but they lack the ability to strategically allocate 
grant dollars where they will do the most good because those dollars 
are pre-designated for ports, transit agencies, law-enforcement 
activities, and myriad other uses.
    Question 2b. How do the changes proposed in the NPGP ``fix'' those 
problems? To the extent possible, please directly link language from 
the NPGP proposal with the goals FEMA plans to achieve by implementing 
the consolidation.
    Answer. The proposed National Preparedness Grant Program draws upon 
and strengthens existing grants processes, procedures, and structures, 
emphasizing collaboration among Federal, State, territory, local, and 
Tribal partners to understand existing capabilities, identify gaps, and 
determine how best to address those gaps using all available resources, 
including Federal grants. The approach in the National Preparedness 
Grant Program would address the inability to strategically allocate 
grant dollars where they will do the most good in filling capability 
gaps.
    Question 2c. Why is it not possible to remedy the problems 
identified with more minor changes to the existing HSGP? Why is an 
overhaul necessary?
    Answer. FEMA and its State and local partners have made significant 
progress in recent years to ensure grant dollars are used to close the 
capability gaps identified through the THIRA process. The existing 
grant construct creates artificial constraints in State and local 
government's ability to allocate grant dollars where they will have the 
most strategic benefit. Port grant dollars must be spent in ports, even 
if a specific port has no additional security needs. Similarly, transit 
dollars continue to be allocated to transit agencies, even if those 
dollars may be more effectively used to address resource or capability 
requirements in surrounding jurisdictions.
    Question 3. Do you expect to achieve any efficiencies, either 
administratively or through cost savings, from the proposed 
consolidation? If so, please detail the expected efficiencies. Please 
explain whether these efficiencies would be realized by FEMA, the 
State, or the local grantees.
    Answer. FEMA expects to realize programmatic and financial 
efficiencies after the full implementation of the National Preparedness 
Grant Program. While there will be an expected ``transition period'' 
while FEMA is simultaneously administering/closing-out the legacy 
preparedness grant and awarding the new NPGP grant awards, eventually 
FEMA will realize benefits in the following areas:
  <bullet> Fewer Funding Opportunity Announcements and fewer overall 
        grants to award. Processing time will improve.
  <bullet> Fewer monitoring trips due to the reduction in the number of 
        grantees. This will also allow for more targeted, risk-driven 
        monitoring.
  <bullet> Fewer operating procedures and training required for staff, 
        given the elimination of numerous, sometimes conflicting, 
        statutory requirements.
    Question 4a. One of the stated purposes of grant consolidation has 
been improved coordination and collaboration. What efforts has FEMA 
made to encourage coordination and collaboration to this point?
    Answer. FEMA has consistently encouraged collaboration and 
coordination among its grantees, and has seen evidence of the success 
of those efforts in the processes used to prioritize grant allocations 
under the existing programs, (albeit within rather than across those 
programs). The Urban Area Working Groups and Transit Security Working 
Groups, for example, are exemplary of the type of collaboration and 
coordination FEMA hopes to engender across levels of government, 
disciplines, and sectors through the NPGP.
    Question 4b. Why have those efforts not worked? Please provide 
concrete examples of how NPGP would facilitate improved coordination 
and collaboration.
    Answer. Collaboration and coordination does work, within specific 
programs. But the current construct serves as a disincentive for 
grantees to collaborate across programs. For example, recipients of 
Non-Profit Security Grant dollars have a difficult time breaking into 
the planning process at the UASI level because they are seen as having 
their own grant program. Similarly, port and transit agencies have 
little incentive to collaborate with State or local jurisdictions on 
strategic planning or priority setting because they have dedicated 
grant programs they can use to address their own priorities--whether or 
not those priorities make the most sense from a holistic, whole-of-
community approach.
    Question 5a. The NPGP consolidates much of the decision making for, 
and administration of, grant investments to the State Administrative 
Agency (SAA). In its Annual Report to Congress on States' and Urban 
Areas' Management of Homeland Security Grant Programs, the DHS Office 
of Inspector General has repeatedly identified strategic planning and 
oversight of grant activities as areas of improvement for the States.
    Particularly in light of the new responsibilities SAAs would have 
for managing port and transit grant applications, what new guidance 
would FEMA provide to States to improve strategic planning and grant 
management?
    Answer. FEMA already has issued guidance to State and local 
governments on the development of THIRAs and capability estimations 
(CPG 201), the foundation of which is cross-jurisdictional strategic 
planning. In addition, for the past several grant cycles, grantees have 
been required to invest their grant dollars to address capability needs 
identified through the THIRA and capability estimation processes.
    Under the proposed NPGP, FEMA will require the engagement of 
designated urban areas, ports, and transit authorities in State/
territory-generated Threat Hazard Identification and Risk Assessments 
and in the development of grant applications. FEMA will ensure adequate 
collaboration and coordination by requiring:
  <bullet> A detailed description of the Senior Advisory Committee's 
        composition and an explanation of key governance processes, 
        including how the Senior Advisory Committee is informed by the 
        State or territory's Threat Hazard Identification and Risk 
        Assessment, State Preparedness Report data reflecting 
        capability shortfalls, and the approach to address shortfalls 
        in core capabilities;
  <bullet> A description of the frequency of how often Senior Advisory 
        Committee will meet;
  <bullet> How existing governance bodies will be leveraged by the 
        committee;
  <bullet> A detailed description of how decisions on programmatic 
        priorities funded by State Homeland Security Program and Urban 
        Area Security Initiative are made and how those decisions will 
        be documented and shared with its members and other 
        stakeholders as appropriate; and
  <bullet> A description of defined roles and responsibilities for 
        financial decision making and meeting administrative 
        requirements.
    Question 5b. What oversight activities would FEMA conduct to ensure 
that SAAs invest funding based on risk and capability gaps?
    Answer. FEMA already has greatly enhanced grant-monitoring 
activities, both programmatically and financially, and holds grantees 
accountable for meeting their financial and programmatic obligations. 
In addition, starting in fiscal year 2014, FEMA began requiring 
grantees to submit project-level data at the time of application. That 
data includes narrative descriptions of how the proposed project will 
address capability gaps and includes specific elements related to the 
individual core capabilities being built or sustained under each 
project.
    Question 6a. Documents provided to Capitol Hill staff state that 
the fiscal year 2015 NPGP proposal was re-proposed, ``with some 
adjustments made to respond to broad stakeholder feedback solicited and 
received during previous years.''
    What ``adjustments'' were made in the fiscal year 2015 proposal 
compared to the fiscal year 2014 and fiscal year 2013 NPGP proposals?
    Answer. The fiscal year 2015 National Preparedness Grant Program 
responses to stakeholder feedback provide grantees greater certainty 
regarding the sources and uses of available funding. For example:
  <bullet> FEMA will retain the requirement that 80 percent of grant 
        dollars awarded to a State be passed through to local units of 
        government, reflecting the reality that most of the 
        capabilities built and sustained with Federal grant dollars 
        exist not at the State level, but in local jurisdictions. 
        However, there are some capabilities, such as State-wide 
        communications interoperability, that are best addressed at the 
        State level.
  <bullet> FEMA clarified and revised language relating to governance 
        structures under the proposed NPGP. While FEMA can neither 
        prescribe nor enforce how a State should govern itself or 
        interact with its sub-State jurisdictions, the agency has laid 
        out the principles of sound governance structures to ensure 
        maximum involvement by local jurisdictions and other 
        stakeholders in the decision-making process.
  <bullet> The National Preparedness Grant Program calls for one, 
        unified grant application from each State Administrative Agent, 
        but is designed to ensure that projects proposed by transit 
        agencies, ports, local units of government, and non-profit 
        organizations are fully and transparently considered prior to 
        those applications being submitted.
    Question 6b. What outreach have you done to stakeholders during the 
development of this proposal? Please provide a list of the stakeholder 
outreach engagements, the dates upon which they occurred, which 
stakeholders were invited to participate, and which stakeholders 
participated.
    Answer. Since the original introduction of the proposed National 
Preparedness Grants Program (NPGP), DHS/FEMA has worked with more than 
100 partner organizations from State, local, Tribal, and territorial 
governments and the private sector.
    The following stakeholder outreach and associated activities 
focused specifically on providing forums to discuss the proposed 
National Preparedness Grant Program:
2013
    April 10-11.--FEMA leadership calls to the leadership of key 
stakeholder associations, including the National Emergency Management 
Association, International Association of Emergency Managers, National 
Governors' Association, Governor's Homeland Security Advisory Council, 
Big City Emergency Managers, National Association of Counties, National 
League of Cities, U.S. Conference of Mayors, Council of State, 
International Association of Fire Chiefs, International Association of 
Fire Fighters, National Volunteer Fire Council, Congressional Fire 
Services Institute, International Association of the Chiefs of Police, 
National Sheriffs' Association, Major County Sheriffs' Association, 
Major Cities Chiefs Association, National Homeland Security 
Association, National Congress of American Indians, United South and 
Eastern Tribes, American Association of Port Authorities, and American 
Public Transportation Association.
    April 12.--Conference call for State officials and State 
stakeholder associations.
    April 12.--Conference call for local officials, port and transit 
officials, and local stakeholder associations.
    April 24.--In-person meeting with local and State governmental 
associations, including the National Emergency Management Association, 
International Association of Emergency Managers, National Association 
of Counties, National League of Cities, U.S. Conference of Mayors, 
International Association of Fire Chiefs, National Sheriffs' 
Association, National Congress of American Indians, and United South 
and Eastern Tribes.
    April 26.--Intergovernmental Affairs fiscal year 2014 budget 
briefing to local and State governmental associations (included 
discussion of preparedness grants and NPGP).
    May 14.--Conference call with nonprofit organizations.
    May 15.--Conference call with Tribal organizations.
2014
    March 7.--Conference call for State officials and State stakeholder 
associations.
    March 7.--Conference call for local officials, port and transit 
officials, and local stakeholder associations.
    March 13.--Conference call with Tribal organizations.
    March 24.--Intergovernmental Affairs fiscal year 2015 budget 
briefing to local and State governmental associations (included 
discussion of preparedness grants and NPGP).
    March 28.--In-person meeting with governmental association that 
represent local officials, including United States Conference of 
Mayors, International Association of Fire Chiefs, U.S. Council of the 
International Association of Emergency Managers, Major County Sheriffs' 
Association, American Association of Port Authorities, Congressional 
Fire Services Institute, National Sheriffs' Association, National 
Volunteer Fire Council, National League of Cities, National Association 
of Counties, Major Cities Chiefs Association, National Homeland 
Security Coalition (by phone), Big City Emergency Managers, 
International Association of Chiefs of Police, Los Angeles Washington 
Office, New York City Washington Office, Ventura and Santa Barbara 
Counties Washington Representative, Chicago Washington Office.
    April 9.--In-person meeting with D.C.-based Governors 
Representatives.
    In addition, FEMA and DHS officials have participated in numerous 
``listening sessions'' at National conferences, such as the annual UASI 
Conference, the National Homeland Security Consortium Conference, 
meetings of the Governors Homeland Security Advisors Council, and 
others, all of which have informed the development of the current 
proposal.
    Question 6c. How was the input provided by stakeholders 
incorporated into the proposal? Please provide examples.
    Answer. The fiscal year 2015 National Preparedness Grant Program 
responses to stakeholder feedback provide grantees greater certainty 
regarding the sources and uses of available funding. For example:
  <bullet> FEMA will retain the requirement that 80 percent of grant 
        dollars awarded to a State be passed through to local units of 
        government, reflecting the reality that most of the 
        capabilities built and sustained with Federal grant dollars 
        exist not at the State level, but in local jurisdictions. 
        However, there are some capabilities, such as State-wide 
        communications interoperability, that are best addressed at the 
        State level.
  <bullet> FEMA clarified and revised language relating to governance 
        structures under the proposed NPGP. While FEMA can neither 
        prescribe nor enforce how a State should govern itself or 
        interact with its sub-State jurisdictions, the agency has laid 
        out the principles of sound governance structures to ensure 
        maximum involvement by local jurisdictions and other 
        stakeholders in the decision-making process.
  <bullet> FEMA limited the expansion of the definition of ``local unit 
        of government'' to apply only to the proposed National 
        Preparedness Grant Program to avoid unintended consequences 
        related to eligibility for other programs, such as EMPG.
  <bullet> The National Preparedness Grant Program calls for one, 
        unified grant application from each State Administrative Agent, 
        but is designed to ensure that projects proposed by transit 
        agencies, ports, local units of government, and non-profit 
        organizations are fully and transparently considered prior to 
        those applications being submitted.
    Question 7. How would high-risk urban areas be funded under the 
NPGP proposal? Would funding under NPGP be set aside for UASIs with 
applications submitted through the States as is the current practice or 
will UASIs apply to the States in which they are located, with the 
States determining the amount of funding their UASIs receive?
    Answer. FEMA will identify and allocate National Preparedness Grant 
Program sustainment funding specifically to Urban Areas through a 
National-level risk assessment. The designated Urban Areas will submit 
an application through their State Administrative Agency, as is 
currently the case.
    Question 8. How would high-risk urban areas be deemed eligible to 
receive funding under this proposal? Would FEMA utilize a process 
similar to the current process in which there is an assessment of the 
top 100 metropolitan statistical areas?
    Answer. The designation of high-risk urban areas will continue to 
be based on an assessment of the relative threat, vulnerability, and 
consequences from acts of terrorism. As prescribed in the 9/11 Act, the 
calculation of the risk for the 100 most populous Metropolitan 
Statistical Areas would directly inform the dedicated funding allocated 
to urban areas.
    Question 9. Police departments and their officers have played a 
crucial role in preventing acts of terrorism since 9/11. State and 
local police departments have been able to build and maintain 
capabilities through the 25% set-aside for law enforcement terrorism 
prevention activities. However, the NPGP proposal would eliminate this 
25% set-aside.
    What is the rationale for eliminating this set-aside?
    Answer. The proposed National Preparedness Grant Program is 
designed to provide States and their partners with the flexibility to 
allocate dollars to address their self-identified priorities. States, 
in collaboration with their partners, will determine where to apply 
grant dollars in any given year to address capability requirements 
across the five National Preparedness Goal mission areas of protect, 
prevent, mitigate, respond, and recover. Requiring that 25 percent of 
their funding be allocated to specific activities removes a significant 
amount of that flexibility and is inconsistent with the overall 
approach envisioned in the National Preparedness Grant Program 
proposal.
    Maintenance and sustainment of core law enforcement prevention 
capabilities--including fusion centers, countering violent extremism 
and State, territory, and local information sharing--remain key 
administration priorities and law enforcement activities previously 
funded under other grants, such as Operation Stonegarden and the Port 
and Transit grant programs will continue to be eligible activities 
under the proposed National Preparedness Grant Program.
    The National Preparedness Grant Program will continue to support 
State, territory, and local law enforcement efforts to understand, 
recognize, and prevent pre-operational activity and other crimes that 
are precursors or indicators of terrorist activity, in accordance with 
applicable privacy, civil rights, and civil liberties protections. Such 
efforts include:
  <bullet> Maturation and enhancement of State and major urban area 
        fusion centers, including training for intelligence analysts 
        and implementation of Fusion Liaison Officer Programs;
  <bullet> Implementation of the Nation-wide Suspicious Activity 
        Reporting Initiative, including training for front-line 
        personnel on identifying and reporting suspicious activities; 
        Continued implementation of the ``If You See Something, Say 
        Something<SUP>TM</SUP>'' campaign to raise public awareness of 
        indicators of terrorism and violent crime.
    Question 10a. Local stakeholders have expressed concern about the 
change to the definition of ``local unit of government,'' particularly 
that the definition would greatly expand the eligibility for the grant 
programs and could set a dangerous precedent for the expansion of the 
definition under other Federal programs.
    We understand that this problem was brought to FEMA's attention 
during an outreach session, but the definition remains in the proposal. 
What is the rationale for defining a unit of local government as you 
did in the proposal?
    Answer. The National Preparedness Grant Program consolidates 
several grant programs, including the Transit Security Grant Program 
and the Port Security Grant Program, eliminating direct funding for 
port areas and transit agencies. The fiscal year 2015 proposal limits 
the expanded definition of ``local unit of government'' to the National 
Preparedness Grant Program only in an effort to ensure that those 
agencies remain eligible for the local pass-through.
    Question 10b. there an alternate way to define the universe of 
subgrantees you are trying to capture?
    Answer. The administration is willing to work with the Congress to 
develop language that ensures eligibility for the intended universe of 
subgrantees while minimizing the potential unintended consequences of 
changing the definition of local unit of government.
    Question 11a. The proposal would consolidate the Transit Security 
Grant Program, Port Security Grant Program, and Intercity Passenger 
Rail Program into the NPGP, resulting in previous direct grantees 
having to apply to States for funding. In some cases, transit systems 
and port authorities operate across State lines.
    To which State would a transit system or port authority apply if 
they operate in more than one State?
    Answer. There are several options FEMA could consider for transit 
and port stakeholders that have groups or regions covering more than 
one State, depending on the specifics of the situation. With any of the 
options, the key to success is the inclusion of all partners (Federal, 
State, and local) and active participation in the already well-
established Regional Transit Security Working Groups and Area Maritime 
Security Committees. These groups are critical for regional 
prioritization and selection of projects to make application for grant 
funding. A transit or port stakeholder would either propose their 
grant-funded projects through the State in which they are located or 
through a selected State that is part of the group or region in which 
that entity is located. Considerations such as where the project is 
located, impact, and benefit to a particular jurisdiction also may be 
taken into account. This situation is not without precedent as there 
currently are UASI regions, port areas, and transit systems that cross 
State lines. FEMA is committed to working with its stakeholders to 
develop processes that make sense for the individual entities under 
their specific circumstances.
    Question 11b. Would the Washington Metropolitan Area Transit 
Authority be required to apply for funding from the District of 
Columbia, Maryland, and Virginia to fund security enhancements to the 
metro system?
    Answer. The Washington Metropolitan Area Transit Authority could 
work with the District of Columbia or with one or all of the three 
contributing jurisdictions (Virginia, Maryland, and the District). 
Considerations such as where the project is located, its system-wide 
impact, and ancillary benefit to a particular jurisdiction should be 
taken into account in determining how a project would be funded. Again, 
cross-jurisdictional planning and coordination will be essential to 
these processes.
    Question 11c. Would transit authorities be eligible to receive both 
sustainment and competitive funds? Would funding be set aside for these 
entities?
    Answer. Transit authorities would be eligible to receive both 
sustainment and competitive funding under the National Preparedness 
Grant Program, however there will not be specific amount of funding 
set-aside for these entities. One coordinated State-wide/territory-wide 
application will be submitted which will include project proposals from 
local jurisdictions, ports, transit systems, non-profit organizations, 
and other eligible entities.
    Question 12a. According to the Congressional Justifications sent to 
Congress, part of the new NPGP would provide sustainment funding to 
States, while another part of the program would be competitive.
    How would FEMA determine the amount of sustainment funding 
available to States?
    Answer. Sustainment funding allocations will be determined by 
consideration of threat, vulnerability, and consequence factors, as 
well as border security threats, and other known Federal priorities to 
address all hazards. The relative amount designated for sustainment 
versus the competitive pool will be a policy determination made by the 
Secretary based on a review of priority capability gaps, and an 
estimate of the amount of funding required to address those gaps, 
identified through the FEMA Regional THIRAs.
    Question 12b. Would FEMA continue to provide targeted funding 
allocations on which States could base their applications?
    Answer. Each State/territory will receive a base level of funding 
allocated in consideration of threat, vulnerability, and consequences.
    Question 12c. How would the competitive portion work? Please be 
specific.
    Answer. The competitive portion of the program will be awarded 
based on the ability of an application to effectively and efficiently 
address a capability requirement in a particular FEMA Region based on 
that Region's Threat and Hazard Identification and Risk Assessments and 
other National-level risk assessments.
    Regional core capability requirements will be published in the 
funding opportunity announcement (FOA) by FEMA region. All entities--
States, urban areas, non-UASI local units of governments, ports, 
transit agencies, etc. will be eligible to propose projects that 
address one or more of the capability gaps published in the FOA. 
Applications will be peer-reviewed at the FEMA Regional level, and 
evaluated again at the FEMA National level. Competition is not limited 
to entities within a particular region; however, the efficiency of a 
proposed project in addressing a regional capability gap will be a 
significant component of the evaluation process (for example, a State 
proposing to fill a response capability gap on the opposite side of the 
country must show how it can do so efficiently and in a timely manner).
    Question 12d. It is our understanding that previously-funded UASIs 
may be eligible for funding under the competitive program. How would 
that work?
    Answer. As stated, all jurisdictions within a State, including 
previously-funded UASIs, would be eligible to compete for funding under 
the competitive component of the program. FEMA is concerned mainly with 
ensuring that National-level capability requirements are addressed in a 
cost-effective, efficient manner and believes that competition will 
engender innovative approaches to ensuring capabilities are available 
when and where they are needed.
    Question 13a. The Congressional Justification notes that urban 
areas, port authorities, and transit agencies will be required to 
participate in State-generated Threat and Hazard Identification and 
Risk Assessments in fiscal year 2015. We applaud this required 
involvement but are concerned, as we discussed in our January 27, 2013 
THIRA letter to you, that States have not adequately included local 
stakeholders in their THIRA submissions to date.
    How will this mandatory involvement be enforced?
    Answer. FEMA cannot prescribe, nor can it enforce, how a State 
chooses to organize itself or how it elects to interact with local 
units of government, specific sectors of the economy, or other 
stakeholders. However, to ensure that States are adequately engaging 
with local governments, port and transit agencies, urban areas, non-
profit organizations, and other ``whole of community'' partners, FEMA 
will enumerate the principles of strong, effective governance 
structures and will require that each SAA submit:
  <bullet> A detailed description of the Senior Advisory Committee's 
        composition and an explanation of key governance processes, 
        including how the Senior Advisory Committee is informed by the 
        State or territory's Threat and Hazard Identification and Risk 
        Assessment, State Preparedness Report data reflecting 
        capability shortfalls and the approach to address shortfalls in 
        core capabilities;
  <bullet> A description of the frequency with which the Senior 
        Advisory Committee will meet;
  <bullet> How existing governance bodies such as Urban Area Working 
        Groups and Transit Security Working Groups will be leveraged by 
        the Senior Advisory Committee;
  <bullet> A detailed description of how decisions on programmatic 
        priorities are made and how those decisions will be documented 
        and shared with its members and other stakeholders as 
        appropriate; and
  <bullet> A description of defined roles and responsibilities for 
        financial decision making and meeting administrative 
        requirements.
    Question 13b. Will there be recourse for entities that believe they 
have not been adequately included by the State?
    Answer. FEMA cannot prescribe, nor can it enforce, how a State 
chooses to organize itself or how it elects to interact with local 
units of government, specific sectors of the economy, or other 
stakeholders. However, FEMA can enforce the requirement that 80 percent 
of the grant dollars awarded in any given year be passed through to 
local units of government. FEMA cannot, however, adjudicate specific 
disagreements between the States and individual entities nor can it 
serve as an arbiter for local government who believe they have not been 
adequately included in State-led planning efforts. This is currently 
the case under HSGP.
    Question 14. The National Preparedness Grant Program proposal seems 
to place a premium on projects that are deployable. However, not all 
grant investments will result in deployable assets, nor should they. 
For instance, many vital prevention and mitigation projects, such as 
the funding for fusion centers, the purchase of cameras or the 
hardening of infrastructure, are not deployable.
    How would FEMA strike a balance between the requirement of 
deployable assets and the recognition that not all grant investments 
result in a deployable asset or capability?
    Answer. The emphasis in this requirement is that capabilities built 
with Federal grant dollars should be considered National assets, not 
the sole property of individual grantees. To that end, when 
practicable, all assets supported in part or entirely with National 
Preparedness Grant Program funding must be readily deployable or 
otherwise shareable under existing mutual aid agreements. Funding may 
be used for the sustainment of core capabilities that, while they may 
not be physically deployable, support National response capabilities 
such as Geographic/Geospatial Information Systems, interoperable 
communications systems, capabilities as defined under the mitigation 
mission area of the National Preparedness Goal, and in support of the 
National Network of Fusion Centers.
    Question 15. Under the current Homeland Security Grant Program, 
States and urban areas with fusion centers are required to provide at 
least one investment justification related to that fusion center.
    Would this requirement continue under the National Preparedness 
Grant Proposal?
    Answer. The requirement to provide at least one investment 
justification dedicated to fusion centers with the National 
Preparedness Grant Program is and will continue to be a policy decision 
left to the discretion of the Secretary. However, maintenance and 
sustainment of core law enforcement prevention capabilities--including 
fusion centers, countering violent extremism and State, territory, and 
local information sharing--remain key administration priorities.
    Question 16. How would the proposed peer review process work?
    Answer. The review process will be in two parts--a regional review 
panel score and a National review panel score. The review panels will 
validate grant proposals via peer review to ensure that projects 
support the building and sustainment of regional and National core 
capabilities. Proposals for competitive funding will be evaluated by 
the National and regional review panels on the ability of a 
jurisdiction to build, maintain, and sustain the capability as a 
Nationally-deployable resource that will benefit multiple jurisdictions 
and increase the core capabilities for the region.
    Question 17. According to the draft authorizing legislation 
included with the budget request, the NPGP would ``build and sustain 
core capabilities identified in the National Preparedness Goal.'' While 
fire fighting will be a key element of any response to a terrorist 
attack, DHS does not identify fire fighting as one of its core 
capabilities.
    Would the NPGP eliminate funding for fire department that 
historically received UASI and State Homeland Security Grant Program 
funds?
    Answer. The Assistance to Firefighters Grant program is not 
proposed to be part of the National Preparedness Grant Program. Grants 
will continue to be awarded through the Assistance to Firefighters 
Grant to fire departments to enhance their ability to protect the 
public and fire service personnel from fire and related hazards. 
Additionally, fire departments would continue to be eligible to receive 
funding through the National Preparedness Grant Program as a local 
entity.
    Question 18. The National Preparedness Grant Program proposal seeks 
to maintain the current 2-year period of performance for grants. While 
we appreciate the effort to ensure a more expeditious draw-down of 
funds, we have heard concerns from both State and local representatives 
about the impact of a 2-year period of performance. Particularly at the 
local level, there is concern that once the administrative work is 
done, there is very little time for grantees to expend the funds. This 
has resulted, in many cases, in the procurement of items that can be 
acquired quickly rather than projects that may not appropriately 
address gaps identified in the Threat Hazard Identification and Risk 
Assessment that may take longer.
    Is there any way to return to a 3-year period of performance while 
still addressing the issue of the draw-down?
    Answer. FEMA has made great strides over the past year in 
encouraging grantees to draw down previously-awarded grant dollars more 
expeditiously. At the start of fiscal year 2013, the remaining balance 
on grants from fiscal year 2008 through fiscal year 2012 was $8.5 
billion. One year later, at the start of fiscal year 2014, that number 
had dropped to $4.6 billion, a decrease of approximately 45%. In fiscal 
year 2012, FEMA introduced a 2-year performance period on all 
preparedness grants in an effort to ensure that capability gaps are 
addressed efficiently and effectively. Concurrently, the agency has 
increased its scrutiny of requests for extensions to periods of 
performance and only requests that meet strict criteria outlined in 
Information Bulletin No. 379 are being approved. Fiscal year 2013 grant 
funding was awarded in September 2013 and includes the same 2-year 
period of performance. FEMA expects the draw-down balance to continue 
to decrease as these new policies remain in place. FEMA is committed to 
being responsible stewards of taxpayer dollars and ensuring that all 
Federal grant dollars that we disburse are used in a timely manner. 
However, the agency also remains committed to re-evaluating the 
feasibility and appropriateness of returning to a 3-year period of 
performance at such time as the administration and the Congress feel 
confident that grantees are efficiently and effectively managing these 
Federal resources.

    Mrs. Brooks. Today we are pleased to receive testimony from 
a number of stakeholders who would be impacted by the NPGP 
proposal. Your perspectives will be invaluable to this 
subcommittee as we continue to evaluate the potential impacts 
of this proposal.
    To that end, I am interested in hearing your opinions of 
the proposal this morning both for and against FEMA's proposal. 
If you support the proposal, why do you support the proposal? 
If you oppose it, why?
    What alternative reforms might you suggest, if any? Are 
there any reforms that could be made to the current grant 
structure that would make it more efficient and better able to 
meet your needs?
    I am also interested in your perspective on how the Threat 
and Hazard Identification and Risk Assessment, better known as 
THIRA, and the capability estimation processes are working. 
Have the addition of these requirements helped you better 
address your security needs?
    We know that these grants have definitely made a difference 
in the country. One need only look to the response to the 
Boston Marathon bombings just over a year ago to see the 
contribution of the grants. It is for this reason that, as we 
stated in our letter to Administrator Fugate, any efforts to 
reform the current system must be very thorough, well-informed, 
and premised on the goal of ensuring that our Nation is best 
able to prevent, prepare for, mitigate, respond to, and recover 
from terrorist attacks.
    Before I yield to my Ranking Member, I ask unanimous 
consent to insert a letter from the Major City Chiefs 
Association, the International Association of Chiefs of Police, 
the Major County Sheriffs' Association, and the National 
Sheriff's Association into the record. The letter discusses 
their perspectives on the NPGP proposal, and in particular, why 
they believe it is important to retain the 25 percent law 
enforcement set-aside.
    I also ask unanimous consent to insert into the record a 
letter from the National Fusion Center Association regarding 
the importance of the set-aside for intelligence and 
information sharing.
    Without objection, so ordered.
    [The information follows:]
   Letter From the Major City Chiefs Association, the International 
      Association of Chiefs of Police, the Major County Sheriffs' 
          Association, and the National Sheriff's Association
                                    April 29, 2014.
The Honorable Susan W. Brooks,
Chairwoman, House Homeland Security Subcommittee on Emergency 
        Preparedness, Response, and Communications, United States House 
        of Representatives, Washington, DC 20515.
The Honorable Donald M. Payne, Jr.,
Ranking Member, House Homeland Security Subcommittee on Emergency 
        Preparedness, Response, and Communications, United States House 
        of Representatives, Washington, DC 20515.
    Dear Chairwoman Brooks and Ranking Member Payne: On behalf of the 
undersigned national law enforcement organizations, we write to express 
our concern regarding the Administration's proposal to consolidate the 
Federal Emergency Management Agency's (FEMA's) current suite of 
homeland security grant programs into the National Preparedness Grant 
Program (NPGP).
    Converting these sixteen programs into state-administered block and 
competitive programs in which funding decisions are made without clear 
local involvement will hinder state, local, and tribal law 
enforcement's ability to support the national homeland security 
mission. Furthermore, elimination of the mandatory 25% law enforcement 
terrorism prevention (LETP) component for the Urban Areas Security 
Initiative (UASI) and the State Homeland Security Grant Program (SHSGP) 
will negatively impact the ability of state, local, and tribal law 
enforcement to prevent acts of terrorism before they occur.
    Experience has shown that states' and urban areas' use of funds for 
LETP activities have yielded tremendous benefits for homeland security. 
These funds are critical to ensuring that state, local, tribal, and 
territorial law enforcement and public safety assets, information, and 
capabilities are leveraged in efficient and effective ways to support 
the national homeland security mission.
    Proposing the consolidation of these programs before trying to make 
changes aimed at strengthening their effectiveness is premature. As 
noted in the February 10, 2014 letter to Secretary Johnson, we 
acknowledge that not all states or State Administrative Agencies (SAA) 
in the country are properly using the funding to support terrorism 
prevention activities as defined in the authorizing statute. That is 
why we strongly recommend that the accountability for the intended 
purpose of the LETP requirement be strengthened.
    As the majority of the SAA's are not law enforcement-centric, this 
consolidation proposal would further dilute, if not eliminate all 
together, the focus on the prevention and investigation of terrorism. 
As we all know, actions related to these two issues were the stimulus 
in moving Congress to initiate and pass legislation to create the 
homeland security grant programs.
    Further, it is our suggestion that since the Department of Homeland 
Security currently funds annual ``carve out'' grant programs for the 
emergency management and fire service communities under the Emergency 
Management Performance Grant Program (EMGP) and Assistance to 
Firefighters Grant Program (AFG), they should consider a similar carve 
out for the law enforcement community equal to or greater in size to 
the current 25% LETP. Whether ``stand alone'' or within the SHGP 
construct, this carve out should be managed and administered by the 
lead state law enforcement agency in each state (as designated by the 
Governor) to ensure the focus on prevention and investigation of 
terrorism is not lost. In addition, a percentage of these designated 
funds should be prioritized and mandated for use to sustain the state- 
and federally-recognized fusion centers that currently exist in the 
nation.
    On behalf of our Law Enforcement Associations, we thank you for 
your attention and consideration of this matter. We look forward to 
continued dialogue as we continue to work together on issues of 
importance to the law enforcement field and our communities.
            Sincerely,
                                              Yost Zakhary,
                                   Chief, City of Woodway, TX, and 
          President, International Association of Chiefs of Police.
                                         Charles H. Ramsey,
                Police Commissioner, City of Philadelphia, PA, and 
                        President, Major Cities Chiefs Association.
                                          Donny Youngblood,
                             Sheriff-Coroner, Kern County, CA, and 
                     President, Major County Sheriffs' Association.
                                          Aaron D. Kennard,
                                Sheriff (Ret.), Executive Director,
                                    National Sheriffs' Association.
                                 ______
                                 
           Letter From the National Fusion Center Association
                                    April 29, 2014.
The Honorable Susan Brooks,
Chairwoman,
The Honorable Donald Payne, Jr.,
Ranking Member,
Subcommittee on Emergency Preparedness, Response, and Communications, 
        Committee on Homeland Security, U.S. House of Representatives, 
        Washington, DC 20515.

RE: Statement for the Record Submitted by the National Fusion Center 
Association for the Subcommittee Hearing ``Stakeholder Assessments of 
the Administration's National Preparedness Grant Program Proposal''

    Dear Chairwoman Brooks, Ranking Member Payne, and Members of the 
Subcommittee: We commend you for soliciting the input of stakeholder 
groups regarding the administration's proposal to create a National 
Preparedness Grant Program (NPGP). On behalf of the National Fusion 
Center Association I am expressing serious concern with the 
administration's proposal to consolidate FEMA Preparedness Grants into 
the NPGP.
    The proposal would cause the elimination of the current statutory 
requirement for grantees to allocate at least 25% of Urban Areas 
Security Initiative (UASI) and State Homeland Security Program (SHSP) 
grant funding to Law Enforcement Terrorism Prevention (LETP) 
activities. This requirement was enacted as section 2006 of the 2007 
Implementing Recommendations of the 9/11 Commission Act. States and 
UASI regions have allocated funding under this requirement in part to 
augment state and local resources to develop and sustain fusion 
centers.
    In suggesting the elimination of the LETP requirement, the NPGP 
proposal would make it significantly more difficult for the 
administration to facilitate the on-going collaboration needed across 
all states to advance its core priorities related to terrorism 
information sharing and analysis. We strongly support the continued 
focus by Secretary Johnson and DHS on robust information sharing and 
analysis, including through support of the National Network of Fusion 
Centers.
    Terrorism prevention remains the most enduring homeland security 
priority, and it cannot be done effectively without a strong, 
dedicated, sustained funding source that encourages institutionalized 
collaboration across all levels of government.
    The capability to receive, analyze, disseminate, and gather 
information that may be relevant to protecting the nation or preventing 
an attack is not something that can be switched on or off from one 
grant cycle to another. It must be a constant. And it must involve all 
levels of government--including state, local, tribal, and territorial.
    There is no other mechanism outside of the current LETP requirement 
to ensure the development and sustainment of that nation-wide 
information sharing and analysis imperative. The House Homeland 
Security Committee's March 2014 report on the Boston Marathon Bombings 
recommended that cooperation be expanded between federal and local law 
enforcement, especially through fusion centers. The elimination of the 
only dedicated stream of federal support to state and local law 
enforcement for homeland security information sharing and analysis--the 
LETP requirement--would make that recommendation exceedingly difficult 
to achieve.
    While the level of priority placed by grantees on certain types of 
equipment, training, and technology may rise or fall from year to year, 
the importance of information sharing and analysis in support of 
detecting and preventing attacks should always be the top priority. 
Weakness in these capabilities in any one state can potentially impact 
all other states. The necessity of being connected--via networks and 
personal relationships--is critical to public safety and first 
responder decision makers at all levels.
    Our partners in Federal law enforcement and homeland security 
intelligence and analysis do not have access to the vast amounts of 
potentially valuable investigative information that resides in state, 
local, tribal, and territorial databases except through the National 
Network of Fusion Centers and bilaterally on a regional or local basis. 
The ability to receive reports on suspicious activities from the public 
and trained public safety personnel in every state, analyze the 
information, and ensure it is directed to the appropriate body for 
action happens most efficiently through the Nation-wide Suspicious 
Activity Reporting Initiative (NSI). Events that occur in one 
jurisdiction may relate to activity in another location across the 
country, and the ability to have reliable up-to-the-minute situational 
awareness and reporting is a must for state and local law enforcement 
leaders and the elected officials to whom they may report.
    These are just three examples of capabilities we have worked with 
our partners to build in a systematic fashion over the past decade, 
often using FEMA grant resources under the LETP requirement to do so. 
Many of these capabilities are enabled through the National Network of 
Fusion Centers. The hundreds of pieces of actionable terrorism-related 
information provided through fusion centers to support Federal 
investigations is evidence of the direct Federal interest in ensuring 
these capabilities are ``always on''. Under the current statutory LETP 
requirement, DHS, the states, and UASI regions have a mechanism to 
ensure those activities can be supported.
    But if that requirement is dissolved through the implementation of 
the NPGP as proposed, then there will be no clear way to support 
nation-wide terrorism information sharing and analysis. This would be a 
step backward and make it harder to achieve the goals that this 
committee, DHS, and all of us working in the field share.
    We strongly recommend that the current Law Enforcement Terrorism 
Prevention requirement be preserved. Thank you again for your thorough 
consideration of stakeholders' perspectives on this important issue.
            Sincerely,
                                                 Mike Sena,
                President, National Fusion Center Association, and 
        Director, Northern California Regional Intelligence Center.

    Mrs. Brooks. With that, I look forward to hearing from our 
distinguished panel of witnesses and continuing our discussion 
of the grant programs this morning.
    I now recognize the gentleman from New Jersey, Mr. Payne, 
for any opening statements he may have.
    Mr. Payne. Good morning. I want to thank Chairwoman Brooks 
for holding this hearing and giving homeland security grant 
program stakeholders the opportunity to share their thoughts on 
the administration's proposal to consolidate targeted homeland 
security grant programs.
    I would like to take a brief moment to share my sympathies 
with the people who were in the path of the storms and 
tornadoes that have wreaked havoc on parts of the Great Plains 
and over the South over the past few days. Our hearts are with 
you.
    Since serving as Ranking Member on this subcommittee, this 
committee has tried on numerous occasions to understand the 
administration's proposal to consolidate homeland security 
grants. The administration first proposed the National 
Preparedness Grant Program, NPGP, in its 2013 budget request. 
At the time, the proposal surprised Members of Congress and 
stakeholders alike because FEMA had not conducted outreach 
prior to the budget's submission.
    In response, this panel held hearings to try to learn more 
about the NPGP. Stakeholder groups expressed frustration that 
they were left out of the process and concern about how NPGP 
would affect local preparedness capabilities and confusion 
about how NPGP would be administered.
    FEMA provided a general overview of how NPGP would work and 
suggested that more detail would be provided in the legislative 
proposal. Members of this panel were told that they could 
expect the legislative proposal soon. FEMA never submitted the 
legislative proposal and Congress ultimately rejected the 
proposal.
    In 2014 FEMA once again proposed to consolidate homeland 
security grants into the NPGP. But still, it had not submitted 
the legislative proposal nor did it appear it had made 
appreciable effort to work out with stakeholders on a grant 
reform proposal that both sides could support. As a result, 
Congress rejected that proposal a second time.
    I know that Members of this panel on both sides of the 
aisle had hoped that the proposal this year would be different. 
Unfortunately, many of the concerns this committee has raised 
in the past have not been resolved.
    FEMA deserves some credit for submitting a legislative 
proposal this year. I also appreciate FEMA's effort to provide 
more detail on how NPGP would work in the letter it sent to the 
committee on Friday. FEMA's letter was timely and informative.
    That said, the legislative proposal does not reflect the 
interaction with stakeholders, clarity of vision, or detail 
that I would expect from a document nearly 3 years in the 
making. Moreover, despite the additional detail in the April 25 
letter, I do not think that it made the case to overhaul 
homeland security grants, particularly when so many 
stakeholders have reasons and have raised concerns.
    Further, despite Congress' urging, it does not appear that 
FEMA engaged with stakeholders in the manner Congress had 
envisioned. When this panel urged FEMA to work with 
stakeholders as it continued to work on its grant consolidation 
proposal, we had hoped that the dialogue would be on-going and 
that stakeholders would see their comments reflected in an 
updated consolidation proposal.
    But that does not appear to be the case. For example, I 
understand that the new definition of ``local unit of 
government'' included in the legislative proposal caused a 
great deal of concern among stakeholders, that these were 
expressed to FEMA prior to the 2015 budget submission. Yet, the 
new definition of ``local unit of government'' remains in the 
administration's proposal.
    The proposal would divert the current grant programs' focus 
on terrorism to all-hazards without making a case for why this 
is appropriate. Toward that end, I am particularly concerned 
that the proposal would eliminate the requirement that 25 
percent of the State and Urban Area Grant dollar funds fund law 
enforcement terrorism initiatives.
    Finally, I am concerned by the funding level sought, and I 
am interested to learn whether this level of funding is 
sufficient to maintain and develop the capabilities necessary 
to prepare for and respond to acts of terror.
    I look forward to learning from the witnesses how the 
existing grant program has improved State and local homeland 
security capabilities and how those capabilities would be 
impacted by this proposal. I am also interested to know whether 
the stakeholders here today have any concerns about homeland 
security grants as they are currently administered and ideas on 
how to improve them.
    I thank the witnesses for being here today. I look forward 
to your testimony.
    With that, Madam Chairwoman, I yield back the balance of my 
time.
    [The statement of Ranking Member Payne follows:]
            Statement of Ranking Member Donald M. Payne, Jr.
                             April 29, 2014
    I want to thank Chairwoman Brooks for holding this hearing and 
giving Homeland Security Grant Program stakeholders the opportunity to 
share their thoughts on the administration's proposal to consolidate 
targeted homeland security grant programs.
    I would like to take a brief moment to share my sympathies with the 
people who were in the path of the storms and tornadoes that wreaked 
havoc on parts of the Great Plains and the south over the past few 
days.
    My thoughts are especially with families who lost their loved ones 
or homes or businesses.
    Since serving as Ranking Member of this subcommittee, this 
committee has tried on numerous occasions to understand the 
administration's proposal to consolidate homeland security grants.
    The administration first proposed the National Preparedness Grant 
Program (NPGP) in its fiscal year 2013 budget request.
    At the time, the proposal surprised Members of Congress and 
stakeholders alike, because FEMA had not conducted outreach prior to 
the budget submission.
    In response, this panel held hearings to try to learn more about 
the NPGP.
    Stakeholder groups expressed frustration that they were left out of 
the process, concern about how NPGP would affect local preparedness 
capabilities, and confusion about how NPGP would be administered.
    FEMA provided a general overview of how NPGP would work, and 
suggested that more detail would be provided in the legislative 
proposal.
    Members of this panel were told that they could expect the 
legislative language ``soon.''
    FEMA never submitted the legislative language, and Congress 
ultimately rejected the proposal.
    In fiscal year 2014, FEMA once again proposed to consolidate 
homeland security grants into the NPGP.
    But it still had not submitted the legislative proposal, nor did it 
appear that it had made an appreciable effort to work with stakeholders 
on a grant reform proposal that both sides could support.
    As a result, Congress rejected the proposal a second time.
    I know that Members of this panel, on both sides of the aisle, had 
hoped that the proposal this year would be different.
    Unfortunately, many of the concerns this committee has raised in 
the past have not been resolved.
    FEMA deserves some credit for submitting a legislative proposal 
this year.
    I also appreciate FEMA's effort to provide more detail on how NPGP 
would work in the letter it sent to the committee on Friday. FEMA's 
letter was timely and informative.
    That said, the legislative proposal does not reflect the 
interaction with stakeholders, clarity of vision, or detail that I 
would have expected for a document nearly 3 years in the making.
    Moreover, despite the additional detail in the April 25 letter, I 
do not think that it made the case to overhaul homeland security 
grants, particularly when so many stakeholders have raised concerns.
    Further, despite Congress' urging, it does not appear that FEMA 
engaged with stakeholders in the manner Congress envisioned.
    When this panel urged FEMA to work with stakeholders as it 
continued to work on its grant consolidation proposal, we had hoped 
that the dialogue would be on-going and that stakeholders would see 
their comments reflected in the updated consolidation proposal.
    But that does not appear to be the case.
    For example, I understand that the new definition of ``local unit 
of government'' included in the legislative proposal caused a great 
deal of concern among stakeholders, and that these concerns were 
expressed to FEMA prior to the fiscal year 2015 budget submission.
    Yet, the new definition of ``local unit of government'' remains in 
the administration's proposal.
    The proposal would divert the current grant program's focus on 
terrorism to all-hazards, without making the case for why this is 
appropriate.
    Toward that end, I am particularly concerned that the proposal 
would eliminate the requirement that 25 percent of State and Urban Area 
grant dollars fund law enforcement terrorism initiatives.
    Finally, I am concerned by the funding level sought, and am 
interested to learn whether this level of funding is sufficient to 
maintain and develop the capabilities necessary to prepare for and 
respond to acts of terror.
    I look forward to learning from the witnesses how the existing 
grant program has improved State and local homeland security 
capabilities, and how those capabilities would be impacted by the 
proposal.
    I am also interested to know whether the stakeholders here today 
have any concerns about homeland security grants as they are currently 
administered, and ideas to improve them.

    Mrs. Brooks. Thank you.
    Members are reminded that additional statements may be 
submitted for the record.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                             April 29, 2014
    I would like to express my sympathies to those affected by the 
tornadoes that have devastated communities across Oklahoma, Arkansas, 
Missouri, and Mississippi. My thoughts are with them--particularly 
those in Tupelo, Mississippi, which is in my District.
    I appreciate this subcommittee's effort to give stakeholders a 
voice in the debate surrounding the administration's grant 
consolidation proposal.
    This committee works diligently to consider the views of 
stakeholders as it drafts and reviews policy proposals. It is 
especially important that we do so when it is unclear whether the 
administration effectively engaged with stakeholders. The preparedness 
grant consolidation proposal is the latest example.
    The preparedness grant programs administered by the Federal 
Emergency Management Agency serve a vital role in every Congressional 
District, enabling critical disaster response capabilities.
    From the Urban Area Security Initiative and the State Homeland 
Security Program, to the Port Security Grant Program and the Transit 
Security Grant Program, we have seen first-hand the fundamental 
benefits these programs have provided.
    Over the past 10 years, we have invested over $39 billion in these 
and other homeland security grant programs.
    The capabilities and safeguards these programs have given to first 
responder capabilities cannot be understated.
    When we go back to our Districts, we hear anecdotal stories about 
how Homeland Security Grant program funding supported a table-top 
exercise to test a local Emergency Operations Plan or to purchase 
technology that will help first responders do their jobs quicker, 
better, and safer.
    In light of the recent 1-year anniversary of the Boston Marathon 
bombings, we cannot forget the outstanding performance and response 
displayed by the Boston and Watertown Police Departments.
    In his testimony before this committee in May 2013, former Boston 
Police Department Commissioner Ed Davis noted that the response to the 
bombings would not have been as comprehensive or successful without the 
planning, training, exercises, and equipment supported by the Urban 
Area Security Initiative.
    It is no surprise that communities across the country are proud of 
the preparedness capabilities that they were able to develop over the 
past 10 years.
    Thanks in large part to the targeted investments made possible by 
the Homeland Security Grant Program, more of our Nation's communities 
are able to rest assured that, in the unfortunate event of an 
emergency, they are prepared.
    But now, despite the milestones we have been able to accomplish 
throughout the Nation, the capabilities we have so heavily invested in 
could end up being suspended or mothballed.
    Once again, the administration proposed the National Preparedness 
Grant Program (NPG).
    This underfunded proposal would haphazardly consolidate 18 targeted 
homeland security grant programs into a single pot of money, forcing 
groups who currently benefit from discrete funding sources to compete 
against each other for the funds necessary to build and maintain 
preparedness capabilities.
    Although I appreciate FEMA's effort to provide greater clarity to 
its vision for NPGP in its April 25, 2014 letter to Chairwoman Brooks 
and Ranking Member Payne, Jr., I am not convinced it made the case for 
consolidation.
    As part of its rationale, FEMA asserts that this consolidation is 
necessary to ensure better coordination of investments at the regional, 
State, and local level and to avoid unnecessarily duplicative 
investments.
    But it has yet to explain how the proposed grant overhaul would 
achieve that objective.
    Moreover, as State and local governments struggle to maintain the 
capabilities they have achieved over the last decade, FEMA has not made 
the case for requesting only $1.04 billion to fund NPGP.
    Finally, it is not clear whether or how FEMA incorporated feedback 
from stakeholders as it drafted its proposal.
    After 2 years of urging FEMA to engage in on-going outreach and 
discussion with stakeholders, I was troubled to learn that this had not 
occurred to the degree we had hoped before the National Preparedness 
Grant Program proposal was resubmitted to Congress this year.
    Accordingly, I cannot support the reform proposal until it is clear 
that capabilities the concerns of stakeholders have been adequately 
addressed and that the capabilities developed over the past decade will 
be maintained and improved.

    Mrs. Brooks. We are very pleased to have such a 
distinguished panel before us today on this important topic.
    To start out, Ms. Kris Eide has been the director of 
Minnesota's Homeland Security and Emergency Management since 
2005. In 2011 she was named homeland security advisor to 
Governor Mark Dayton. As HSEM director, Eide has the overall 
responsibility to ensure coordination of State agency 
preparedness and emergency response to all types of natural and 
other emergencies and disasters. I am sad to hear that it was 
snowing today in Minnesota.
    She serves as the State Emergency Response Commission and 
represents HSEM on several State-wide committees and councils. 
As homeland security advisor she is the lead point of contact 
with the Department of Homeland Security and is responsible to 
keep the Governor informed on emerging threats, events, and 
responses.
    She is also a member of the National Governors Association 
Governors Homeland Security Advisors Council, and is on the 
board of directors for the National Emergency Management 
Association. She is testifying today on behalf of NGA and NEMA.
    Ms. Eide holds a Bachelor of Arts degree in sociology from 
the University of Minnesota and a master's degree in management 
and administration from Metropolitan State University. In 
addition, Eide earned an executive leadership certificate from 
the Naval Postgraduate School Center for Homeland Defense and 
Security.
    I now will yield to the Ranking Member to introduce our 
next witness.
    Mr. Payne. Thank you, Madam Chairwoman.
    I am pleased to introduce Steven M. Fulop, mayor of Jersey 
City, New Jersey. Steven attended Binghamton University, spent 
time at Oxford University in England, and graduated in 1999. 
After starting a career at Goldman Sachs in Chicago, he 
transferred back to New Jersey and bought a home in Jersey 
City, New Jersey.
    When he witnessed the devastating attacks on September 11, 
2001, Steve made the life-altering decision to leave his job at 
Goldman Sachs and enlist in the United States Marine Corps. As 
a member of the 6th Engineer Support Battalion he was deployed 
to Iraq. Steve and his unit were awarded the Overseas Service 
Ribbon, Meritorious Masts, and the Presidential Unit Citation.
    We are happy to have Mayor Fulop here with us today to 
testify before the subcommittee.
    Thank you very much, sir.
    Mrs. Brooks. Thank the Ranking Member.
    Our next witness is Mr. Troy Riggs. Mr. Riggs serves as the 
city of Indianapolis' director of public safety, a position he 
has held since October 2012. Director Riggs came to 
Indianapolis with more than 20 years of public safety 
experience. His public service includes serving as an 
assistance city manager and chief of police in Corpus Christi, 
Texas.
    Additionally, he served 20 years in Louisville, Kentucky 
working his way from recruit to assistant chief and chief of 
staff. He has also served as press secretary for a judge/
executive and has been a liaison to local, State, and Federal 
governments. Mr. Riggs has an EMBA from Sullivan University and 
a political science degree from the University of Louisville.
    As someone who worked in public safety on behalf of the 
city of Indianapolis, we are thrilled to have you leading our 
public safety department in Indianapolis.
    Next is Chief William Metcalf, who is the fire chief for 
the North County Fire Protection District in Fallbrook, 
California, a suburb of San Diego, and has served in that 
position since 2003. He started his fire service career in 1974 
with the Anne Arundel County, Maryland Fire Department, and 
also served with the North Lake Tahoe Fire Protection District 
in Incline Village, Nevada.
    Chief Metcalf also serves as the president of the 
International Association of Fire Chiefs and is testifying on 
their behalf today.
    Chief Metcalf has an associate's degree in paramedic 
science, a bachelor's degree in management, and a master's 
degree in organizational leadership. He is also a graduate of 
the Executive Fire Officer Program as a chief fire officer 
designate.
    Welcome.
    Mr. Randy Parsons serves as the director of security for 
the Port of Long Beach, a position he has held since October 
2012. Prior to his position, he served as the Federal security 
director at Phoenix Sky Harbor International Airport and later 
at Los Angeles International Airport.
    Prior to joining TSA, Mr. Parsons served for 20 years in 
the FBI, during which time he served as the special agent in 
charge for the counterterrorism program in the Los Angeles 
office. He has led four joint terrorism task forces and 
directed the operational readiness of personnel and systems for 
crisis response.
    Mr. Parsons earned his J.D. and Bachelor of Arts degree in 
criminal justice from Washburn University and his Master of 
Arts degree in criminal justice from Sam Houston State 
University.
    So welcome.
    Welcome to all of you. I would just like for you all to 
realize that your full written statements will appear in the 
record.
    Now I will recognize Ms. Eide for 5 minutes.

    STATEMENT OF KRIS EIDE, DIRECTOR, HOMELAND SECURITY AND 
EMERGENCY MANAGEMENT, STATE OF MINNESOTA, TESTIFYING ON BEHALF 
    OF GOVERNORS HOMELAND SECURITY ADVISORY COUNCIL AND THE 
           NATIONAL EMERGENCY MANAGEMENT ASSOCIATION

    Ms. Eide. Thank you, Chairman Brooks, Ranking Member Payne, 
and Members, for the chance to testify today on behalf of 
Governors, homeland security advisors, and State emergency 
management directors. Hearings like this provide an important 
opportunity to discuss how we all can better serve the American 
people by ensuring preparedness at all levels of government.
    Since 2003 Federal grant funds have supplemented billions 
of dollars in State and local investment to build and sustain 
emergency preparedness and response capabilities. These 
investments have provided critical support for interoperable 
communication systems, first responder training programs, 
public preparedness campaigns, hazardous materials response, 
urban search and rescue, and a robust information-sharing 
network.
    In my home State of Minnesota we have strengthened our 
medical surge capabilities, improved situational awareness 
during emergencies, and taken steps to address the emerging 
threat of cybersecurity.
    The most recent National efforts undertaken as a result of 
the preparedness grant programs is the Threat Hazard 
Identification and Risk Assessment, or THIRA, and the State 
preparedness reports. While FEMA continues to work with 
stakeholders on refining these processes, they are only as 
effective as the efforts they support.
    Simply placing the THIRA and preparedness reports atop the 
current grant structure fails to fully integrate all grantees 
under the State THIRA or provide adequate visibility on funding 
allocations across jurisdictions within the State. Duplicative 
reporting requirements and increased administrative burdens 
under the current framework further diminish return on 
investment as more time and money must be spent on grants 
administration and management.
    Given the current fiscal environment, the need to reform 
these grant programs has never been more urgent. Federal 
funding for homeland security grant programs has decreased by 
more than 75 percent since their inception, yet the structure 
remains unchanged.
    The reality is that the current suite of grant programs 
perpetuates separation among constituencies and allows those 
interests to operate in silos. This does not reflect on-going 
efforts to align State and local capabilities with our National 
preparedness objectives.
    Today's dynamic threat environment requires a program which 
prioritizes investment based on risk while maintaining State 
and local abilities to sustain prior investments to support our 
National goals. These programs must be flexible to address 
changing hazards and ensure local investments are synchronized 
with State-wide and regional priorities.
    The NPGP proposal has evolved since its introduction in the 
President's fiscal year 2013 budget. While we continue to 
evaluate the details, we are encouraged to see the legislative 
language in this year's budget and are eager to work with 
Congress and the administration to pass comprehensive grant 
reform.
    One of the most important aspects of the NPGP proposal is a 
strong State oversight role in grants administration. The 
States are best positioned to achieve economies of scale, avoid 
duplication of effort, leverage available assets, and avoid 
gaps in critical capabilities.
    As FEMA Administrator Craig Fugate pointed out recently 
before this subcommittee, Governors have unique emergency 
authorities, such as activating the National Guard, and are 
responsible for requesting and coordinating disaster Federal 
assistance when necessary. In order to properly use these 
authorities, Governors, their homeland security advisors, and 
State emergency management directors must have knowledge of the 
capabilities, assets, and resources throughout their State.
    This certainly is not meant to imply that States can do it 
alone. Intergovernmental and public-private collaboration and 
communication are the key elements in achieving a whole-
community approach to our National preparedness.
    Incidents such as the 2007 I-35W Bridge collapse in my home 
State or the response to the Boston Marathon bombing last year 
demonstrate the need for strong partnerships. Even those two 
examples highlight the diverse needs of our various grantees.
    Grant programs must be flexible enough for us to ensure 
priorities are being addressed in order of their importance. 
Both the GHSAC and NEMA are continuing to review the NPGP 
proposal and will provide this subcommittee with additional 
feedback in the coming weeks. In the mean time, we have 
submitted for the record principles and values we believe 
should inform any grant reform effort.
    The NPGP is an important next step in on-going efforts to 
find common ground on a grants framework that has both State 
and local buy-in and can ensure measureable return on the 
Nation's investments. Regardless of what this change looks 
like, only through comprehensive reform of these decade-old 
programs can we achieve the type of accountability Congress 
demands and the flexibility to address the most urgent 
preparedness needs of our communities.
    On behalf of my colleagues and States, I look forward to 
working with you and my fellow panelists in this process. I am 
happy to answer any questions you may have.
    [The prepared statement of Ms. Eide follows:]
                    Prepared Statement of Kris Eide
                             April 29, 2014
    Thank you Chairman Brooks, Ranking Member Payne, and Members of the 
subcommittee for holding this hearing. I am Kris Eide, director of the 
Homeland Security and Emergency Management Division of the Minnesota 
Department of Public Safety and homeland security advisor to Governor 
Mark Dayton.
    I am here today representing the National Governors Association 
(NGA) Governors Homeland Security Advisors Council (GHSAC) and the 
National Emergency Management Association (NEMA). I currently serve as 
chair of the GHSAC Grants Committee and as vice chair of NEMA's 
Preparedness Committee.
    I appreciate the opportunity to appear before you to discuss how 
comprehensive reform of Federal preparedness grant programs will better 
serve State and local efforts to build and sustain capabilities to 
address the various threats and hazards they face. My testimony will 
discuss: (1) The continuing benefit of Federal investments in State and 
local preparedness; (2) the enduring need for grant reform; (3) the 
importance of a strong State role in grants administration; and (4) the 
value of intergovernmental partnerships.
                   federal support remains essential
    Federal funds continue to provide critical support to State and 
local efforts to prevent, prepare for, and respond to terrorist 
attacks, natural disasters, and man-made events. As discussed in the 
Department of Homeland Security's annual National Preparedness Report, 
our Nation's level of preparedness has vastly improved since September 
11, 2001, and Hurricane Katrina in 2005. This is the result of 
increased focus on building community resiliency, improved 
coordination, and engagement among all levels of Government and more 
than a decade's worth of Federal investments in training, equipment, 
and personnel at the State and local level.
    Since 2003, Federal grant funds have supplemented billions of 
dollars in State and local investments to build and sustain 
capabilities including interoperable communications, training of 
personnel, enhancing information sharing and community preparedness, 
and hazardous materials response. In recent years, strategic planning 
efforts such as the State Preparedness Report (SPR) and Threat Hazard 
Identification Risk Assessment (THIRA) process have facilitated 
intergovernmental coordination and helped align State and local 
investments into capabilities that also meet National and regional 
needs. These capabilities include special response teams in the areas 
of weapon of mass destruction, urban search and rescue, and veterinary 
rapid response teams in addition to agricultural warning systems. 
Federal grant funds support standardized training for mass casualty 
incidents, the National network of fusion centers and citizen and 
community preparedness initiatives Nation-wide.
    In Minnesota, Federal preparedness grants have funded a number of 
critical projects and supported key investments that serve the entire 
State. Some key examples include:
  <bullet> Cybersecurity monitoring for detection of network cyber 
        attacks and breaches. To date, the State's executive branch 
        agencies and 15 of the 87 counties have this detection and 
        deterrence capability.
  <bullet> Capabilities for medical surge through funding Ambulance 
        Strike Teams and Mobile Medical Teams. These assets were used 
        for two separate disasters to help with the evacuation of 
        medical and long-term care facilities.
  <bullet> Improvements to situational awareness and coordination of 
        emergency response through the purchase and sustainment of 
        State-wide video-teleconferencing and incident management 
        software systems. It has been estimated that the purchase of 
        the video-teleconferencing equipment has resulted in a 3-year 
        return on investment in time management and resource 
        identification and deployment.
    Minnesota also has the largest land-mobile public safety 
interoperable radio network in the country. Federal preparedness funds 
have been used to augment the $240 million of State funds spent to 
build the infrastructure and purchase equipment allowing for public 
safety responders across the State to talk to each other. This system 
was first used successfully following the collapse of the I-35W bridge 
in 2007. Since then it has been used for special events, hostage 
situations, and disaster response. The State and local governments 
continue to spend approximately $11 million each year to maintain this 
capability. Without Federal preparedness funds being used for those 
items not eligible for State funding, the State would be nowhere near 
the current 95% completion for the project.
                grant reform will improve effectiveness
    Federal funding for homeland security grant programs has decreased 
by more than 75 percent since the program's inception in 2003, yet the 
structure remains unchanged. Congress has recognized this continuing 
disconnect and included language in annual appropriations bills as 
recently as fiscal year 2012 to push for ``long-overdue'' and ``bold'' 
reform of the Federal Emergency Management Agency's (FEMA) 
administration of its State and Local Programs.\1\ Important 
improvements have been made to processes for assessing risk and 
strategic planning, but the current grant program design can no longer 
achieve the type of accountability Congress demands and support the 
preparedness capabilities our communities need.
---------------------------------------------------------------------------
    \1\ House Report 112-91 accompanying the Fiscal Year 2012 Homeland 
Security Appropriations bill (H.R. 2017), part of Public Law 112-33; 
September 30, 2011.
---------------------------------------------------------------------------
    Given these on-going challenges and the current fiscal environment, 
the need for reform of these preparedness grant programs has never been 
more urgent. In the fiscal year 2013 budget, FEMA provided a proposal 
to consolidate grant programs into a new National Preparedness Grant 
Program (NPGP). Over the last 2 years, FEMA's NPGP proposal has helped 
foster a dialogue on States' enduring challenges with the current suite 
of 16 separate preparedness grant programs.
    Although we continue working on clarifying and understanding the 
finer points and their potential impacts on States, we remain 
encouraged to see legislative language for NPGP accompany the 
President's fiscal year 2015 budget request. This is an important 
``next step'' for continuing engagement efforts with Congress and 
stakeholders to find common ground on a grants framework that reflects 
both today's fiscal realities and its dynamic threat environment.
    Since 2003, the grant programs have allocated more than $40 billion 
to State and local governments to build and sustain preparedness 
capabilities. The successful outcomes supported by this investment must 
be acknowledged. At the same time, the need to better align these grant 
programs with today's fiscal realities and operational challenges must 
also be recognized. At their inception, the grant programs were 
required to address an unknown threat environment after September 11, 
2001. More than $4 billion in funding was made available through State 
and local preparedness grants in fiscal year 2003 alone. In addition to 
fiscal changes, the environment now incorporates the new ``all-
hazards'' focus stemming from lessons learned after Hurricane Katrina 
in 2005 and subsequent multi-State disasters. A key lesson from those 
events is the importance of intergovernmental collaboration and 
integrating preparedness planning and response activities to ensure 
unity of effort. Declining budgets at all levels of government have 
increased the need to leverage resources and facilitate cross-
jurisdictional coordination. We can no longer afford to operate in 
separate silos.
    Unfortunately, the current suite of grant programs perpetuates such 
separations and no longer reflects on-going efforts to align State and 
local capabilities with National preparedness objectives. Today's 
dynamic threat environment requires a grants program that prioritizes 
investments based on risk while maintaining State and local ability to 
sustain prior investments that support National goals. Grant programs 
must be flexible and agile to address changing hazards and ensure local 
investments synchronize with State-wide and regional priorities.
    Duplicative reporting requirements and increased administrative 
burden under the current framework also diminish return on investment 
(ROI) as more time and money must be spent on grants administration and 
management. Comprehensive reform would better facilitate maximum 
efficiency of taxpayer dollars and better enable accurate measure of 
ROI over time. This flexibility with accountability can represent the 
face of these reformed grant programs. For only through comprehensive 
changes to the existing structures can we achieve a more effective 
preparedness program for States and locals.
                 state oversight serves national needs
    In addition to improving program effectiveness, comprehensive grant 
reform also can facilitate improved accountability and transparency. 
The SPR and THIRA should align preparedness investments with current 
risk and identified capability gaps. Simply placing that process atop 
the current grants structure fails to fully integrate all grantees 
under the State THIRA or provide adequate visibility on funding 
allocations across jurisdictions within the State.
    A strong State role in the management of grant funds will better 
ensure transparency, coordination, and the effective use of funds. 
States are best positioned to achieve economies of scale, avoid 
duplication of effort, leverage available assets, and avoid gaps in 
critical capabilities. An enhanced State role would also better reflect 
Governors' Constitutional emergency authorities.
    As FEMA Administrator Craig Fugate pointed out in recent testimony 
before this subcommittee, Governors have unique emergency authorities, 
including the ability to deploy the National Guard.\2\ To properly use 
these authorities to save lives and protect property, Governors and 
their homeland security advisors, emergency management directors and 
adjutants general, must have knowledge of capabilities, assets, and 
resources throughout the State. By serving as the central point of 
coordination among multiple jurisdictions and functional areas, States 
play a key role in ensuring that scarce resources are used effectively 
to meet identified National priorities that are tailored for regional 
needs.
---------------------------------------------------------------------------
    \2\ Testimony of FEMA Administrator Craig Fugate, House Homeland 
Security Subcommittee on Emergency Preparedness, Response, and 
Communications Hearing: The Federal Emergency Management Agency's FY 
2015 Budget Request: Ensuring Effective Preparedness, Response, and 
Communications; March 25, 2014; http://homeland.house.gov/hearing/
subcommittee-hearing-federal-emergency-management-agency-s-fy2015-
budget-request-ensuring.
---------------------------------------------------------------------------
    States currently employ a variety of governance structures to 
administer and manage the grant programs, but remain in the best 
position to oversee and coordinate all homeland security and emergency 
preparedness activities within their boundaries. Currently, States have 
no role in the use of port and transit security grants which limits 
visibility on the use of funds within the State or the projects 
receiving grant dollars. These funds could be used by a local area to 
implement proprietary communications systems that are not interoperable 
with surrounding areas or the State-wide system. These challenges make 
it difficult to ensure coordination among all levels of Government and 
ensure investments are aligned with city, State, and regional 
preparedness goals.
    We are encouraged that the NPGP proposal recognizes the importance 
of State oversight and are committed to working with this committee to 
explain how States are working with local stakeholders to ensure active 
engagement throughout the grants process.
              partnership is key to community preparedness
    Intergovernmental and public-private collaboration and 
communication are key elements in achieving a ``whole community'' 
approach to National preparedness. These concepts were recently 
demonstrated in a number of ways, including the improved preparation 
and response to Hurricane Sandy; the support provided by State and 
local fusion centers on numerous successful criminal and terrorism 
investigations, such as the Boston Marathon bombing; the on-going 
implementation of a Nation-wide public safety broadband network; the 
use of National Guard dual-status commanders to coordinate State and 
Federal military forces during an emergency; and the development and 
implementation of the National Preparedness System. The grants process, 
including reform efforts, must include input from a variety of 
stakeholders, and States are committed to working with our partners in 
local and Tribal governments as well as the first responder community.
    States use a variety of mechanisms to develop and implement 
homeland security strategies and plans on an on-going basis. Integral 
to all State efforts is the involvement of a multitude of State, local, 
and Tribal stakeholders throughout the process. Most States have 
regional councils or committees that are used to ensure coordination 
with local officials, including police, fire, emergency medical 
services, public health, county, and city management officials, non-
profit organizations and the private sector. These regional committees 
provide for a transparent process that fosters collaboration and 
partnership and aids in the distribution of the currently required 80 
percent ``pass-through'' of funds to localities.
    Active Federal, State, and local engagement is critical to 
addressing emerging National security challenges and to sustaining our 
current state of preparedness. No level of government can address any 
of these issues independently. In an era of constrained budgets, we all 
must learn to do more with less while ensuring the preparedness 
priorities of States receive the necessary attention they require. 
Effective partnerships are imperative to meet both the needs of our 
communities and the National Preparedness Goal of ``a more secure and 
resilient nation.''
                 states are partners in reform efforts
    As Congress and this committee consider the NPGP proposal and 
engage with stakeholders, NEMA and the GHSAC have offered several 
documents outlining States' priorities and principles to inform grant 
program reform. The documents are attached to this statement and 
submitted for the record. Furthermore, we offer several recommendations 
to ensure Federal investments in State and local preparedness remain 
aligned with National preparedness goals and provide a clear value to 
both communities and the taxpayer.
    1. Value local decision-making and National assessment.--An 
        examination of preparedness must not consist solely of broad 
        goals and priorities, but also must form the basis for action. 
        FEMA should continue to improve the SPR and THIRA process to 
        ensure they provide value to States and local governments. The 
        THIRA should support State efforts to integrate core 
        capabilities thoughtfully and systematically into their 
        planning, analysis, and assessment processes.
    2. Assess risk continuously across all levels of government.--
        Threat assessment, such as THIRA, must be conducted independent 
        of funding allocations in order to adequately assess the 
        current risk and hazards of a locality, State, and region. This 
        must be a continuous process and not a yearly snapshot simply 
        for reporting purposes.
    3. Encourage strategic plans versus spending plans.--The planning 
        process must focus on setting and achieving strategic goals 
        under changing and uncertain conditions. This is unlike the 
        current system where funding allocations are determined prior 
        to planning.
    4. Allocate funds based on priority needs.--Funding allocations 
        should prioritize investments to address the most pressing 
        capability gaps identified in the State and regional THIRA and 
        SPR.
    5. Measure progress to fill capability gaps.--The above steps allow 
        for an effective and meaningful measurement process. As 
        priorities in the State plans are funded, measureable gaps can 
        be identified, addressed, and reported to FEMA and Congress.
    6. Provide consistency and support long-term planning.--Grant 
        reform should support FEMA's ability to provide States and 
        subgrantees consistent grant guidance and policy, ensure 
        realistic time lines and foster a culture of collaboration 
        among States, local governments, and other subgrantees. States 
        are working with FEMA to integrate the THIRA and SPR processes 
        into State emergency planning, and it should remain part of 
        broader restructuring and reform of FEMA grant programs.
    Confronting today's dynamic threats requires an approach to 
emergency planning that unifies homeland security partners and remains 
flexible to changing priorities. The Nation must effectively build and 
strengthen capabilities against a range of threats and reduce the 
consequences of many hazards to reduce the risks to our communities. 
These goals can only be accomplished, however, when the barriers and 
stovepipes limiting flexibility and innovation are removed.
    NGA and NEMA welcome the opportunity to work with this committee as 
you assess the current grant programs, evaluate the NPGP proposal and 
consider other potential reforms. We also look forward to working with 
FEMA to identify and address key questions and concerns regarding their 
proposal and other opportunities to improve administration of Federal 
grant programs.
    Chairman Brooks and Ranking Member Payne, thank you for the 
opportunity to testify on this important topic. I am happy to answer 
any questions you or other Members of the subcommittee may have.
 Attachment.--Governors' Principles for Homeland Security Grant Reform
    The Department of Homeland Security provides State and local 
governments with preparedness grant funding that provides support for 
developing and maintaining critical homeland security and emergency 
management capabilities. Over the last several years, these grant funds 
have been significantly reduced. With decreased funding expected for 
the foreseeable future, Congress and the administration are reexamining 
the grant programs in order to make them more flexible and effective.
    Currently, there are 18 major preparedness grant programs 
administered by the Department of Homeland Security. Many of these 
programs often overlap with others, creating unintended inefficiencies 
and unnecessary administrative burdens. In addition, changing program 
requirements often make the current structure complex and burdensome to 
States.
    Governors are supportive of efforts to reform these programs. As 
reform proposals are considered by Congress and the administration, 
Governors offer the following principles:
    Principles:
  <bullet> Grants should be risk-based but continue to provide each 
        State and territory funding to support critical homeland 
        security and emergency management capabilities, including 
        personnel costs and the sustainment of investments.
  <bullet> Funding should focus on developing, enhancing, and 
        sustaining common core capabilities.
  <bullet> The Federal Government should work with States and 
        territories to develop consistent methods to measure or assess 
        progress in achieving common core capabilities.
  <bullet> Grant funding should be distributed through States and 
        territories to enhance regional response capabilities, avoid 
        duplication of effort, and ensure awareness of gaps in 
        capabilities.
  <bullet> Consistent with current law, States should be permitted to 
        use a portion of the grant funds for management and 
        administration in order to coordinate the efficient and 
        effective use of grant funds, provide necessary oversight and 
        comply with Federal reporting requirements.
  <bullet> Any reform to the current grant programs should provide 
        States with flexibility to determine which priorities should be 
        funded and where investments should be made within their 
        borders.
  <bullet> Any grant program should allow flexibility for any State 
        cost-share requirements.
  <bullet> The Federal Government should provide clear, timely, and 
        explicit guidelines for conducting threat assessments and how 
        those assessments will be used to determine base-level funding.
  <bullet> The Federal Government should be more transparent with 
        States in sharing the data used to populate the funding 
        formula/algorithm. States should be provided with a centralized 
        point of contact and reasonable time to review and inform the 
        data.
  <bullet> The Federal Government should ensure that reforms eliminate 
        inefficiencies, do not duplicate efforts, and do not place 
        additional administrative burdens on States.
  <bullet> Grants should allow for multi-year strategic planning by 
        States and local jurisdictions.
  Attachment.--NEMA Proposal for a Comprehensive Preparedness Grants 
                               Structure
                             December 2011
                               background
    This Nation has made great strides in improving our safety and 
security. We have more comprehensive interoperable communications 
systems, regional response assets, a National system of intelligence 
fusion centers, and an unprecedented level of collaboration and 
teamwork among State and local responders.
    Such programs as the Emergency Management Performance Grant (EMPG) 
Program and the Homeland Security Grant Program (HSGP) have done much 
to help public safety, law enforcement, emergency management, and a 
myriad of other professionals conduct a broad range of preparedness 
functions. From our neighborhood communities through all levels of 
government, we have acquired resources, achieved collaboration, and 
built systems to mitigate, prevent, prepare for, and respond to natural 
hazards and terrorist threats.
    The current grants structure is complex and often contradictory. 
This creates unintended inefficiencies in investments and duplication 
of efforts. The current and continuing fiscal condition of our Nation 
requires us to invest every dollar more wisely than ever before. We 
want to gain efficiencies in our grants so that we can increase the 
effectiveness of our mission.
    We cannot continue to segregate our efforts just because we did so 
in the past. We must integrate our efforts so that we are agile in 
confronting any threat to the homeland, whether it is natural, 
technological, or human-caused. We must build strengths and 
capabilities that are effective against many threats, reduce the 
consequences of many hazards, and thus reduce the risks to our Nation. 
We, therefore, require a comprehensive preparedness grants system to 
fulfill the requirements of those professionals with critical homeland 
security and emergency management responsibilities.
                          principles & values
    This Nation--its people and their vital interests--deserves and 
expects an effective and efficient National preparedness system 
providing safety and security. Therefore, this system must:
  <bullet> Support and enable the five mission areas of Presidential 
        Policy Directive 8 (PPD-8): Prevention, protection, response, 
        recovery, and mitigation.
  <bullet> Build a culture of collaboration enabling a posture of 
        preparedness for all hazards--from nature, terrorists, or 
        technology--capable of disrupting the social and economic 
        equilibrium of our Nation.
  <bullet> Be agile and adaptive to confront changing hazards, emerging 
        threats, and increasing risks.
  <bullet> Be unified on goals, objectives, and strategy among Federal, 
        State, Tribal, local, and territorial partners and with the 
        private sector, non-governmental organizations, and the public 
        at large.
  <bullet> Build and sustain a skilled cadre across the Nation that is 
        well-organized, rigorously trained, vigorously exercised, 
        properly equipped, prepared for all hazards, focused on core 
        capabilities, and resourced for both the most serious and most 
        likely threats and hazards. This cadre will be an asset to the 
        Nation through mutual aid, other assistance between States and 
        regions, or for National teams.
  <bullet> Build, enhance, and sustain capabilities, self-reliance of 
        the public, and resilience of our communities and Nation.
  <bullet> Reflect the fiscal responsibilities and limitations of the 
        present and the future. This Nation deserves safety and 
        security, but it also deserves solvency. A State and local 
        grant system must enable investments in capabilities that are 
        of value to communities, regions, States, and the Nation.
  <bullet> Continually encourage innovation and ceaselessly weed out 
        waste and inefficiencies.
  <bullet> Encourage States and communities to self-organize with their 
        neighbors to protect vital supply lines and assets and 
        infrastructure of mutual value and to enable swift, coordinated 
        response.
  <bullet> Recognize that States, Tribes, territories, and local 
        communities know their jurisdictions best. They must have 
        flexibility to set priorities, design solutions, and adapt to 
        rapidly-changing conditions. This must be done with full 
        accountability.
  <bullet> Provide full visibility to States, Tribes, territories, and 
        local communities of all Federal homeland security and 
        emergency management activities, investments, and programs 
        within their jurisdictions. This disclosure is essential for 
        full understanding of capabilities to address threats, hazards, 
        and risks.
  <bullet> Reinforce the value of leveraging Federal investments with 
        contributions from States, Tribes, territories, and local 
        governments and demonstrate the day-to-day value to 
        jurisdictions.
  <bullet> Continue to encourage and enable wide participation in 
        review of projects and investments.
  <bullet> Recognize the complex interdependencies of our National 
        systems, particularly the movement of goods, services, and 
        people. The vulnerabilities of a jurisdiction often lie outside 
        its borders and outside its ability to address them.
                                purpose
    We call upon Congress and the President to consider this proposal 
to reform State and local grants for the safety and security of our 
Nation. To this end, we seek to:
  <bullet> Encourage States, Tribes, territories, and local governments 
        to prepare and adopt comprehensive plans based upon their 
        evaluation of threats, hazards, risks, and vulnerabilities 
        facing them;
  <bullet> Outline a program of grants to States, Tribes, territories, 
        and local governments or combinations of governments improving 
        and strengthening the Nation's homeland security and emergency 
        management capabilities; and
  <bullet> Encourage research, development, competition, and innovation 
        enhancing the effectiveness and efficiency of emergency 
        management and homeland security and the development of new 
        methods for the prevention, preparedness, response, recovery, 
        and mitigation of natural disasters and acts of terrorism.
    This proposal presents a system enabling greater effectiveness in 
the mission with greater efficiency of resources. Over the past decade 
States, Tribes, territories, and local governments have created new 
organizational structures, gained invaluable experience, and increased 
our capacity to manage multiple threats and hazards.
    The high incidence of natural disasters and terrorist threats in 
the United States challenges the peace, security, and general welfare 
of the Nation and its citizens. To ensure the greater safety of the 
people, homeland security and emergency management efforts must work 
together with shared responsibilities, supporting capabilities, and 
measurable progress towards a National goal. This unity of effort is 
essential to achieve the vital objectives of PPD-8 and success of the 
National Preparedness System.
    This proposal outlines a system in which preparedness is a 
deterrent, prevention is achieved through collaboration, mitigation is 
a National value, and response and recovery encompass the ``whole of 
community.'' But the system works only where the principles guide the 
plans and where ideas lead to action. This reformed grant system shares 
control with those on the front line, enables flexibility while 
strengthening accountability, and ensures fiscal sustainability. State 
and local governments cannot do this alone.
               a comprehensive preparedness grants system
    A truly comprehensive preparedness grants system must allow for 
each State to determine core capabilities, set priorities in a flexible 
manner, and measure performance and effectiveness. This proposal 
recommends the creation or continuation of grants to coordinate 
planning, measure effectiveness, develop and sustain a skilled cadre, 
and invest in effective and efficient projects.
Planning
  <bullet> Conduct and maintain within each State a comprehensive 
        Threat Hazard Identification Risk Assessment (THIRA) in concert 
        with Department of Homeland Security (DHS) and State officials.
  <bullet> Develop a comprehensive preparedness strategy to assess 
        current capabilities, determine future requirements, and 
        evaluate recent progress and initiatives.
  <bullet> The strategy will focus on identified gaps and contain goals 
        and objectives to fill those gaps. The objectives will be 
        prioritized and funds will be prioritized to fill the most 
        important gaps accordingly. Identifying existing additional 
        capability that is owned and maintained by other jurisdictions 
        and readily available for response through mutual aid should be 
        an important planning activity.
A Skilled Cadre
    A skilled cadre is imperative within any comprehensive preparedness 
system and should be supported through a grants program. This skilled 
cadre includes emergency management and homeland security personnel. 
Since such expertise remains the backbone of any system, their 
responsibilities would include (but not be limited to):
  <bullet> Build and support State-wide emergency management and 
        homeland security all-hazards planning.
  <bullet> Provide comprehensive and appropriate levels of training and 
        conduct exercises for State and local personnel across the full 
        spectrum of emergency management and homeland security 
        responsibilities.
  <bullet> Support the National priorities outlined in PPD-8 and the 
        National Preparedness Goal.
  <bullet> Conduct public education and outreach to further whole-of-
        community preparedness.
    Within the skilled cadre grant, the existing EMPG would continue in 
its present form, including allocation method, match requirement, 
eligibility, management, appropriate funding, and flexibility. The 
existing policy continues that allows emergency management to 
administer EMPG if not the State Administering Agency (SAA).
    A similar grant program will be established for State homeland 
security professionals affording the same opportunity to build and 
sustain a skilled cadre of personnel. This grant would be modeled after 
EMPG which has been proven highly effective due to the flexibility it 
provides along with accountability. EMPG currently maintains a 50-50 
match requirement. Any match on the cadre-based grant for homeland 
security professionals should be instituted with a soft match option, 
and done so gradually over time in consultation with the States and 
professions involved.
Investments and Innovation
    Many capabilities identified in the comprehensive planning system 
will require investment in longer-term projects and procurement to 
achieve needed levels of effectiveness. An investment grant program 
will enable decisions on priorities across the broad range of emergency 
management and homeland security functions. This also enables swift 
adjustments in priorities in light of changing threats or increasing 
risks.
    Unlike the homeland security cadre-based grant in which the SAA 
determines the allocation of funds to State and local jurisdictions, 
the investment grant focuses on sub-grantee applications for projects 
and other investments based on similarly comprehensive planning efforts 
at the local or regional level. States should establish and maintain a 
multi-disciplinary review committee that advises on investments and 
projects.
    Eligible applicants to the investment grant include all currently 
eligible grant recipients under HSGP, local governments or combinations 
of governments, urban areas, regions, or other State-level agencies 
conducting appropriate preparedness activities. States with urban areas 
currently classified as ``Tier 1'' by DHS will continue to receive 
funding specifically for those areas, upon completion of a 
comprehensive preparedness strategy that has been approved by the 
State. Funding that would have been allocated to other participants in 
the current UASI program should be placed into the investment grant.
    Eligible expenditures for investment grants should encompass all 
functions of the currently separate programs and the priorities of PPD-
8, including equipment purchase and transfer, construction of emergency 
operation centers or similar facilities, special response units, 
critical infrastructure and key resource protection, medical surge, 
protection and resilience, information sharing and intelligence, and 
grant management and administrative costs. Pre-disaster mitigation 
should be an eligible project under investment grants and due 
consideration given to disaster loss reduction and resilience 
initiatives. Substantial data exists to justify continued pre-disaster 
mitigation programs in determining any set of priorities, and the 
disaster mitigation community's interests groups must be intimately 
engaged in the grant prioritization process. Flood mitigation 
assistance and repetitive loss grants are not included as they are 
funded through the National Flood Insurance Program by insurance 
proceeds paid by policy holders. Furthermore, to continue supporting a 
culture of innovation, up to 5 percent of the total investment grant 
award may be distributed by DHS to unique and innovative programs 
across the Nation to encourage best practices.
                       an overview of the system
  <bullet> Each State conducts and maintains a comprehensive Threat 
        Hazard Identification Risk Assessment (THIRA) in concert with 
        Department of Homeland Security (DHS) and State officials.
  <bullet> A comprehensive preparedness strategy is developed to assess 
        current capabilities, determine future requirements, and 
        evaluate recent progress and initiatives.
  <bullet> The State is awarded three allocations from DHS, including 
        one for EMPG, one for the new homeland security cadre grant, 
        and one for the new investment and innovation grant.
  <bullet> Applicants will apply for funds from the investment grant 
        based upon completed preparedness strategies. Applications are 
        reviewed by a multi-disciplinary advisory committee, and the 
        SAA makes awards as appropriate.
                               conclusion
    Our Nation faces enduring hazards, pervasive threats, and ever-
changing risks. Our current system lacks the agility to adapt swiftly 
or convert ideas into action. We need the Nation to unite in a common 
vision of National preparedness, resilience, and self-reliance. This 
proposal enables States, Tribes, territories, and local government to 
leverage their own resources with the Federal investment to build this 
vision and be accountable for achieving it. We need all levels of 
government, supported by all professions and disciplines, to unite in 
this innovative National preparedness system.

    Mrs. Brooks. Thank you, Ms. Eide.
    The Chairwoman now will recognize Mayor Fulop for 5 
minutes.

  STATEMENT OF STEVEN M. FULOP, MAYOR, JERSEY CITY, NEW JERSEY

    Mr. Fulop. Chairman Brooks, Ranking Member Payne, I am 
Steven Fulop, mayor of Jersey City, New Jersey. I appreciate 
the opportunity to testify before you on the administration's 
National Preparedness Grant Program proposal because I have 
serious concerns about it--concerns which are shared by my 
fellow mayors and other local government officials, emergency 
managers, port operators, transit officials, police chiefs, 
sheriffs, and the fire services.
    We strongly support the existing menu of homeland security 
programs because they are working. We recognize that they may 
not be perfect and some changes may be needed, but they are the 
product of years of work by Congress, by the administration, 
State and local government, and first responders.
    Jersey City is unique within our region and the Nation both 
for its historical significance and critical infrastructure. 
Jersey City, with its high population density, reliance on 
public transit, and proximity to New York City, requires a plan 
that is sensitive to our specialized needs and cognizant of 
Jersey City's close interdependence with Newark, New York City, 
and the Port Authority.
    In a phrase, there is no one-size-fits-all solution for 
emergency management and mitigation within our State. Emergency 
management and preparedness is, by nature, regional. The 
current funding structure, with its 13 independent grant 
programs, and especially the UASI program, recognizes this 
operational necessity.
    The NPGP proposal offers no guarantee that these funds will 
continue, and to scale back the regional emergency response 
infrastructure that we have been building since 2002 would be 
to place operational infrastructure, surety, and potentially 
constituents at risk.
    The synergies achieved from this regional approach aren't 
merely financial. By planning, training, and conducting 
exercise together, local fire chiefs, police chiefs, sheriffs, 
public health officials, emergency managers, and State and 
Federal officials develop working relationships and are able 
and ready to work together when an incident happens to handle 
the situation specific to our region.
    The NPGP proposal rejects the pragmatic regionalist 
approach to disaster and emergency management in favor of a 
State-wide managed, individualized, product-based approach, 
like those characteristics of other block grant programs in 
which local governments compete for resources. The critical key 
to emergency management is cooperation, not competition. This 
proposal fosters the inverse of a desired governmental result.
    Local government understands the risks and vulnerabilities 
of their areas with a greater degree of detail and granularity. 
The State has a poor track record of working with or even 
contacting local emergency managers. We simply cannot address 
security risks from 30,000 feet.
    Even worse, State control of this process would also 
potentially serve to politicize the process of funding 
allocations. Passing funding through State government will add 
another level of bureaucracy and erase any gains in 
governmental efficiency achieved by the consolidation.
    The consolidation prescribed by the NPGP will not only 
reduce the degree of specificity of emergency planning, but 
will also likely result in funding cuts for emergency 
management. This would mean halting the expansion of our 
security infrastructure and even potentially rolling back some 
of the systems and procedures we have already in place.
    If we didn't have the sophisticated communication 
capabilities enabled by our command center we would have fared 
far worse during Hurricane Sandy. While we appreciate the fact 
that FEMA made changes in its fiscal year 2015 budget proposal 
in response to some of the concerns raised, this proposal still 
contains several items of concern.
    Specifically: No. 1, consolidating the various programs 
into a State program in which State official make all of the 
funding decisions raises concerns about the program's continued 
ability to protect key infrastructure such as our ports and 
transit and increase the capacity of first responders.
    No. 2, the proposal would greatly broaden the definition of 
``unit of local government,'' a definition which currently is 
contained in numerous Federal statutes.
    No. 3, while the proposal maintains the requirement that 
States pass through 80 percent of the funding to locals, it 
does not ensure that funds would be used to meet locally-
identified needs and priorities.
    No. 4, the proposal appears to fold the UASI program into 
the NPGP program. Although the FEMA administrator would 
continue to designate UASI, the draft legislation does not 
specify whether there will be a separate funding stream, what 
role the States will play in the UASI funding decisions, and 
how we can be assured that the capabilities that have been 
developed through this critical program will be sustained and 
increased.
    No. 5, it would eliminate the 25 percent set-aside for law 
enforcement terrorism prevention, which is alarming.
    No. 6, it appears that the funds would not be used for fire 
fighting even though it is a key element of any response to a 
terrorist attack.
    No. 7, the legislative proposal requires that all grant-
funded assets be Nationally-deployable through the Emergency 
Management Assistance Compact. While we understand the 
importance of sharing assets Nationally, some of those funds 
through these programs, particularly those that protect 
critical infrastructure, simply are not deployable.
    No. 8, the proposal places a great deal of emphasis on the 
Threat and Hazard Identification and Risk Assessment, THIRA. 
Yet currently many local governments have been left out of that 
process entirely.
    As the committee considers the suite of homeland security 
programs and possibly reforms to them, I urge you to increase, 
not decrease, local involvement and flexibility. Local 
officials know best the threats they face and they know best 
the gaps that exist in community preparedness.
    Thank you for the opportunity.
    [The prepared statement of Mr. Fulop follows:]
                   Prepared Statement of Steven Fulop
                             April 29, 2014
    Chairman Brooks, Ranking Member Payne, and Members of the 
committee, I am Steve Fulop, mayor of Jersey City, NJ. I appreciate the 
opportunity to testify before you on the administration's National 
Preparedness Grant Program proposal, because I have serious concerns 
about it--concerns which are shared by my fellow mayors and other local 
government officials, emergency managers, port operators, transit 
officials, police chiefs, sheriffs, and the fire service.
    We strongly support the existing menu of homeland security programs 
because they are working. We recognize that they may not be perfect and 
some changes may be needed, but they are the product of years of work 
by Congress, the administration, State and local governments, and first 
responders. The Federal grant funds which the Department of Homeland 
Security and its Federal Emergency Management Administration have 
provided clearly have improved the Nation's planning, mitigation, 
preparedness, prevention, response, and recovery capabilities. I am not 
alone when I say that we have hit our stride with the grant 
administrators in the Federal and State government.
                              jersey city
    Jersey City is unique within our region and the Nation both for its 
historical significance; having served as a gateway to immigrants, the 
proximity of the Statue of Liberty, Ellis Island, and critical 
infrastructure, represented by the Holland Tunnel, the Port Jersey, 
Greenville Yards, and major rail and road networks.
    As a result, Jersey City faces unique risks, both from the threat 
of terrorism, as well as natural disasters. Jersey City's demands ought 
not to be merely included within a State-wide funding structure. In a 
phrase, there is no one-size-fits-all solution for emergency management 
and mitigation within our State. Jersey City with its high population 
density, reliance on public transit, and proximity to New York City, 
requires a plan which is sensitive to our specialized needs and 
cognizant of Jersey City's close interdependence with Newark, New York 
City, and the Port Authority.
    Emergency management and preparedness is, by nature, regional. The 
current funding structure with its 13 independent grant programs, and 
especially the UASI program, recognizes this operational necessity. 
Currently, Jersey City, as one of the core cities of its UASI region, 
is guaranteed $1.5 million dollars a year, with the option to apply for 
additional funding. The Northern New Jersey Region receives $30 million 
dollars which reflects the unique status of Jersey City and Newark are 
the two largest cities in the State. Additionally, the 7 northern 
counties form a cohort by which municipalities apply for security 
grants.
    The NPGP proposal offers no guarantee that this funds will 
continue, and to scale back the regional emergency response 
infrastructure that we have been building since 2002, would be to place 
operational infrastructure, surety, and potentially constituents at 
risk.
    The synergies achieved from this regional approach aren't merely 
financial. Our municipal emergency personnel has had ample 
opportunities to communicate, plan, and train with other emergency 
management agencies such as the port authority police, other fire and 
police departments, hospital networks, and private utilities. These 
organizations develop working relationships and experience cooperation 
to handle the potential situations specific to our region.
    The NPGP proposal rejects the pragmatic regionalist approach to 
disaster and emergency management in favor of a State-wide managed 
individualized project based approach like those characteristics of 
other block grant programs in which local governments compete for 
resources. The critical key to emergency management is cooperation, not 
competition, this proposal fosters the inverse of a desired 
Governmental result.
    Local government understands the risks and vulnerabilities of their 
areas with a greater degree of detail and granularity. It is unclear in 
the proposal as to how local government officials will participate in 
Threat Hazard Identification and Risk Assessment process to address 
local issues. The State has a poor track record of working with or even 
contacting local emergency managers. We simply cannot address security 
risks from 30,000 feet. Even worse, State control of this process would 
also potentially serve to politicize the process of funding allocation. 
For example, the distribution of Federal Sandy Relief Aid was arguably 
not entirely based upon objective data, slow to be forthcoming, 
unresponsive to homeowners and business. In a word, the distribution of 
the aid was in and of itself a ``disaster'' of our own making.
    Passing funding through State government will add another level of 
bureaucracy, and erase any gains in governmental efficiency achieved by 
the consolidation. Additionally, the State of New Jersey has a mixed 
track record of balancing the concerns of rural and suburban 
communities with those of urban areas, especially when it comes to 
emergency preparedness. For example, in the aftermath of Hurricane 
Sandy, the changes to the State Construction Code required that all 
structures within FEMA flood zones be elevated. While that applies 
buildings in shore towns, there is no way to elevate the housing stock 
in Jersey City. I fear that if this proposal is accepted, this trend 
will continue to emergency funding.
    The consolidation prescribed by the NPGP will not only reduce the 
degree of specificity of emergency planning, but will also likely 
result in funding cuts for emergency management. This would mean 
halting the expansion of our security infrastructure, and even 
potentially rolling back some of the systems and procedures we have 
already in place. Our local Office of Emergency Management has a 
$200,000-per-year maintenance budget which allows us to keep our 
software and communications systems up-to-date. Without the current 
level of funding we would be forced to dismantle some of our critical 
systems, such as our waterfront security network, CCTV system, fiber 
communication system, and retire our Fireboats, because we would have 
the funds to maintain them.
    There is no clearer testament to the effectiveness of the current 
funding structure than our response to Hurricane Sandy. If we didn't 
have the sophisticated commutations capability enabled by our command 
center, we would have fared far worse during Hurricane Sandy. The 
ability to coordinate between emergency responders, utilities workers, 
community stakeholders, and the citizens seamlessly was integral to our 
control of the situation.
            the national preparedness grant program proposal
    The National Preparedness Grant Program proposal would consolidate 
the existing suite of homeland security grant programs into State-
administered block and competitive grant programs in which funding 
decisions are based on State and multi-State threat assessments.
    While we appreciate the fact that FEMA made changes in its fiscal 
year 2015 budget proposal in response to some of the concerns raised by 
the Conference of Mayors and other organizations and for the first time 
provided draft legislative language. That proposal retains the 
provision that 80 percent of the funds be provided to local agencies 
and brings more transparency to the State decision-making process.
    It still contains several items of concern, however. These include 
collapsing all of the current programs into a consolidated program that 
would no longer guarantee the retention of key programs, removal of the 
25 percent set-aside for law enforcement terrorism prevention, and 
radically changing the definition of local government to include port 
and transit authorities and private organizations. Specifically:
    1. Consolidating the various programs into a State program in which 
        State officials make all of the funding decisions raises 
        concerns about the programs' continued ability to protect key 
        infrastructure, such as ports and transit, and increase the 
        capacity of first responders, the vast majority of whom are at 
        the local level. In a word, filtering the funding through the 
        State government adds an unnecessary layer of bureaucracy, 
        because ultimately, those actually dealing with emergencies are 
        local.
    2. The proposal would greatly broaden the definition of unit of 
        local government, a definition which currently is contained in 
        numerous Federal statutes. While the proposed change is written 
        in a way that would try to limit its application only to the 
        NPGP, it could set a dangerous precedent for other laws and 
        programs.
    3. While the proposal maintains the requirement that States pass 
        through 80 percent of the funding to locals, it does not ensure 
        that funds would be used to meet locally-identified needs and 
        priorities. In the past many local governments have indicated 
        they have had little opportunity for input, and sometimes 
        little opportunity to consent to the State use of the funds in 
        their jurisdictions.
    4. The proposal appears to fold the Urban Area Security Initiative 
        Program into the NPGP. Although the FEMA administrator would 
        continue to designate UASI's, the draft legislation does not 
        specify whether there will be a separate funding stream, what 
        role the States will play in UASI funding decisions, and how we 
        can be assured that the capabilities that have been developed 
        through this critical program will be sustained and increased.
    5. It would eliminate the 25 percent set-aside for law enforcement 
        terrorism prevention, which is alarming given the fact that 
        local police departments and their officers have played a 
        crucial role in preventing acts of terrorism since 
        9/11 and this the only funding designated specifically for 
        prevention.
    6. It appears that the funds could not be used for firefighting, 
        even though it is a key element of any response to a terrorist 
        attack. The draft authorizing legislation specifies that the 
        NPG would ``build and sustain core capabilities identified in 
        the National Preparedness Goal,'' but DHS does not identify 
        firefighting as one of its core capabilities.
    7. The legislative proposal requires that ``all grant-funded assets 
        . . . be nationally deployable through the Emergency Management 
        Assistance Compact (EMAC).'' While we understand the importance 
        of sharing assets Nationally, some of those funded through 
        these programs, particularly those that protect critical 
        infrastructure, simply are not deployable.
    8. The proposal places a great deal of emphasis on the Threat and 
        Hazard Identification and Risk Assessment (THIRA). Yet 
        currently many local governments have been left out of that 
        process and when they are involved in the process there does 
        not appear to be a mechanism in place to resolved differences 
        between a local government and the State government.
    The U.S. Conference of Mayors and other organizations which 
represent local governments, first responders, and emergency managers 
have urged FEMA and the administration to work with them and with the 
Congress to develop program reforms which incorporate the successful 
elements of past and current programs and identify new approaches which 
can have broad support. They further urge that any reform proposals 
protect certain key programs, including the Urban Area Security 
Initiative and port and transit security grants, which provide targeted 
funding to local areas like Jersey City, which contain critical 
infrastructure considered to be at the highest risk.
    Particularly important is the incentive they provide for Federal, 
Tribal, State, and local jurisdictions to work together. By planning, 
training, and conducting exercises together, local fire chiefs, police 
chiefs, sheriffs, public health officials, emergency managers, and 
State and Federal officials develop working relationships and are able 
and ready to work together when an incident happens. As last year's 
response in Boston to the Marathon Bombings showed, this pre-planning 
and coordination prevents confusion, and saves lives. (sandy section)
                   principles for program improvement
    Finally, the local government, emergency manager, and first 
responder organizations have suggested to FEMA that as it works with 
Congress and stakeholders to improve its programs, it use the following 
set of core principles:
    Increase Transparency.--It must be clear and understandable to the 
Federal Government and the public how the States are distributing 
funds, why they are making these decisions, and where the funds are 
going.
    Increase Local Involvement.--Local Government officials, including 
emergency managers and emergency response officials, know best the 
threats and vulnerabilities in their areas. The Threat Hazard 
Identification Risk Assessment (THIRA) process must include the input 
of local elected and emergency response officials, and the Federal 
Emergency Management Administration (FEMA) must be able to audit States 
by comparing local risk assessments to the State level THIRA. Further, 
local governments should have the opportunity to challenge a State 
THIRA that inadequately reflects their needs or input.
    Provide Flexibility with Accountability.--Any changes to the 
existing Federal grant programs should allow Federal funding to meet 
individual local needs, and preparedness gaps as identified at the 
local level. Effective but sometimes less politically popular programs, 
like mitigation, must still receive funding.
    Protect Local Funding.--Since event impact and response are 
primarily local in nature, grant funding should support primarily local 
prevention and preparedness efforts, as is the case under the current 
program structure. It is important that the vast majority of Federal 
homeland security grants continue to fund local prevention and response 
activities, including local emergency managers and first responders, 
and activities that support their preparedness efforts.
    Sustain Terrorism Prevention.--The current emphasis on supporting 
law enforcement's terrorism prevention activities must be maintained. 
The Federal grant funds should not be used to support larger State 
bureaucracies at the expense of operational counterterrorism 
preparedness, threat analysis, and information-sharing activities.
    Provide Incentives for Metropolitan Area Regionalization.--While 
FEMA's proposal focuses on States and multi-State regions (similar to 
the FEMA regions), the homeland security grants must also support 
preparedness in metropolitan intra-State and inter-State regions, such 
as the National Capital Region.
                               conclusion
    As this committee considers the suite of homeland security grant 
programs and possible reforms to them, I urge you to increase, not 
decrease, local involvement and flexibility. Local officials know best 
the threats they face, and they know best the gaps which exist in 
community preparedness. The homeland security grant programs should 
support primarily local prevention and preparedness efforts since 
disaster impacts and response are local in nature.
    I appreciate the opportunity to testify before you today on this 
issue of vital importance to me, my city, and my region, and to all 
local officials, emergency managers, port and transit operators, and 
first responders across the Nation. We look forward to working with you 
to ensure the transparency, efficiency, and effectiveness of homeland 
security grants.

    Mrs. Brooks. The Chairwoman now recognizes Mr. Riggs for 5 
minutes.

 STATEMENT OF DAVID TROY RIGGS, DIRECTOR, DEPARTMENT OF PUBLIC 
             SAFETY, CITY OF INDIANAPOLIS, INDIANA

    Mr. Riggs. Chairman Brooks, Ranking Member Payne, thank you 
for allowing me to be here today and testify in regards to the 
National Preparedness Grant. It is certainly an honor to be 
here and it is also a privilege to represent our 3,200 
employees within the Department of Public Safety in 
Indianapolis, Indiana.
    I will have to confess that it seems like a good ideal to 
combine programs to increase efficiencies and effectiveness, 
but I have to say that I do not believe this proposal does a 
good job of meeting the local needs of the city of 
Indianapolis.
    On reflection, if you look at recent years we have lost 
about $1.2 billion in funding through Urban Area Security 
Initiative and the State Homeland Security Grants Program--
reduction, once again, of $1.2 billion. This fluctuation in 
appropriations has negatively impacted Indianapolis and other 
cities in recent years.
    In 25 years of working in law enforcement and public safety 
I don't think there was anything as profound as 9/11, and the 
issues that we faced as a result, and the funding that came 
because of those issues. Many projects were started using grant 
funding from homeland security grants, which helped us to 
advance operation and develop capabilities that we were never 
able to do in the past.
    In Indiana the funding granted enabled us to start up the 
fusion center, enhance our bomb response capabilities, and 
allow us to install a video camera system in downtown 
Indianapolis that oversees major events, including the recent 
Super Bowl. When the city lost UASI funding in 2011 and 2013 we 
were left without the financial means to continue to support 
many of these operations.
    The loss of funding created a financial burden on the city 
that was already experiencing hardships with the budget due to 
the downturn in the economy. Locally, we could not sustain our 
operations and we had to make some tough decisions to continue 
some critical operations.
    We also had to make some tough decisions on how we were 
going to staff our Homeland Security Department and also our 
Regional Operations Center. The camera system's maintenance 
agreement and software renewal was in question for 2014 until 
we heard about the USAI monies which would be freed up in 2014.
    In addition, one of our concerns is this proposal mentions 
that the State will review and approve proposed projects. Now, 
while the city has a very good relationship with our State 
friends and government, I can see a time where that could not 
always be the case and has been in some other positions that I 
have had.
    For instance, one of our concerns at this point is that 
there is $4.9 million that will go to the city, most likely--or 
go to the State, most likely in 2014; $3.9 million goes to the 
State to be distributed throughout local governments and be 
utilized for themselves. Out of that $3.9 million in 2013, the 
city of Indianapolis received $10,000.
    For the $1 million UASI funds that we believe we will 
receive in 2014, $200,000 of that will go to the State, 
$100,000 will go to the fusion center, and one of our partners 
has asked for $400,000 to expand their camera system. If that 
is approved that means in 2014 the city of Indianapolis, 
Indiana, the economic giant of Indiana and the Midwest, will 
receive a little over $300,000 out of $4.9 million that is 
appropriated, and we would ask for you to look into our 
concerns.
    Thank you for allowing me to testify.
    [The prepared statement of Mr. Riggs follows:]
                 Prepared Statement of David Troy Riggs
                             April 29, 2014
    If you support the proposal why? We do not support the National 
Preparedness Grants Program Proposal.
    If you oppose the proposal why? While it seems like a good idea to 
combine programs to increase efficiency and effectiveness, we are not 
sure this proposal does a good job of meeting local needs. On 
reflection, in recent years combined appropriations for UASI--Urban 
Areas Security Initiative and SHSGP--State Homeland Security Grants 
Program were proposed at $2,250,000,000; under the proposed 
streamlining of the National grants, those appropriations would be 
reduced to $1,043,200,000. A reduction of $1,206,800,000.
    The fluctuation in appropriations has negatively impacted 
Indianapolis in recent years as we have moved toward using sound 
business practices in our planning and day-to-day operations.
    Following 9/11, many projects were started using grant funding from 
Homeland Security grants which helped us to advance current operations 
and develop capabilities to help us better prepare for a response 
incident. The funding granted enabled the start-up of the Fusion 
Center, enhanced our bomb response capabilities, allowed us to install 
a camera system throughout the city on critical infrastructure sites, 
and paid for staff to monitor those cameras.
    When the city lost UASI funding in 2011 and in 2013 due to our 
THIRA ranking, we were left without the financial means to support 
operations. The loss of funding created a financial burden on a city 
that was already experiencing budget shortfalls due to a dwindling tax 
base and a struggling economy. Locally, we just could not sustain our 
operations and had to make some tough decisions in order to keep the 
most critical operations active. We also had to make some tough 
decisions regarding how we staffed our homeland security department and 
regional operations center. The camera system's maintenance agreement 
and software renewal was in question of happening in 2014 because of 
funding uncertainties until YR2014 UASI monies were announced. We are 
still pursuing other ways to sustain equipment purchased previously 
with grant funds in case we lose funding again.
    In addition, the proposal has added the language that the State 
``will review and approve the proposed projects'' on page 34. While the 
city has a good relationship with the State, one has to wonder how any 
future political climate could affect critical projects the city needs 
to complete if the State has to approve them. The proposal also seems 
to give the State more control over local projects just based on the 
required approval. This language is very similar to the previous grants 
program but adds the approval from the State.
    The Metropolitan Statistical Analysis explains how we are 
evaluated. These new programs require us to manage the risk from 
significant threat and hazards to physical and cyber critical 
infrastructure utilizing an integrated approach across our diverse 
community:
  <bullet> Identify, deter, detect, disrupt, and prepare for threats 
        and hazards to the National Critical Infrastructure;
  <bullet> Reduce vulnerabilities of critical assets, systems, and 
        networks; and
  <bullet> Mitigate the potential consequences to critical 
        infrastructure of incidents or adverse events that do occur.
    The success of this required integrated approach depends on 
leveraging the full spectrum of capabilities, expertise, and experience 
across the critical infrastructure community and associate 
stakeholders. However, when the city of Indianapolis goes one funded, 
the next year unfunded, and the following year funded, truly makes it 
difficult to create a solid business plan with goals and objectives. 
The on and off years of funding limits our capability to Incorporate 
Resilience into Critical Infrastructure Projects and execute a Critical 
Infrastructure Risk Management Approach.
    Currently we only have 12 sites within the National Infrastructure 
Index within Indianapolis Urban Area. This does not include places like 
Eli Lilly's, Roche, Morse Reservoir, and JW Marriott. A level 1 and 2 
critical infrastructure sites is now being evaluated by the Homeland 
Infrastructure Threat and Risk Analysis Center as part of the National 
Critical Infrastructure Prioritization Program.
    To be a level 1 Site, the infrastructure has to meet at least two 
of the four:
  <bullet> Greater than 5,000 prompt fatalities,
  <bullet> Greater than $75 billion in first-year economic 
        consequences,
  <bullet> Mass Evacuations with prolonged absence of greater than 3 
        months,
  <bullet> Severe degradation of the Nation's National security 
        capabilities.
    To meet level 2 criteria must meet 2 of the 4:
  <bullet> Greater than 2,500 prompt fatalities,
  <bullet> Greater than $25 billion in first-year economic 
        consequences,
  <bullet> Mass Evacuations with prolonged absence of greater than 1 
        months,
  <bullet> Severe degradation of the Nation's National security 
        capabilities.
    Level 2 Catastrophic Economic Impact criteria allows Indianapolis 
to nominate infrastructure that, if disrupted, could result in greater 
than $50 billion in first-year economic impacts. The convention 
business is not currently under this criterion as we don't know the 
first-year impact and would it meet the $50-billion-dollar impact.
    What alternative reforms, if any would you suggest? We would 
recommend more funding and the deletion of the approval from the State. 
Their review of the plan should be sufficient. In addition, it would be 
more efficient to award directly to the High-Risk areas instead of 
having the State add a level of bureaucracy to the process. It also 
delays funding being made available to Jurisdictions quickly. Our State 
tends to utilize funds equally throughout the State, without 
consideration to threat, risk, and vuinerabiiity, so, having all funds 
in one will create less opportunities for Urban Areas for funding 
prevention, investigation, and mitigation.
    A recommended change would be to have UASI setup similar to how 
Urban Search and Rescue Task Forces are funded. Having the funds go 
through the State creates levels of bureaucracy. It also means the 
urban will not get the full funding allocated. The State takes 20% and 
takes additional funds for the Fusion Center, versus using State 
Homeland Security Grant Funds.
    Are there any reforms that could be made to the current grants 
structure that would make it more efficient and better able to meet 
your needs? The current system seems to work well. However, it would be 
more efficient to award directly to the High-Risk Areas. This would 
eliminate a level of bureaucracy and would get funding to the local 
jurisdictions faster.
    The THIRA process needs to be improved. UASI funding is 
disproportionate throughout the United States based on rankings based 
on one report. There are some cities that rank higher than Indy and we 
just have to wonder whether or not the THIRA really assesses our threat 
level accurately. For example, Pittsburgh and Kansas City were ranked 
higher than Indy.
    I am also interested in your perspective on how the Threat and 
Hazard identification and Risk Assessment (THIRA) and Capability 
Estimation processes are working. Have the addition of these 
requirements helped you to better address your security needs?
    Integrated Picture of Risk. Risk management is one of the most 
underappreciated aspects of preparedness, but could be one of the most 
important. This is not specific to Indianapolis, but Nation-wide. 
Threats cannot be isolated into singular events. Rather, the full range 
of threats and hazards must be considered particularly how they relate 
to resource allocation, gap assessment, and planning. The Federal 
Emergency Management Agency (FEMA) has enhanced the efforts to address 
risk through the Threat Hazard Identification and Risk Assessment 
(THIRA) process. Local officials can not only participate in the larger 
THIRA process, but smaller-scale efforts could be utilized to assess 
and add more emphasis on special events, along with short- and long-
term economic effects of an attack to natural disaster to the entire 
region.
    Local officials understand the risk picture, but the THIRA only 
attaches risk to specific events. While the THIRA can aid in assessing 
risk locally, such a process cannot be the sole prism through which 
risk is viewed. The vision must be broad and integrated so as to 
consider the full range of threats and hazards beyond singular events. 
This issue expands beyond event-specific challenges as well.
    Indianapolis is known as the No. 1 conference city in the United 
States. We must consider the amount of revenue and job creation the 
region receives, what would be the long-term impact and recovery after 
an attack. How many conventions would consider changing locations? If 
conventions moved then how many jobs would that impact? We could 
possibly see a downturn that would not only affect the city, but also 
the entire region. Indianapolis has a lot of commuters that live in 
surrounding counties; if we seen a downturn and companies/hotels/
restaurants closed, we then would start to see vacant housing the 
entire 9-county region.
    Local police departments and their officers have played a crucial 
role in preventing acts of terrorism since 9/11. State and local police 
departments have been able to build and maintain capabilities through 
the 25% set-aside for law enforcement terrorism prevention activities. 
However, the National Preparedness Grant Program (NPGP) proposal would 
eliminate this 25% set-aside. How would this impact public safety in 
your jurisdiction? The deletion of the 25 percent required law 
enforcement takes away for prevention and investigation requirements 
and first responders become responders only with very little funding 
for prevention initiatives and training.
    According to NPGP documents and in FEMA response to Ranking Members 
Payne and my letter, the dedicated investment jurisdiction for the 
sustainment of fusion centers will be a policy decision left to the 
discretion of the Secretary. As we have seen in recent events and 
especially in the Boston Marathon bombing there is a lack of 
intelligence and information sharing between Federal law enforcement 
agencies and States and locals. I have visited my State's fusion center 
and have seen how these centers can play a role in mitigating this gap. 
Can you please how explain how you utilize your State's fusion center?
    We, Indianapolis-Marion County provide the most support with Intel 
Operators (1-IMPD-Indianpolis Metropolitan Police Department, 1-IFD-
Indianapolis Fire Department, 2-MCSO-Marion County Sheriff's Office). 
We are also the highest users of the fusion center for day-to-day 
criminal investigative work. District officers and detectives call upon 
the fusion center several times a week for CLEAR Reports, BMV pictures 
and reports, other State and Federal database request.
    As part of the MET table-top exercise, I attached the summary that 
the Naval Postgraduate School put together. Within the document it 
talks about the fusion center being robust and supportive of 
information sharing. However, it also identified questions among 
multiple agencies who participated on the information sharing with the 
FBI JTTF. The fusion center also provides us with a private-sector 
liaison that works to share information and gain intelligence or 
information. This has shown to be success during the last table-top 
with the Naval Postgraduate School and the Joint Counter Terrorism 
Awareness Table top completed in 2011.
    The Fusion Center also provides us direct access with a U.S. DHS 
Intel Officer that we work with weekly. The Intel Officer provides bi-
weekly secure briefings as part of the National information-sharing and 
terrorist screening center reports for Indiana.
    FOLLOW-UP: You have expressed how critical your State's center is 
to the State and local law enforcement officials, if the dedicated 
investment jurisdiction was eliminated, would the State be able to 
maintain the center and if not, how would this affect your operations?
    This question would be hard to answer as we don't know if the State 
would maintain funding for the fusion center.
    Thank you for the opportunity to share testimony on the proposed 
National Preparedness Grants Program and we look forward to working 
with you to ensure all localities will be able to continue to enhance 
the safety and security and quality of life for residents and guests 
alike. Please do not hesitate to contact me if you should require 
further information.

    Mrs. Brooks. Thank you, Mr. Riggs.
    The Chairwoman now recognizes Chief Metcalf for 5 minutes.

STATEMENT OF WILLIAM R. METCALF, EFO, CFI, FIFIREE, FIRE CHIEF, 
  NORTH COUNTY FIRE PROTECTION DISTRICT, STATE OF CALIFORNIA, 
   TESTIFYING ON BEHALF OF INTERNATIONAL ASSOCIATION OF FIRE 
                             CHIEFS

    Chief Metcalf. Good morning, Chairman Brooks, and Ranking 
Member Payne, and Members of the committee. I am Chief Bill 
Metcalf from the North County Fire Protection District, located 
in the San Diego suburb of Fallbrook, California, and today I 
am representing the International Association of Fire Chiefs as 
its president and chairman of the board. I thank the committee 
for the opportunity to testify today.
    The IAFC is committed to ensuring that America's first 
responders have the necessary equipment, staffing, and training 
to protect our communities. In any discussion of grant reform, 
local first responders must be an equal participant with the 
States in identifying threats, risks, and vulnerabilities. We 
also must have an equal voice in allocating resources to 
address them.
    This year FEMA has again included a proposal to consolidate 
the 16 homeland security preparedness grants into one program, 
and the IAFC continues to have serious concerns with the 
revised NPG proposal. We commend the subcommittee for 
consulting with all stakeholders in this discussion about grant 
reform and we thank Congress for not implementing past versions 
of the plan.
    The homeland security grant programs were created by 
Congress to fill the gaps in our National preparedness system 
that were exposed by the terrorist attacks of September 11, 
2001, and Hurricanes Katrina and Rita in 2005. In past years, 
resources developed with homeland security grants have been 
used to respond to incidents as varied as last year's Boston 
Marathon bombing, active-shooter incidents, and natural 
disasters.
    In my own agency we have used State homeland security 
grants and UASI funds to improve communications 
interoperability, improve fire station security, and train our 
leadership to manage large-scale and complex incidents. The 
success of FEMA's grants is that they provide an incentive for 
local fire chiefs, law enforcement officials, emergency 
managers, public health officials, State and Federal officials, 
and other stakeholders to plan, train, and conduct exercises 
together.
    In April 2012, Chief Hank Clemmensen, my predecessor as 
IAFC president, laid out seven principles for an effective 
homeland security grant program. Those principles included 
concepts such as sustainment of existing capabilities, 
transparency, and local engagement. Using these criteria, the 
new NPG proposal continues to have major problems.
    For example, the IAFC is concerned that the NPG relies on 
THIRAs to identify threats, risks, and vulnerabilities. In 
addition, the NPG will use THIRA results to allocate funding.
    However, throughout the Nation, local involvement in State 
THIRAs is extremely uneven. In my case in California I can tell 
you that local fire chiefs were not involved in the creation--
or have not been involved in the creation of the State's THIRA.
    We also are concerned by the NPG's State-centric focus in 
many regions. Preparedness depends on a multi-State 
disciplinary approach. The National capital region is a good 
example of this approach, and the NPG's State-centric approach 
could build barriers to cooperation in multi-State regions.
    The NPG is aimed at building and sustaining core 
capabilities defined by the National Preparedness Goal. The 
IAFC would like to see fire-fighting spelled out as a specific 
core capability.
    Overseas terrorists have used fires to sow confusion and 
draw media attention and there is evidence that al-Qaeda's 
adherents are looking to use fire as a weapon in the United 
States. Fire-fighting must be recognized as a core capability 
at the beginning of any response to an act of terrorism.
    Additionally, the IAFC is concerned how the NPG will deal 
with cities that are part of the UASI program. FEMA indicated 
that there will be a process to sustain capabilities in UASI 
cities. However, this process is not described in FEMA's draft 
authorizing legislation for the NPG.
    We are also concerned about the elimination of the 25 
percent set-aside for law enforcement terrorism prevention 
program. This funding acts as an incentive for law enforcement 
agencies to adopt NIMS and engage in multi-disciplinary 
planning and exercises.
    In addition, we are concerned by FEMA's proposal to expand 
the definition of ``local unit of government'' to include non-
Governmental and potentially not-for-profit entities. This 
proposal would create a dangerous precedent in law for 
expanding the definition of local government.
    Finally, the IAFC is concerned that FEMA's fiscal year 2015 
budget proposal would cut funding for homeland security 
preparedness grants by approximately 18 percent. In light of 
the continued terrorist threat, we ask Congress to sustain the 
fiscal year 2014 funding levels for these programs.
    Instead of the NPG program, simpler measures could be taken 
to improve the effectiveness of DHS grant programs. For 
example, FEMA could develop a system to allow grant recipients 
to share information about successful uses of grant funds to 
build and sustain capabilities. This proposal would allow 
grantees to learn from each other and allocate resources more 
effectively.
    In conclusion, I would like to emphasize the importance of 
assuring that local, State, and Federal partners are all equal 
participants in the National preparedness system. From the 
perspective of a local fire chief, both staffing and equipment 
are locally owned. Local fire chiefs need to be involved in the 
THIRA process.
    On behalf of America's fire and EMS chiefs I would like to 
thank you for holding today's hearing. As Congress considers 
the issue of grant reform, we look forward to working with you, 
FEMA, and other stakeholders to better protect our communities, 
and I look forward to answering any questions you may have.
    [The prepared statement of Chief Metcalf follows:]
                Prepared Statement of William R. Metcalf
                             April 29, 2014
    Good morning, Chairman Brooks, Ranking Member Payne, and Members of 
the subcommittee. My name is William R. Metcalf, EFO, CFO, FIFireE, 
chief of the North County Fire Protection District, located in 
Fallbrook, California. Today, I am representing the International 
Association of Fire Chiefs (IAFC) as its president and chairman of the 
board. I would like to thank the subcommittee for this opportunity to 
represent the views of local firefighters and EMS responders in the 
discussion about the Federal Emergency Management Agency's (FEMA) 
National Preparedness Grant (NPG) Program proposal.
    The IAFC is committed to ensuring that America's first responders 
have the necessary equipment, staffing, and training to protect their 
communities. In any discussion about grant reform, local first 
responders must be an equal participant with the States in determining 
threats, risks, and vulnerabilities and in allocating resources to 
address them.
    We remain greatly concerned by the NPG proposal. Twice previously, 
FEMA has proposed the consolidation of the 16 homeland security grants. 
The IAFC and other groups representing the fire and emergency service, 
law enforcement, local governments, and other stakeholders have 
expressed concern with this State-centric approach. The IAFC commends 
Congress for asking FEMA for more details and not implementing past 
versions of this proposal.
    This year, FEMA submitted authorizing language with its new version 
of the NPG proposal. While this proposal includes more details, we 
continue to have serious concerns about the NPG proposal. The IAFC 
believes that any successful grant reform proposal must treat Federal, 
State, and local stakeholders equally in determining risks and threats 
and in allocating resources and funding to meet these risks.
    The homeland security grant programs were created by Congress to 
help fill gaps in our National preparedness system as identified by the 
terrorist attacks of September 11, 2001, and Hurricane Katrina. Events 
over the past years, including the Boston Marathon bombing last year, 
the deadly 2011 tornadoes in Alabama and Missouri and the January 2011 
active-shooter incident in Tucson, Arizona, all have demonstrated how 
FEMA's homeland security grant programs have improved our Nation's 
preparedness.
    My agency is located immediately adjacent to Marine Corps Base Camp 
Pendleton, and it responded to the massive fires in southern California 
in 2003 and 2007. Using the State Homeland Security Grant Program and 
the Urban Areas Security Initiative (UASI), we were able to improve 
regional radio interoperability and develop resilient internal 
communications, improve the security of our fire stations and train our 
chiefs and company officers to lead in large-scale and complex 
incidents.
    The success of the FEMA homeland security grants is that they 
provide an incentive for local fire chiefs, emergency managers, police 
chiefs, public health officials, and State and Federal officials to 
plan, train, and exercise together. This preplanning and coordination 
prevents confusion and saves lives during an incident.
         concerns with the national preparedness grant program
    In April 2012, Chief Hank Clemmensen, my predecessor as IAFC 
president, testified before this committee. He laid out seven 
principles for an effective homeland security grant program. These 
principles included concepts like sustainment of existing capabilities, 
transparency, and local engagement. Using this criteria, the new FEMA 
proposal continues to have serious problems.
    One of our greatest concerns is that the NPG still continues to 
rely on the Threat and Hazard Identification and Risk Assessment 
(THIRA) to identify risk, threats, and vulnerabilities and to allocate 
funding. Throughout the Nation, local involvement in the State THIRAs 
is sporadic. For example, I have not been involved or consulted in the 
California THIRA. Local officials and first responders best know the 
emergency response capabilities and risks to their communities. THIRAs 
will continue to be flawed without active local involvement.
    In addition, we remain concerned that the NPG program focuses on 
increasing the State administration of the FEMA grants. In many urban 
areas, the preparedness system relies upon a multi-State, multi-
disciplinary approach. By focusing on a State-based system, the NPG 
creates stovepipes where current cooperation exists. In the Washington, 
DC, area, the National Capital Region incorporates the city of 
Washington and the States of Maryland and Virginia. While the proposal 
would create links between the Urban Area Working Groups and the State 
Administrative Agencies, we are concerned that the NPG's State-centric 
approach will build barriers between multi-State regions.
    Additionally, the IAFC is concerned about the capabilities of the 
UASI cities that have been developed over the years. The administration 
has indicated that there will be a process to allocate sustainment 
funding to existing UASIs. However, this process is not described in 
the authorizing legislation that accompanied the fiscal year 2015 
budget request. We are concerned by FEMA's proposal to eliminate the 
existing legislative language authorizing UASI funding without having 
clear language that will replace it.
    The NPG proposal is designed to build and sustain the core 
capabilities defined by the National Preparedness Goal. However, the 
IAFC remains concerned that fire fighting is not specifically listed as 
a core capability in the National Preparedness Goal. Other missions of 
the fire service are covered, including emergency medical response, 
hazardous materials response, and building code enforcement. However, 
terrorists deliberately used fire as a weapon during the 2008 Mumbai 
incident and the 2012 incident in Benghazi to cut access and draw media 
attention. In addition, the Al-Qaeda magazine, Inspire, urged its 
followers to use wildfire as a weapon here in the United States to 
cause damage and spread fear. Fire fighting will remain a core 
capability in an effective National response system and must be 
recognized as such.
    The IAFC also is concerned by the elimination of the 25 percent 
set-aside for the Law Enforcement Terrorism Prevention Program. 
Currently, FEMA's homeland security grants support intelligence fusion 
centers and information sharing between Federal, State, and local 
officials. Federal funding acts as an incentive for local law 
enforcement to share information and coordinate activities with local 
fire and EMS departments. In addition, this Federal funding 
incentivizes law enforcement agencies to adopt the National Incident 
Management System and engage in multidisciplinary planning and 
exercises.
    One problem with the proposed authorizing language is that it would 
expand the definition of ``local unit of government'' to include 
nongovernmental organizations and potentially for-profit entities. FEMA 
was forced to expand this definition, as it consolidated grants for 
port authorities, nonprofit organizations, and transit agencies into 
the NPG. However, we think that it creates a dangerous precedent to 
redefine local governments to include nongovernmental and for-profit 
organizations.
    The IAFC also is concerned by FEMA's proposal to cut funding for 
the homeland security grant programs. For fiscal year 2014, Congress 
appropriated $1.266 billion for the homeland security grants. FEMA 
proposes $1.043 billion for fiscal year 2015. This would result in an 
approximately 18 percent reduction to homeland security grant funds. In 
light of the continued terrorist threat to the United States, the IAFC 
recommends that Congress continue to sustain the fiscal year 2014 
funding levels for the FEMA's homeland security preparedness grants.
              ideas for improvement of the existing grants
    Taxpayer funds should be used effectively to improve National 
emergency preparedness. There are administrative changes to the current 
grants that FEMA can implement. For example, as Chief James Schwartz, 
the chair of the IAFC's Terrorism and Homeland Security Committee, 
testified last year, FEMA could develop a system for grant recipients 
to share information about the successful uses of grant funds to 
develop capabilities. Then, instead of having to reinvent the wheel 
across the Nation, local jurisdictions could learn from each other's 
projects to allocate their resources more effectively.
    Also, it is important that local stakeholders be treated as equal 
partners in determining threats, risks, vulnerabilities, and 
capabilities. From a fire and emergency service perspective, all of the 
resources--both equipment and personnel--are owned by local 
jurisdictions. Local fire chiefs must be involved in the THIRA process. 
The IAFC welcomes language in the latest THIRA Guide (Comprehensive 
Preparedness Guide 201), which urges State emergency managers to use a 
whole-communities approach to complete their THIRAs by consulting local 
fire, EMS, law enforcement, and public health departments. 
Unfortunately, there still is a mixed record on local involvement in 
the THIRAs.
                               conclusion
    On behalf of the leadership of America's fire and EMS departments, 
I would like to thank the subcommittee for the opportunity to testify 
at today's hearing. While we think it is good that FEMA has released 
more information about this year's NPG proposal, it continues to have 
many of the problems that we have identified in the past. As Congress 
considers the issue of grant reform, we encourage you to consider 
directing FEMA to work with all State and local stakeholders to develop 
a detailed plan. I look forward to answering any questions you may 
have.

    Mrs. Brooks. Thank you, Chief Metcalf.
    Chairwoman now recognizes Mr. Parsons for 5 minutes.

STATEMENT OF RANDY PARSONS, DIRECTOR OF SECURITY, PORT OF LONG 
  BEACH, TESTIFYING ON BEHALF OF AMERICAN ASSOCIATION OF PORT 
                          AUTHORITIES

    Mr. Parsons. Good morning. Thank you for inviting me as a 
witness on behalf of the American Association of Port 
Authorities, an alliance of the leading public ports in the 
Western Hemisphere.
    I am Randy Parsons, director of security for the Port of 
Long Beach, where I oversee the security division for the 
Nation's second-busiest container seaport. I also serve as a 
co-chair of AAPA's Port Security Caucus, which crafts 
recommendations on U.S. Government policy related to security 
for the association's leadership.
    Today I am here to discuss thoughts on the administration's 
National Preparedness Grant Program proposal. AAPA and its 
staff members have been engaged in discussions with the 
administration and FEMA on this proposal for the last few years 
and we are interested in further discussions to properly 
address our concerns.
    Our fundamental philosophical difference with the 
administration is over who should be in control of the Port 
Security Grant Program. In the proposal the administration 
calls for funding to be determined at the State level, 
consolidated with other homeland security grants. We strongly 
believe the Port Security Grant Program should be maintained at 
the Federal level.
    In the past, the Port Security Grant Program has 
distributed funds through a fiduciary agent that then funded 
sub-grantee projects. FEMA abandoned this model and moved to 
direct grants in order to speed up the draw-down of funds and 
get projects done more quickly. This change was also made in 
response to extreme displeasure from Congress over the slow 
spending of funds. Why would we return to a discarded model?
    Since 9/11 a key component of our Nation's effort to harden 
the security of seaports has been the Port Security Grant 
Program, currently managed by FEMA. These funds have helped 
port facilities and regional agency partners to procure 
vessels, vehicles; install detection systems such as cameras 
and sensors; provide equipment, operations, and sustainment for 
the systems recently installed.
    At the Port of Long Beach we spent more than $280 million 
to upgrade our security infrastructure, over $98 million of 
which was provided by the Port Security Grant Program. The 
Maritime Transportation Security Act and the subsequent SAFE 
Port Act also carefully laid out a system to identify risks and 
fund projects accordingly, with both National and local input. 
FEMA, the U.S. Coast Guard, and the National intelligence 
community determined which ports should be in each risk 
category.
    State officials are invited to sit on these local area 
committees and often do, but the responsibility to determine 
who gets a grant resides with the Secretary of the Department 
of Homeland Security. This is where we believe the authority 
should continue to reside--at a Federal level, where the expert 
knowledge of the risk environment and mitigation strategies 
exists.
    Seaports are international borders. Seaports must comply 
with numerous Federal regulations, including those instituted 
by TSA, CBP, the Department of Agriculture, and the U.S. Coast 
Guard. Often States are not aware of these requirements and may 
not have the expertise to determine maritime risks and 
mitigation strategies to these international seaport borders.
    If ports are lumped into the larger homeland security 
equation, efforts to date will be marginalized and the focus on 
ports will be lost. The separation of the grant funding served 
to highlight the need to focus on the component of the Nation's 
critical infrastructure and international border that was 
largely ignored prior to 
9/11.
    Additionally, the proposal calls for decreases to overall 
funding. Currently, the Port Security Grants are funded at 25 
percent of their authorized level of $400 million. We would 
hate to see a continued degradation of these efforts as a 
result of additional grant funding restrictions.
    We ask that as you assess this proposal, the Port Security 
Grant Program be excluded from this consolidation and merger.
    Due to limited time, I want to highlight additional 
recommended program improvements that we strongly urge the 
committee to consider, that include: Keep the funding separate 
at the Federal level, similar to Firefighter Assistance Grants; 
restore the port security funding to a healthier level--$100 
million barely allows us to sustain what we have; the return of 
the term of grant performance to a 3-year performance period 
with extensions allowable to a maximum of 5 years--the current 
grant term of 2 years is unworkable; provide a uniform cost-
share waiver of past grant funds and consider waiving the cost-
share overall.
    Thank you, Chairman.
    [The prepared statement of Mr. Parsons follows:]
                  Prepared Statement of Randy Parsons
                             April 29, 2014
    Thank you for inviting me as a witness on behalf of the American 
Association of Port Authorities (AAPA). AAPA is an alliance of the 
leading public ports in the Western Hemisphere and our testimony today 
reflects the views of our U.S. members. I am Randy Parsons, director of 
security for the Port of Long Beach, in California, where I head up the 
Security Division for the Nation's second-busiest seaport. I also serve 
as the co-chair of the AAPA's Port Security Caucus which crafts 
recommendations on U.S. Government policy related to security for the 
Association's leadership.
    Today, we are here to discuss AAPA's thoughts on the 
administration's National Preparedness Grant Program proposal. As you 
well know, this proposal was made several years ago, but just recently 
the administration sent over an authorization bill to outline 
specifically how the various programs would be changed and outline in 
more detail how the new program would work. AAPA has been engaged in 
discussions with FEMA over the last few years and our concerns still 
have not been properly addressed in the proposal.
    AAPA has a fundamental philosophical difference with the 
administration over who should be in control of the Port Security Grant 
Program. The administration in its National Preparedness Grant Program 
calls for funding for the program to be determined at the State level, 
along with other homeland security grants. AAPA strongly believes that 
the Port Security Grant Program should be maintained at the Federal 
level. In short, moving Port Security Grants to the State level is a 
bad idea and is likely to result in a significant decrease in security 
funds going to seaports, and ultimately putting our Nation at greater 
risk.
    In the decade since 9/11, a key component of our Nation's effort to 
harden the security of seaports has been the Port Security Grant 
Program, currently managed by FEMA. Port Security Grant funds have 
helped port facilities and port areas to strengthen facility security 
and work in partnership with other agencies to enhance the security of 
the region. Port Security Grant funding has been used to procure 
equipment such as vessels and vehicles, install detection systems such 
as cameras and sensors, and provide equipment maintenance for the 
systems recently installed.
    The Maritime Transportation Security Act, passed soon after 9/11, 
and the subsequent SAFE Port Act carefully laid out a system to 
identify risks and fund projects accordingly, with both National and 
local input. FEMA, with input from the U.S. Coast Guard and National 
intelligence information determines which ports should be in each risk 
category and the local area committees develop plans to decrease these 
risks. State officials are invited to sit on these local area 
committees, but the responsibility to determine who gets a grant 
resides with the Secretary of the Department of Homeland Security, 
based on evaluation from the local and National U.S. Coast Guard 
offices, FEMA, and other Federal partners. This is where AAPA believes 
the authority to determine grants should continue to reside--at the 
Federal level, where the expertise exists.
    In order to continue to be effective, the grant process must evolve 
in conjunction with port needs and vulnerabilities. Working with DHS, 
efforts have been made to keep pace with this evolution. We fear that 
if ports are ``lumped'' into the larger Homeland Security equation, 
efforts to date will be marginalized and the focus on ports will be 
lost. The separation of Port Security Grant funding served to highlight 
the need to focus on a component of the Nation's critical 
infrastructure and international border that was largely ignored prior 
to the tragic events on 9/11. We have a significant fear that this 
focus will be lost if the Port Security Grant Program does not remain 
separate and fails to continue to evolve to meet emerging security 
needs.
    Seaports are international borders and must comply with numerous 
Federal regulations including those instituted by TSA, Customs and 
Border Protection, the Department of Agriculture, and the U.S. Coast 
Guard. The Port Security Grants are often used to help facilities 
address these Federal mandates. Often States are not even aware of 
these requirements and do not have the expertise to determine risks to 
these international seaport borders. AAPA strongly believes that the 
responsibility for the grants should stay at the Federal level, since 
border security (land, air, and maritime) is a National, not a State, 
responsibility.
    There are other concerns about this proposal. It expands the grants 
to all hazards, cuts overall funding, and is likely to return to a 
slower draw-down in funds. With the expansion of the grants to all 
hazards, it is likely that far more projects will be eligible. We are 
concerned that National disasters preparation and response would be a 
high priority for certain States, resulting in even less for port 
security. Additionally, the proposal calls for a significant decrease 
in funding overall. Currently, Port Security Grants are only funded at 
25 percent of the authorized level of $400 million. Merging the program 
into other homeland security grants is likely to result in even more of 
a decrease.
    AAPA has fought hard to ensure the program makes all seaports that 
serve as international borders eligible for the program. FEMA has 
provided grants to seaports at all levels in order to ensure that we do 
not have a soft underbelly of underprotected ports. We must not allow 
for a weak spot that terrorists can capitalize on. There is no mandate 
in the administration's proposal requiring States even to fund port 
security and it is likely to result in some ports not getting funding 
for needed projects.
    The National Preparedness Grant Program proposal calls for all 
funds to be distributed through the States, a model that resulted in 
significant slow-down in fund use in the past. At one point the Port 
Security Grant Program distributed the funds through a fiduciary agent 
that then funded subgrantee projects. But, FEMA recently abandoned this 
model and moved to direct grants in order to speed up the drawdown of 
funds and get projects done more quickly. This change was made in 
response to extreme displeasure by Congress over the slow spending of 
funds. So, why return to this broken model?
    Ports are already struggling to maintain their capabilities, much 
less meet new and emerging concerns in such areas as infrastructure 
protection, continuity of services such as power and water, protection 
of our information technology capabilities, and response to the ever-
growing cyber threat. In a constantly-changing threat environment, any 
further decrease in funding will make it difficult to maintain current 
capabilities. At many ports, Port Security Grant funding has been a 
critical component in their efforts to build a resilient port, and we 
would hate to see a degradation of these efforts as a result of grant 
funding reductions. Additionally, the proposed legislation highlights 
the importance of core capabilities and the need to share capabilities 
and drive funding to these capabilities. When States developed core 
capabilities, however, they did not incorporate port needs and it is 
unclear how the needs would be addressed in the future. It is, 
therefore, unlikely that port needs would be funded properly.
    While there might be good reason to merge other homeland security 
grants, AAPA strongly believes that the Port Security Grant Program 
should be maintained at the Federal level. That is where the expertise 
resides and it corresponds to the Federal responsibility to control and 
protect our international borders. Should you move this legislation, we 
urge you to exclude the Port Security Grant Program from this 
consolidation and merger.
    Due to limited time, I have not included some needed improvements 
to the program but include them in the recommendations below. In 
conclusion, we strongly urge the committee to:
    1. Keep the funding separate and at the Federal level, similar to 
        Firefighter Assistance Grants;
    2. Restore port security funding to a healthier level; $100 million 
        barely allows us to maintain what we have;
    3. Return the term of grant performance to 3 years with an 
        extension allowed to 5. The current grant term of 2 years is 
        unworkable;
    4. Provide a uniform cost-share waiver of past grant funds; and 
        consider waiving the cost-share overall.

    Mrs. Brooks. Thank you very much.
    We will now begin the questioning, and I will recognize 
myself for 5 minutes.
    This actually is for each of you. FEMA has shared with us 
in their response, which we received Friday, a fairly lengthy 
list indicating that they had conducted significant stakeholder 
outreach in the development of this proposal, and I am curious 
whether or not--beginning in 2013 through 2014--and I am 
curious whether or not you personally or your organization that 
you represent had an opportunity to share your thoughts on the 
consolidation proposal with FEMA, and if you were consulted, 
whether or not any of your recommendations were incorporated.
    Ms. Eide, I don't know if you would like to begin?
    Ms. Eide. Thank you, Madam Chairwoman.
    FEMA did outreach to both the Governors Homeland Security 
Advisory Council and to the National Emergency Management 
Agency, and I was personally involved in several of these, both 
face-to-face and webinars, teleconferences. We continue to 
evaluate the NPGP proposal.
    My colleagues across the State have been very vocal about 
some changes to the management administrative costs of--from 
current level of 5 percent to 3 percent. FEMA is taking that 
back and going to be looking at the issue of that decrease in 
the M&A costs.
    Some of the other things that we have talked about--excuse 
me--has been the governance structure, and I think that the 
NPGP proposal can only be successful with a good governance 
structure at the State level, which is inclusive of the current 
grant program representatives. The FOA has included the members 
that should be on a senior advisory committee at the State and 
we continue to work with FEMA on some of those issues that we 
have had concerns with.
    Thank you.
    Mrs. Brooks. Don't know, Chief Metcalf, as president of 
your organization, were you involved personally and were any of 
the recommendations you made included?
    Chief Metcalf. Thank you.
    I have been involved in a number of those meetings 
personally, and our staff was also engaged in a number of 
meetings with FEMA. I think it is fair to say that most of 
those interactions were one-way, and in our attempts to better 
understand the proposal, in many cases we were seeking 
additional detail, additional clarification of what was going 
to be contained in the proposal, and as you are aware, we have 
only just received some of that additional clarification here 
very recently.
    In the absence of not really understanding the details of 
the proposal we were hard-pressed to provide specific 
suggestions, so we have not seen any of our concerns addressed 
in the proposals--the iterations of the proposal to date.
    Mrs. Brooks. So is it fair to say the International 
Association of Fire Chiefs is continuing to make suggestions to 
FEMA or is beginning to?
    Chief Metcalf. We are glad to take every opportunity to 
provide suggestions, yes.
    Mrs. Brooks. Thank you.
    Mayor Fulop, wondered whether or not the mayors have been 
involved, or if you have been?
    Mr. Fulop. I can't speak on behalf of all mayors. My 
administration transitioned in in 2013. In the last year, to 
the best of my knowledge, the answer has been ``no'' to your 
question as far as outreach.
    Mrs. Brooks. Okay. Thank you.
    Mr. Riggs.
    Mr. Riggs. I have not personally met but we have a chief 
that is over homeland security that meets with them quite 
regularly, brought up a lot of our concerns regarding local 
issues, didn't see a lot of movement there. But he has been in 
contact with them.
    Mrs. Brooks. Okay. Thank you.
    Mr. Parsons, on behalf of ports.
    Mr. Parsons. We have received numerous e-mails from AAPA 
that shows they are engaged at the National level. At the local 
level we did receive a notice of the proposal that, as the 
chief said, it was a fairly generic description. We 
participated in a conference call with FEMA, and additionally, 
we have reached out as a local port. I have made two trips back 
to speak with our representatives personally and the FEMA 
representatives that service our area.
    We have not had any movement on the proposal positions that 
we have seen here.
    One comment I would like to make is the FEMA staff that we 
have interacted with with grant applications, guidance, 
direction, and extensions have been extremely helpful and 
educational in providing guidance. In this arena it has taken 
on a generic level. We haven't received information that we 
feel we are capable of making detailed, informed decisions 
other than some of the issues we have talked about here this 
morning.
    Mrs. Brooks. Well, I am pleased to hear that the staff has 
been so helpful if you don't understand what you are required 
to submit in those grant applications, so that is good.
    My time is up.
    The Chairwoman now recognizes the gentleman from New 
Jersey, Mr. Payne, for 5 minutes.
    Mr. Payne. Thank you, Madam Chairwoman.
    Mayor Fulop, in your testimony you expressed concern that 
the proposed National Preparedness Grant would consolidate 
decision-making for homeland security investments at the State 
level. Now, I have raised similar concerns, particularly given, 
you know, how certain Federal Sandy recovery funds were 
administered by the State.
    Can you speak in more detail about your concerns related to 
how the homeland security grant funds would be invested if 
investment decisions were ultimately made by the State?
    Mr. Fulop. Well, to expand on that, I think that it has 
been well documented in most of the New Jersey newspapers and 
publications about concerns over how these Sandy dollars have 
been administered and to what municipalities and the timeliness 
of that administration. The concern that we expressed here is 
when we are dealing with something as critical as 
infrastructure and homeland security, that local municipalities 
often know best and that flexibility and speed is critical, and 
so we expressed concerns via the proposal here that that would 
have an impediment on that process. I think that Sandy is a 
good example of that.
    Mr. Payne. You know, also, following up on that, why is it 
important that local governments and first responders continue 
to have a strong voice in how those security dollars are 
invested?
    Mr. Fulop. Yes. I would just reiterate that we collectively 
are closest to the needs of the constituents and the 
infrastructure needs. That is not to say that the States are 
not aware, but I think that the speed and access at the local 
level is critical.
    Mr. Payne. Thank you. You know, as you have mentioned, you 
know, we have had a very interesting situation in New Jersey in 
reference to how these dollars have been allocated so, you 
know, we have a clear example of what the concerns are if it 
comes down from the State as opposed to the local levels. Our 
UASI grants in our area regionally have been very successful, 
and the municipalities of Newark and Jersey City have worked 
well in that area. So thank you for those answers.
    Along those lines, Ms. Eide, how do you respond to those 
who share concerns I have about the States being the final 
arbiter of the homeland security grant investments?
    Ms. Eide. Congressman Payne, I certainly understand the 
concern of our local units of government and I would, again, 
get back to the governance structure that is set up at the 
State level, and the inclusion of current grant program 
representatives in addition to the different disciplines that 
are part of any senior advisory committee. In Minnesota we have 
a senior advisory committee that includes members from our UASI 
area, it includes members from our area maritime security 
committees, it includes members from our transit working 
groups, and it includes local emergency management, fire, law 
enforcement.
    We, as a committee, review the grant applications from 
local governments. We actually require THIRA at the local 
levels. We also have six homeland security and emergency 
management regions within our State that have a regional THIRA 
and then we roll it up into a State-wide THIRA.
    We look at those. We look at the priorities of our 
communities, both urban and rural, and we make our funding 
decisions as a collective group. I think through the 
flexibility of a program such as the NPGP, a governance 
structure really is the key to making sure that we own our 
preparedness programs from local level up to the State.
    Mr. Payne. So you feel to this point that the program has 
not worked effectively based on how it is structured now?
    Ms. Eide. That is correct. I think there is the opportunity 
for disparate organizations to be able to work within their 
silos in the way that it is now. If we were to have a 
consolidated grant program with this flexibility built into it 
based on local THIRAs, based on a good governance structure, 
that it will eliminate a lot of the stovepipes that we have 
been seeing.
    Mr. Payne. Okay.
    Very quickly, Mr. Riggs, you know, I believe in your 
testimony you mentioned or intimated that you had concerns of 
potential relationships between local and States have sometimes 
not necessarily being on the same page or used in a manner 
which would not be conducive to affording your municipality its 
allocation properly.
    Mr. Riggs. Yes, sir. That is correct.
    I will say that every State is different in many ways and 
responsibilities for initial emergencies are handled 
differently in different States. I have worked in three 
different States now. I can tell you in Indianapolis we do work 
closely with the State with our fusion center, but at the end 
of the day, my interpretation of homeland security grants and 
UASI and all these different grants we talk about were for a 
major metropolitan area that had the most critical 
infrastructure needs and the most difficult financial needs 
that could actually hurt our economy.
    Generally, when we see so much money going to the State and 
going to rural areas--which we are not saying there is not a 
threat there--but when we have 1.7 million people in our 
geographical area and we respond outside of our city we think 
that it makes a lot more sense to target those major cities 
that have seen the brunt of terrorism and be prepared not just 
for traditional measures but also for nontraditionals like 
cyber crime.
    Mr. Payne. Okay.
    Thank you, Madam Chairwoman. I yield back.
    Mrs. Brooks. Thank you.
    The Chairwoman now will recognize other Members of the 
subcommittee for questions they may wish to ask the witnesses. 
In accordance with committee rules and practice I plan to 
recognize Members who were present at the start of the hearing 
by seniority in the subcommittee, and those coming in later 
will be recognized in the order of their arrival.
    At this time I will recognize the gentleman from 
Pennsylvania, Mr. Perry, for 5 minutes.
    Mr. Perry. Thank you, Madam Chairwoman.
    Ladies and gentlemen, thanks for your attendance and the 
information today. I think maybe I will start out with Ms. 
Eide.
    You know, we have a limited amount of resources, right? 
Everybody does. So, you know, I am looking--I listened to your 
testimony and I can certainly understand each one of you has 
the priority as you see it, as you should. You represent, 
whether it is the port, whether it is your city, that is who 
you represent in this regard and that is appropriate.
    At the same time, somebody has to be the honest broker, so 
to speak, that looks at the entire picture and prioritizes. 
This is not about taking taxpayer money and just making sure 
everybody gets their portion of it or a portion of it.
    We have a mission here and a goal, which is to protect the 
country in that regard and to secure it, and so I would imagine 
there are certain threats that are higher at certain locations 
and certain threats that don't happen at certain locations, as 
best as we can tell. So we are trying to figure a way to most 
efficiently mete that out--get that funding out and get those 
projects taken care of and move on to the next one.
    So with that having been said, is there any way to know how 
individual grant recipients coordinate with--are coordinated 
with other ones to make sure that duplication doesn't occur? Is 
there any way currently to know that right now?
    Ms. Eide. Congressman Perry, I--as a built-in process I 
believe there is less of a chance of duplication in a 
consolidated fashion. A very small example is we have a fairly 
robust area maritime security committee within the cities of 
Minneapolis and St. Paul for the port there. Because the grant 
applications did not go through the State either as a fiduciary 
agent or as a decision maker, it went to the Federal 
Government. None of the communities in our AMSC were given port 
grants. It went down river into communities--two communities 
that were not part of our port.
    So not only duplication, but what we see is the lesser 
priorities----
    Mr. Perry. It would be misapplication at that point.
    Ms. Eide [continuing]. Would be--that is the way that we 
may see something like that. They have jurisdiction on the 
Mississippi River in certain areas; they obviously identified a 
need that they had. But it was not part of the area maritime 
security committee. So those are the types of things that we 
see by not having that close State coordination.
    We have been working through our homeland security regions 
within the State, and so we have a good handle on how a lot of 
our locals are communicating with our border and our Operation 
Stonegarden grants. We have a good handle on that because those 
are a lot of--coordinated through our emergency management 
committees and organizations.
    Mr. Perry. I mean, I think that consolidation is the right 
way to go, but I understand that there will be winners and 
losers in this thing. I mean, again, we have scarce resources 
and we must prioritize, and nobody likes to hear that but it--I 
think it, unfortunately, it is the fact of the matter. It is 
the reality.
    While, listen, Mr. Parsons may be right. I mean, Long Beach 
is a--it is a huge concern. Mayor, right outside of Newark with 
New York City; maybe most of the resources should go there. 
Maybe they really should, and that is going to disaffect some 
other folks, wherever they are.
    But I think a close collaboration with the people on the 
ground, and each of your concerns is important, and then that 
all has to be--come through one central clearinghouse and 
somebody has to be a decision-maker and say, ``This is the 
threat, this is the risk, and this is the highest one and here 
is where I need you to put your resources. And when we are done 
with this we will move on to these other things.''
    One final question while I have a little bit of time left. 
A number of local organizations expressed concern about the 
definition of ``local unit of government,'' and that it would 
greatly expand the eligibility for grant programs.
    Personally, I see that as a good thing--I mean, expand 
eligibility based on the fact that we want all the 
information--but if somebody on the panel wants to answer the 
question why we should be concerned about that, maybe that 
would help us see the picture more clearly.
    Anybody? Anybody feel comfortable, interested?
    Mr. Mayor.
    Mr. Fulop. Yes. I would just go back to the fact that--
recognizing there are scarce resources and the overlapping. I 
can just speak anecdotally from the Jersey City standpoint, 
with Newark and some of our regional partners, that there 
hasn't been overlap, that the Government applicants have been 
working, that this has been a process that has worked 
effectively since 2002.
    Recognizing that it has been effective and it is done and 
served its purpose, I would just go back to the fact that there 
isn't a reason to do a drastic changeover here, and that is 
something that is scary from our standpoint, whether it is 
increased number of applicants, whether it is an individual 
person having more flexibility or discretion on where the 
dollars go and taking it away from the people who know best at 
the ground level. I think that a drastic change like what is 
proposed here can have a huge impact on a program that has 
worked effectively since 2002.
    Mr. Perry. I thank you, Madam Chairwoman.
    Just one closing thought. It is great that it has worked 
effectively, Mr. Mayor, for your town, for your concerns, but I 
think the broader sense is that there have been some 
shortcomings and there have been some misapplications and maybe 
fraud, maybe some abuse, and we are the--you know, we are the 
stewards, as you are, of the taxpayers' money and we owe it--
that is our duty to make sure that we are doing the best we 
can. I might not agree with everything in this but I think that 
it is worth a look.
    I thank you, Madam Chairwoman. I yield.
    Mrs. Brooks. Thank you.
    The Chairwoman now recognizes Ms. Clarke from the State of 
New York for 5 minutes.
    Ms. Clarke. I thank you very much, Madam Chairwoman, 
Ranking Member. I would like to thank you for having this 
hearing and I would like to thank our panelists for sharing 
their expertise with us this morning.
    Before I start my questioning I would like to submit a 
letter from the mayor of the city of New York, Mayor Bill de 
Blasio, who knows first-hand the devastation of terrorist 
attacks. Our city has been hit twice and has thwarted multiple 
attempts and is still recovering from Superstorm Sandy, where 
millions were impacted.
    So I think that we can help provide some insights and just 
reminding folks that when we were hit in 9/11 it was the local 
first responders that had the obligation. If we had to wait for 
the State of New York to respond we would still be at the pile 
today.
    So I just wanted to put that on the record.
    [The information follows:]
           Letter From Mayor Bill de Blasio, City of New York
                                    April 28, 2014.
The Honorable Michael McCaul,
Chairman, Committee on Homeland Security, H2-176 Ford House Office 
        Building, Washington, DC 20515.
The Honorable Bennie Thompson,
Ranking Member, Committee on Homeland Security, H2-117 Ford House 
        Office Building, Washington, DC 20515.
    Dear Chairman McCaul and Ranking Member Thompson: I write to 
express my concerns with the proposal to consolidate the current suite 
of homeland security grant programs into a single state-administered 
block and competitive grant program, in which funding decisions are 
based on state and multi-state threat assessments and population-driven 
formulas. As federal budgets and resources grow tighter, I believe we 
can maximize the nation's investment in homeland security by targeting 
those areas most at risk. This is what the 9/11 Act set out to do.
    Since the events of September 11, 2001, the Federal government has 
made significant investments in our nation's homeland security to keep 
our communities and citizens safe. In New York City, we have utilized 
Homeland Security Grant Program funds to build many new capabilities to 
prevent, prepare for, mitigate, respond to, and recover from acts of 
terrorism and catastrophic events.
    Crucial to these efforts has been the Urban Areas Security 
Initiative (UASI) grant program--a stand-alone high-threat-based 
funding source--that has funded many new regional preparedness 
capabilities and strengthened regional collaborations and partnerships 
among state and local entities. DHS's most recent proposal to 
consolidate these and other grant programs into a uniform competitive 
grant program threatens the successful efforts we have made in guarding 
against threats.
    As Mayor of the City of New York, I take national security concerns 
very seriously. In our city, where more than 8 million people live, we 
are protecting not only the nation's largest city, but also its 
financial, communications, information, and cultural capital. And we 
are doing this in coordination with the New York City Urban Area 
Working Group that includes members from Nassau County, Suffolk County, 
Westchester County, the City of Yonkers, the Port Authority of New York 
and New Jersey, the Metropolitan Transit Authority, along with 
representatives from New York State, DHS, and FEMA. Together we 
coordinate regional planning, equipment use, joint training, and 
development of response protocols.
    The current framework for UASI and other programs works well and 
reflects the principles of the ``Threat and Hazard Identification and 
Risk Assessment.'' The structure of UASI requires that urban areas work 
closely with other jurisdictions to develop capabilities that serve 
multiple purposes and that can be quickly deployed; this information is 
used to make well-informed, cost-efficient, and risk-based decisions 
about resources.
    UASI, Securing the Cities, Port, and Transportation grants should 
continue to be funded as stand-alone programs allocated based on risk. 
Making cities, states, and sub-units of government compete against one 
another for the same dollars does a disservice to the collaborative 
approaches developed and refined over the years. It also creates the 
potential for programmatic gaps, where areas previously funded are now 
left with insufficient resources. I thank Congress for their foresight 
on this issue in understanding that a range of program options offers 
flexibility and the best defense against new and emerging threats.
    I urge you to continue to preserve UASI and the array of homeland 
security grant programs in their current form. Public safety and 
homeland security are top priorities for municipalities, and the need 
to prepare and train for emergencies, whether a man-made or natural 
disaster, is a necessity for every jurisdiction. The proposed 
consolidation threatens to upend much of the good work cities, states, 
and federal partners have accomplished.
            Sincerely,
                                            Bill de Blasio,
                                                             Mayor.

    Mrs. Brooks. Without objection, it is ordered.
    Ms. Clarke. Thank you very much, Madam Chairwoman.
    My first question is to Mayor Fulop and Director Riggs. As 
you are aware, the current 25 percent set-aside for the Law 
Enforcement Terrorism Prevention Act would be eliminated under 
NPGP. What law enforcement terrorism prevention capabilities 
have been enhanced in New Jersey and Indianapolis as a result 
of this program, and would such programs have the resources to 
be implemented without the 25 percent set-aside?
    Mr. Fulop. I can't speak to whether it would have the 
opportunity to continue to be implemented. What I can speak to 
is that we have had critical infrastructure supplied from these 
grants, whether it is the ability to work with regional 
partners in the Hudson as it relates to water vessels that have 
been provided by the Federal Government to provide homeland 
security that Jersey City and some of the other partners in 
Hudson are responsible for, or whether it is equipment for--
basic equipment for our fire department or our police 
department, both of which have been supplied via these 13 
different Federal grant programs.
    I would go back to the fact that I share, as the mayor of 
Jersey City, the same concerns you do, whether it is the 
terrorism concerns via my proximity to New York City or it is 
Superstorm Sandy. We have leveraged all of these programs to 
the maximum, and it has worked for us.
    Mr. Riggs. I would just add, I think this is critically 
important. It could significantly erode our capabilities. Just 
recently we held a table-top exercise involving State, Federal, 
local officials, very good, about coordinating activity.
    What we are trying to do in Indianapolis is really be ahead 
of other cities to really start thinking about, what does 
terrorism look like in the future? In a recent conference I 
attended here with the Police Executive Research Forum we 
talked about that very thing with Secret Service, Homeland 
Security. We think about traditional terrorist attack, our fear 
and what we are trying to prepare for and what we have used 
this money to do is prepare for a traditional-type terrorist 
attack or some type of cyber attack or a simultaneous attack, 
which is kind-of the worst scenario.
    I know that New York City has done a great deal along these 
lines. We want to learn from your city as well, and start 
enacting some of that in Indianapolis. The 25 percent helps us 
do that.
    Ms. Clarke. So the question for me is maintenance of 
effort. So these funds get cut, do you have--or does your State 
then pick up where these cuts are eliminated--or these funds 
are eliminated?
    Mr. Fulop. I can speak to the UASI grants as an example 
of--that grant provided the city of Jersey City a water vessel, 
which I mentioned earlier, which is state-of-the-art, has the 
ability to detect biological, nuclear, any type of weapons. It 
is responsible for the entire region and we partner with all of 
the municipalities along the Hudson on our side of the river.
    It is within our fire department is responsible for it. It 
was provided by the Federal Government. Programs like that 
would be a concern if we had to go through the entire State 
process and another layer of government. It was something that 
worked very, very well in the years following 9/11 and is 
critical.
    Mr. Riggs. When we lost UASI funding in 2011 and 2013 we 
did not see any assistance. As a result, we don't believe we 
would get assistance if we lost this.
    The State has some very difficult decisions to make, as 
well. What we have done to try to make sure this does not 
become an issue is we started a 501(c)(3), a Department of 
Public Safety Foundation, modeled after many police foundation 
and fire foundations. We are using that money that is received 
for training so if we lose Federal funds or we lose State 
funding, we will try to use that funding to continue the 
training; it is that important to us.
    Ms. Clarke. I thank you for your testimony once again.
    I yield back, Madam Chairwoman.
    Mrs. Brooks. Thank you.
    Chairwoman now recognizes Mr. Higgins, from New York for 5 
minutes.
    Mr. Higgins. Thank you very much.
    You know, the administration has proposed a grant 
consolidation three times now. I suppose the distinction with 
this proposal is that it comes with a legislative resolution to 
advance the same.
    You know, I think when you look at the origins of the Urban 
Area Security Initiative, it was established for a purpose. It 
recognized that mayors, that police chiefs, that fire chiefs 
were at a place where they could make a determination, so long 
as they were coordinated well, as to the highest and best use 
relative to the program's objectives.
    I represent Buffalo. Buffalo was lobbed off the list 
because of budget constraints.
    Now, you know, Buffalo didn't ask to be put on the list. 
You know, we met a criteria that we didn't want to meet, and 
since the establishment of the program the Buffalo area, much, 
probably, like Jersey City and others, have tried to use these 
program resources in the most responsible way toward the goal 
of mitigating potential terrorist attacks.
    When you look at this proposal you are basically taking 18 
programs, throwing it to the States, which creates another 
layer of bureaucracy, which I think moves the program further 
away from the areas that it was supposed to benefit in the 
first place. Now you are left with folks who have been engaged 
in this process for a half a decade. In many cases--in Buffalo 
they are still meeting even though they don't get funding under 
the program because they realize that based on their experience 
when there was program funding, that it is better for the law 
enforcement agencies and the first responders to coordinate.
    So, you know, I don't think this is a solution; I think 
this is a solution looking for a problem. I think the real 
problem is getting funding back to the urban areas that are 
vulnerable because of a formula established by the Department 
of Homeland Security that made them vulnerable.
    You know, not once, not once, not once did the Department 
of Homeland Security say that, ``Well, because you took these 
measures using the UASI program the threat of terrorist attack 
is mitigated.'' I would argue that, you know, that is not the 
case and these areas are more vulnerable.
    In fact, Inspire magazine--it originates out of al-Qaeda in 
the Arabian Peninsula--says in their magazine, last issue, that 
Buffalo is more vulnerable. Why? Because they are no longer 
getting funding.
    Well, let me tell you something: If that is a magazine that 
goes out and encourages homegrown terrorism, that in and of 
itself should urge the Federal Government to restore funding to 
that area that has been identified by a terrorist publication--
the only area in the entire country.
    So, you know, I would ask for your input, based on what I 
just outlined there.
    Particularly the mayor, first I would like to hear from the 
mayor.
    Mr. Fulop. Yes. I think you hit the nail on the head. What 
I said earlier was that the program at the State level, as 
proposed today, creates a culture of competition between 
municipalities and cities as opposed to cooperation, and that 
is a huge difference that should not get lost here.
    I would say that the Congresswoman to your right and people 
in New Jersey share the experience of Sandy last year, when the 
funds were administered via the State and there still are many 
concerns via that process. I think that lessons can be learned 
from that which are very relevant to not repeat here.
    So I think all your comments were exactly spot-on, and I 
think that the flexibility is crucial at the municipal level.
    Mr. Higgins. We should be listening to the mayor.
    Thank you.
    I yield back.
    Mr. Payne. Madam Chairwoman, I ask unanimous consent that 
the gentlelady from Texas, Ms. Jackson Lee, be permitted to 
participate in today's hearing.
    Mrs. Brooks. Without objection, so ordered.
    Would the gentlelady from Texas, Ms. Jackson Lee, like 5 
minutes?
    Ms. Jackson Lee. Let me thank the Chairwoman and the 
Ranking Member for being courteous on my somewhat frequent 
visits. You have a very important committee, and as you well 
know, we are now in the backdrop of seeing what you as local 
officials go through looking at the landscape from Arkansas 
through Mississippi, Tennessee. I know that my State, the State 
of Texas, was on alert, and certainly you know that as I just 
heard the word Hurricane Sandy you know that, coming from the 
Gulf region, it is a normal state of affairs to face 
hurricanes.
    I, too, am interested in this focus of uniting all of the 
grants, and I am also interested in an issue that I probably 
will have long years to overcome, and that is to be able to 
directly give these Federal dollars to local municipalities and 
to directly get the monies where they are most needed. So I 
think I am going to stay focused on that area with one or two 
other questions.
    Mayor, you were the last to speak as I came in and I would 
just like to hear your thought on the State, the Federal--and 
this is by law, so I am not suggesting that this is done 
without authority, but we have structured it where we do 
Federal, State, and then the local government. In times of 
emergencies like a hurricane, a tornado, and the local 
jurisdiction is right in the eye of the storm, if you will, 
share with me the impact of having that process in place as 
opposed to monies directly coming to the local municipality.
    Mr. Fulop. You are asking what would be a difference from 
our standpoint when the money goes to the State as opposed to 
the local municipality?
    Ms. Jackson Lee. Right. If it was to be structured where 
those grants or those dollars would come directly to the local 
municipality.
    Mr. Fulop. The more direct contact, I think generally from 
my standpoint, the better and more efficient the process is. I 
think that as it relates to Superstorm Sandy, that it has been 
well-documented in most of the publications in New Jersey and 
in New York that there have been many, many concerns about the 
timeliness and the process for administration of the dollars 
that came from the Federal Government that were initially 
intended for the local municipalities--what locations they were 
given to, how they were given, and the timeliness of that.
    So this goes back to--look, you all have a very important 
job. There is a lot to fix, obviously, in Washington. This is a 
program that, at least from the local level, I can tell you 
that, granted it can always be improved, but it is something 
that has worked relatively well from our standpoint.
    So just to reiterate what I have said earlier, since 2002 
this has been a process that has worked, from our standpoint, 
and we just ask you not to do something drastic in reforming 
it, like you are proposing over here--or what is proposed over 
here.
    Ms. Jackson Lee. Do you think that the reporting process 
coming from the local government has been accurate and timely 
so that you would--so you raised the question, ``Why 
consolidate?'' Do you think there has been a problem with local 
jurisdiction reporting on how the money has been used promptly 
or giving details in terms of this move toward consolidation?
    Mr. Fulop. I can't speak for every municipality. I think 
that Jersey City tries to be as timely as possible with all of 
our paperwork. We are fortunate that we are large enough that 
we have the resources for that. Going back to what the 
Congressman on your right mentioned is that many of the areas 
that these are targeted at, these grants, are higher profile 
areas across this country and most of those areas fortunately 
would have the resources to report back to you in a timely 
manner, so I don't really see it as a concern because they are 
mostly larger urban areas.
    Ms. Jackson Lee. But you do--well, let me not put words in 
your mouth. The consolidation, would that, in your mind, create 
a breach or a break in the flow of dollars in a timely manner 
for the emergency?
    Mr. Fulop. I think it could potentially create a break.
    Ms. Eide. Representative, may I also answer that question?
    Ms. Jackson Lee. Yes, you may.
    Ms. Eide. The Governor has unique authority in every State. 
They have unique authority in things like activating the 
National Guard and through their states of emergency. As we 
have seen this week with the devastating tornadoes, there has 
to be some decisions that are made at a higher level as to the 
priorities. I think when you consolidate the grant programs you 
are also looking at things from a larger picture and the 
perspective of your State-wide and the Nation-wide protection 
and security.
    Obviously the urban areas have some very unique issues, and 
I think through the cooperation of the UASI areas as they are, 
and their communication with each other and their communication 
with State emergency management and homeland security offices, 
it shouldn't put that burden with--at the local level because 
we have to make sure that through the sharing of resources we 
can protect our entire State, whether it is urban, rural, 
border, or on a----
    Ms. Jackson Lee. Thank you.
    Ms. Eide [continuing]. On a port.
    Ms. Jackson Lee. Thank you. Let me get Mr. Parsons.
    For a long time States have complained that they lack 
visibility of a port grant investments and port security plans. 
Can you describe some of the efforts port authorities have 
undertaken to improve coordination with State and local 
governments?
    Now, I will put a little bit of humor in it: Are you making 
sure you have got press conferences to make sure the State is 
seen at the press conference, as well? I am being a little bit 
humorous, but is there an outreach that ports do to ensure that 
coordination?
    Mr. Parsons. Thank you, Congresswoman.
    I haven't seen a place that plans and cooperates like 
southern California. It is truly amazing. The venues for that 
are many and varied; the area maritime security committees that 
meet quarterly--there are State representation at those 
meetings. California has its own maritime security committee 
that meets at least biannually. There is interplay with 
subcommittee of the AMSC.
    I will tell you, again, I have never seen anything like the 
number of planning meetings and the number of agencies that are 
involved in every aspect of grant collaboration, and it is 
truly amazing to go to one of these meetings. It is 
collaboration.
    The fire departments, law enforcement, everybody sits down 
and lays their cards on the table and everybody understands, as 
Congressman Perry said, that there isn't enough money to go 
around to meet everybody's wishes, but it is a very collegial, 
professional environment that understands mainly risk 
priorities, and that is the principle driver in the decision-
making product. So you see agencies stand down from their 
requests in reference to other agencies' requests.
    The American Association of Port Authorities that I 
represent here this morning do a great deal to promote that 
kind of environment. We have conferences at least twice a year. 
Local and State partners attend those conferences. The police 
commander who sits in our building, the fire battalion chief 
who sits with us, we work shoulder-to-shoulder.
    So at least in our environment, the environment I am aware 
of, which is California--and that is a pretty big playing 
field--the State is very involved, they are invited, they 
participate, and we listen to their input. I think that the 
chance for duplication in our environment is not very likely.
    Ms. Jackson Lee. Madam Chairwoman, thank you for your 
indulgence. Are you all having a second round?
    All right. Thank you.
    Mrs. Brooks. Thank you.
    We will now begin our second round of questions, and I will 
recognize myself for 5 minutes.
    As we talked about earlier, I am interested in your 
perspective on the Threat and Hazard Identification Risk 
Assessment, the THIRAs, and the capability estimation processes 
and how they are working.
    So while we have talked about tremendous collaboration and 
work, Chief Metcalf, and I just want to find out from all of 
you at the--really the State level and very concerned about 
your comment that local fire departments are not consulted as 
these THIRAs, the Threat and Hazard Identification and Risk 
Assessments, are being put together, which are critical, 
according to FEMA, in determining the level of funding that 
different jurisdictions receive.
    Chief, would you like to comment on THIRA?
    Then would, you know, like to hear from a few others how it 
has worked in your jurisdictions.
    Chief.
    Chief Metcalf. Thank you.
    First of all, to be clear, we don't have any objection at 
all to the business of threat assessment. That is a core part 
of how we do business in the fire service every day is 
understanding the specific threats in our communities and 
prioritizing our resource applications, to meet those threats. 
We get that.
    What we don't see, or we--there is a process that has been 
created here of trying to do this threat assessment and 
allocation of resources at a macro level, at the State level, 
that in many, many places around this country only happens at 
the State level and there isn't an effective mechanism for 
local jurisdictions to provide input. I think that when it 
comes to our members, the greatest frustration is not that they 
had the opportunity to have input and there--and we fell short 
on our prioritization; it is that there hasn't been the 
opportunity for input, period.
    I was impressed to hear about the governance structure that 
was put in place in Minnesota that sounds like it has a robust 
way of providing input from the local all the way up to the 
State level, but I can tell you that that is not the case 
across the country in many, many places, and that is the source 
of the frustration.
    So I think that it is not an objection to the--we don't 
have an objection at all to the business of threat assessment 
and prioritization. It is making sure that we have an effective 
way that local communities have input into that process.
    Mrs. Brooks. Before I go to Ms. Eide to explain the 
Minnesota process in a little bit more detail, are there any 
other local officials that would like to comment on involvement 
with the States' interaction with you with respect to THIRA, 
whether your fire departments or yourselves? Either of you?
    Director Riggs.
    Mr. Riggs. I will just add that we had a very good process. 
It was very close with the State, with our--for example, we 
looked at the--a tornado was the situation we looked at. It is 
a very real threat in Indianapolis and the surrounding areas.
    One of the reasons it was such a good protocol for us was 
it familiarized ourselves with each other, but also we were 
able to reiterate we are the capital city in Indiana, we have 
the largest police department, fire department, we have a 
responsibility to our region and to our State. So we wanted to 
make sure that we had a robust plan enough to respond to 
anywhere in the State of Indiana when needed.
    Mrs. Brooks. Thank you.
    Ms. Eide, would you please talk a little bit more about 
your process in Minnesota? Because it is not a National process 
but maybe--and maybe should be a National model.
    Ms. Eide. Thank you, Madam Chairwoman.
    In a recent conference call there are several States that 
also start at the local level, but we saw that the THIRA was 
really the building block for good financial decision making. 
Not much different than the current hazard mitigation planning 
that goes on in every county in the country as far as 
identifying what your risks are; this adds the threat component 
to it.
    We assigned a person full-time to creating some additional 
tool kits from what FEMA did. We took three different 
scenarios--one natural scenario, one technological hazard, and 
one human-caused hazard--and we started at the large cities 
over 100,000 population, and in every county.
    Some of our counties only have 3,000 people who live in the 
entire county, but every county has a local THIRA and they were 
required to have the whole community participate--their large 
employers, their critical infrastructure, not-for-profit 
organizations, and different levels of Government and multi-
discipline departments in there.
    Then when we went through these three scenarios then we 
went into the capability estimation, and that is a little bit 
more difficult and needs quite a bit of technical assistance 
not only from our State level but also from FEMA. We then moved 
it into the regions, so we rolled these--we rolled the county 
THIRAs into a regional THIRA, and I have mentioned that we have 
six homeland security regions.
    So we used that information and the different types of 
capability estimations so that we could look at our State-wide 
region, and the cities within our UASI area did individual--the 
counties in our UASI did individual, rolled up into our UASI 
THIRA. It is going to be used as a best practice to be taught 
to other States out at the Emergency Management Institute in 
Emmitsburg, Maryland, and we are very proud of what we have 
done.
    Mrs. Brooks. Thank you very much.
    I will just take a personal point. I have some friends in 
the audience, two of whom are from Minnesota, so I am sure they 
appreciate your efforts. Thank you.
    Ms. Eide. Thank you, Madam Chairwoman.
    Mrs. Brooks. With that, I will turn it over to 5 minutes of 
questions from Ranking Member Payne.
    Mr. Payne. Thank you, Madam Chairwoman.
    You know, before I ask my next question, I was interested 
in the questions that the gentleman from Pennsylvania raised 
and, you know, I think the key point he made was having honest 
brokers. In New Jersey we have seen how potentially, you know, 
these funds that were allocated for Sandy weren't necessarily 
allocated in the manner and in a timely manner as they were 
needed.
    He also talked about fraud and waste. Well, if there is a 
recipient that we find has those issues then the dollars should 
be withdrawn. But to say that when Mayor Fulop talked about 
having a program that worked in the region, you know, it is 
like saying, ``So your UASI program is working well. We will 
just subtract dollars from that since it is working and 
allocate them somewhere else.'' It doesn't make too much sense 
to me, but what do I know?
    So I have a question for all the witnesses. In your 
opinion, what about the existing homeland security grant 
structure most significantly undermines its potential and what 
solutions would you offer to fix it?
    Chief Metcalf.
    Chief Metcalf. Thank you.
    I think the most--the factor that is most undermining today 
is the uncertainty associated with the grant programs, that 
every year there is a threat to one or more of them, every year 
there is a--funding that doesn't come through that has been 
appropriated or is--that doesn't make it to the local level. 
There are UASIs that are in and out, changing eligibility 
requirements, and it makes it very difficult for us to engage 
in coherent planning efforts at the local level when there is 
that degree of uncertainty around the programs, especially for 
the last 3 years, where there has been this proposal on the 
table that is a constant threat.
    I think that one of the biggest suggestions that--or the 
two suggestions that we would make is to increase or do a 
better job of sharing best practices among grant recipients, 
that there are great things being done out there that many of 
us just don't hear about unless we happen to know someone in 
those communities. So formalizing that process of sharing best 
practices and sharing the success stories and the governance 
structures that are working in the States and in the local 
communities.
    Mr. Payne. Thank you.
    Mr. Riggs.
    Mr. Riggs. Well, obviously coming from a large urban area, 
we would like the focus to be on local municipalities and the 
threats. But I am also a realist as well and understand that 
the money is probably going to continue to come through States 
in many ways, but if there are guidelines to make sure that our 
critical infrastructure in cities are addressed, I think that 
is important.
    For instance, we have 1.7 million people in our region but 
people come to our community every day. We are one of the top 
convention areas in our Nation. We have millions of visitors 
each and every year. There are tremendous threats.
    Last week 70,000 guests in town; 2 weeks before, 40,000 
firefighters. We are always doing assessments, we are always 
planning for that. We would like to see a little bit more 
attention put to the local municipalities.
    Obviously we understand that there are major cities larger 
than ours--New York, Houston, and others--that have other 
issues. We understand that. But as New York has an issue it 
affects the Nation, if Indianapolis has an issue it affects the 
Midwest. We want to take our responsibility seriously.
    Mr. Payne. Okay. Thank you. Plus, next year the Final Four, 
right?
    Mr. Riggs. That is correct.
    We are hopefully going to have, Congresswoman, an Indiana 
team in there this year.
    Mr. Payne. All right.
    Thank you, Madam Chairwoman. I yield back.
    Mrs. Brooks. Thank you.
    At this time I would recognize the gentlelady from New York 
for 5 minutes.
    Ms. Clarke. I thank you once again, Madam Chairwoman.
    Ms. Eide, in your testimony you made the case that a strong 
State role in management of grant funds will make--will better 
ensure transparency and efficient investment, and so I have a 
couple of questions for you. One, how do you create a--
competitive process for distribution of funds, or do you, among 
your counties or municipalities? How do you avoid the one-size-
fits-all inclination that comes from trying to administer such 
a program?
    No. 2, how do you respond to concerns that have been 
expressed by local governments and first responders that States 
do not distribute funds in a timely manner? Then what 
safeguards and oversight tools will be used to enhance 
transparency and efficiency?
    Ms. Eide. Representative Clarke, those are very good 
questions.
    By creating the governance structure with grant allocation 
committee on there to actually look at all the grant 
applications that come in, throughout the year your governance 
structure has to make sure that you are addressing the priority 
areas. Then when it comes time for the grant funding 
applications to come in, then we know what general buckets we 
are going to be putting funding in to sustain what we have 
already built and then to increase what needs to be increased.
    Then taking those areas and making sure that we have a mix 
of levels of government, a mix of disciplines on a grant 
allocation committee so that, as Chief Metcalf said earlier, or 
Mr. Parsons said earlier too, that we are all working together 
and there will be less competition because they can see how 
certain things will affect the State-wide safety and security 
for the people that live there.
    We feel that through something like the NPGP we can avoid 
the one-size-fits-all because if--particularly if there 
continues to be 2-year performance period, it can be very 
difficult to spend that money in a 2-year period, particularly 
if you have overlapping grant years. That can be difficult for 
a grantee or a sub-grantee, particularly those that don't have 
full-time staff, full-time grant staff to be dealing with a lot 
of those. So we feel that this will be less of a one-size-fits-
all.
    If we cannot spend the money in one area, such as the 
Duluth Superior, the Minneapolis/St. Paul ports, then they can 
be part of that decision that this should go into another area 
that is a little bit more vulnerable at this particular time. 
So I think it eliminates a lot of the competitive process.
    Timely distribution is always going to be an issue whether 
we consolidate grants or not. It is an issue now. A lot of it 
has to do with the fact that there is uncertainty with 
reporting requirements; there is overlapping timelines; we are 
working under 3 fiscal years which crossed State and local 
fiscal years.
    It just is a very labor-intensive process for a lot of the 
reporting and accountability. I think we have to build in 
performance measures, and that is what we as the Governors 
Homeland Security Advisory Council and the National Emergency 
Management Association are really going to be focusing on is 
the performance measurements and how do we determine how we are 
buying down our risk or making our Nation more secure by using 
these homeland security grants.
    Ms. Clarke. I thank you.
    I just have one more question, and this is to all of the 
witnesses. The FEMA grant consolidation proposal relies on a 
peer review process. Do you have any concerns with FEMA's 
description of how these peer reviews will be implemented--for 
those of you who--Chief?
    Chief Metcalf. Yes. The fire service has a direct 
experience of an existing peer review grant process through the 
Assistance to Firefighters Grant, and we have found that peer 
review process to work extraordinarily well. We are pleased 
with that process and feel that it allows people that 
understand the issues, understand the profession and are able 
to see through the applications to make wise decisions.
    So the concept of a peer review process we feel is an 
excellent one. There is still not quite enough detail yet to 
understand how the process would work as proposed by--in this 
FEMA proposal, but in general, I think the fire service has a 
positive track record with peer review grants.
    Mr. Parsons. Thank you, Congresswoman.
    A couple of points. I think that the peer review process 
has worked well in the past. I think there has been a great 
learning curve that has been worked through by the agencies in 
terms of being more efficient and more effective. The days of 
the big money pipeline are gone.
    In my experience, people have got--the thing that concerns 
myself, the AAPA, is the peer review process--and again, I 
speak from a ports perspective who has received direct funding. 
We protect an international border, which we support is a 
Federal responsibility.
    ``One size does not fit all'' definitely applies to ports. 
We have a different threat environment. We have different 
adversaries; there are different ways they will attack us. We 
have different assets as to how to mitigate that threat. We 
have different databases that we use.
    So I think to clarify the competition comment, ports, which 
are substantial economic drivers to our Nation, would be 
significantly disadvantaged by being consolidated and merged 
into the overall picture. The best example is the ports of Long 
Beach and Los Angeles. We are contiguous. There is no line in 
the water.
    The two ports accept approximately 40 percent of the 
containerized cargo that comes into the United States. That is 
a formidable critical asset to protect, and I would present 
that--and I am with the chief--vulnerability assessments make 
sense. Obviously in an environment like ours we have had a lot 
of them. To develop and build capabilities off of those also 
makes a lot of sense.
    But to lump us in a category where there is such diverse 
elements that go into the decision-making process--L.A. and 
Long Beach are fierce competitors economically. As a security 
philosophy we move as one. So in an environment like that the 
peer review could have a substantial detriment for us.
    Mrs. Brooks. Thank you.
    The Chairwoman now recognizes Ms. Jackson Lee for 5 
minutes.
    Ms. Jackson Lee. Again, let me thank you for your 
courtesies. More and more as I listen to the testimony it has 
become clearer and clearer--I have been on this committee since 
the heinous tragedy of 9/11, on the select committee that 
helped formulate the Department and this committee, and I am 
reminded of how stark the needs are of the local communities 
when a tragedy hits.
    Actually, FEMA was engaged during 9/11 because there were 
people impacted and businesses, there were homes that were 
impacted--apartment homes, there were people who were left 
longing in their apartments with no resources. So FEMA goes 
right in to the heart of the crisis. When we had Hurricane Ike, 
combination of FEMA and others came in with points of 
distribution for food and water right to the local 
neighborhood.
    So I am trying to find out how we have this balance and how 
consolidation may be helpful, and I would say to Ms.--to the 
director from the State of Minnesota, Ms. Eide, that your 
vigorous structure seems valuable and I support it in your 
State. I think my concern is whether it would be even-handed 
across 50 States.
    So I want to ask just a quick question, Mr. Parsons. Do you 
have any confrontation or lack of respect for the State of 
California between the Port of Long Beach? Do you hear the 
State complaining because you get Port Security Grants?
    Mr. Parsons. No. Madam Congressman, I have heard no such 
comments.
    Ms. Jackson Lee. You feel that you are keeping them 
abreast, coordinating with them in an appropriate manner?
    Mr. Parsons. I believe that we are. Frankly, there are some 
logistical challenges. They are in Sacramento, 8 hours away by 
vehicle, and in an airplane ride, and it does take extra effort 
to do that, but I think----
    Ms. Jackson Lee. But you do do it, and the port grants 
coming to you directly makes a more efficient utilization, in 
your opinion?
    Mr. Parsons. No question----
    Ms. Jackson Lee. Chief, I work with a lot of fire fighters 
and I thank you very much for your service. I am going to ask 
you the question as well, because I know my fire fighters--in 
fact, my homeland security director is a former assistant chief 
of the Houston Fire Department. Tell me whether or not--you 
said one of the successes of FEMA homeland security grants is 
that they provide incentives for local and regional entities. 
If you lose that funding, what happens?
    Chief Metcalf. Thank you.
    I believe as much as Mr. Riggs has stated that the grants 
today have fostered an environment of collaboration at the 
local level, where we now come together and communicate and 
share information in ways that we probably may have taken a 
much longer time to get there without those incentives. I think 
that if that goes away the value of that collaboration is still 
appreciated--we still understand it; we still understand the 
value, but as there is increasing competition for time and 
resources and as a competitive nature may grow between 
communities, I think we would--I fear we would see some of that 
collaboration decline.
    Ms. Jackson Lee. Let me ask two last questions. One of the 
comments that have been made--and I will use ``comment'' as 
opposed to ``criticism''--is our local communities buy trinkets 
and so we need to have oversight over that. That is one. I 
would like a response.
    When I say that I think you understand what I am saying--
buy vehicles and other things, which I think are valuable. My 
port has been able to buy fast-speed boats, et cetera, but--and 
they have been utilized. But I want that--let's lay it out on 
the table. Let's not be frightened of that.
    The other point is, as I said, Minnesota has a vigorous 
program. My concern is that that kind of leadership, with no 
discounting of other States, may not be even-handed across 50 
States. What may be good in one State may not be good in 
others, but we know if it gets to the local jurisdiction that 
is where the pain is.
    Anyone can answer that question. I am going to go to Chief 
first about the criticism of buying things and that there 
should be more oversight over that.
    Chief Metcalf. Thank you. Thanks for giving us the 
opportunity to address that concern.
    I believe there have been well-publicized instances of 
perhaps inappropriate spending of these grant dollars, but in 
the larger scheme of things they represent a tiny, tiny 
fraction of the number of entities that are out there putting 
these funds to excellent use. There are more than 35,000 fire 
departments in this country that are doing excellent, 
outstanding work every day on these issues.
    In that have there been perhaps a few where there may have 
been inappropriate spending? Clearly yes. But I believe that we 
solve that problem by fostering and encouraging the 
collaboration, by having fire--their fire service peers, in our 
case, working to stamp out those inappropriate expenditures.
    I think having structures like what was described in 
Minnesota, where folks have the opportunity to defend their 
purchases or explain their priorities to their peers in other 
places is an excellent way to accomplish that.
    So have there been inappropriate expenditures? Absolutely. 
But I believe that what gets lost in that is the vast number of 
places where good work is being done.
    Mr. Fulop. Could I just add that yes, it is a valid 
criticism. Municipalities often buy trinkets, unfortunately, 
with a lot of these dollars. I think that is valid.
    The point, though, is that aggregation of these programs as 
proposed here won't solve municipalities purchasing trinkets. 
They are not directly related.
    Ultimately, what you will get out of this is a State 
deciding who gets the trinkets instead of the Federal 
Government deciding who gets the trinkets. So that portion 
needs to be solved, but this is not a solution for that.
    Ms. Jackson Lee. Well, I thank Madam Chairwoman. Thank you 
very much.
    If I was unclear, I am not for the consolidation and I 
appreciate the answers that the--and I appreciate Ms. Eide, as 
well. I appreciate the answers that have been given and I think 
there are other ways of oversight and I hope that we will have 
a way of working through this.
    I thank you.
    Mrs. Brooks. Well, I thank you. Thank you for your 
interest--continued interest in the committee, since you were 
here at the beginning and standing up this important 
subcommittee and committee in Congress.
    At this point that concludes our testimony and I want to 
thank the witnesses for their valuable testimony and while--and 
the Members for their questions and participation. While I 
appreciate these are incredibly difficult issues and 
discussion, there might not be complete consensus among all of 
our committee Members today, we take our role very seriously in 
advising and in making determinations with respect to FEMA and 
their proposal.
    While we appreciate all the outreach that they have done 
with the various associations that you all represent and your 
organizations, I think there is obviously still a lot of 
concern about the proposal. We appreciate that they submitted 
on Friday lengthy responses to questions that we had and we 
will continue to explore this.
    But we also just want to thank all of you. I think that in 
Government there is no role more important than the safety of 
its citizens, and so each of you play incredibly critical roles 
in the safety of the citizens that you protect and we all thank 
you so very much.
    The Members of the subcommittee will have--may have 
additional questions for you, and we will ask you to respond to 
those in writing if you should receive any of those questions 
from our committee. Pursuant to committee rule 7(c), the 
hearing record will be open for the next 10 days.
    Without objection, the subcommittee stands adjourned.
    [Whereupon, at 11:55 a.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
